<html>
<title> - NASA'S HUMAN SPACE EXPLORATION: DIRECTION, STRATEGY, AND PROGRESS</title>
<body><pre>[Senate Hearing 112-375]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-375
 
                    NASA'S HUMAN SPACE EXPLORATION: 
                   DIRECTION, STRATEGY, AND PROGRESS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
74-010                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       JOHN BOOZMAN, Arkansas, Ranking
DANIEL K. INOUYE, Hawaii             ROGER F. WICKER, Mississippi
JOHN F. KERRY, Massachusetts         MARCO RUBIO, Florida
MARIA CANTWELL, Washington           KELLY AYOTTE, New Hampshire
MARK PRYOR, Arkansas                 DEAN HELLER, Nevada
MARK WARNER, Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 2011................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Boozman.....................................     2
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     5
Statement of Senator Rubio.......................................     5
Statement of Senator Warner......................................    29

                               Witnesses

Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration.......................................     7
    Prepared statement...........................................     9
Robert D. Cabana, Director, Kennedy Space Center, National 
  Aeronautics and Space Administration...........................    30
Michael L. Coats, Director, Johnson Space Center, National 
  Aeronautics and Space Administration...........................    32
Robert M. Lightfoot, Director, Marshall Space Flight Center, 
  National Aeronautics and Space Administration..................    33

                                Appendix

Additional information submitted by NASA in response to question 
  and answer period with Senator Boozman.........................
Response to written questions submitted to Hon. Charles F. 
  Bolden, Jr. by:
    Hon. Bill Nelson.............................................    45
    Hon. Maria Cantwell..........................................    52
    Hon. Mark Pryor..............................................    54
    Hon. Mark Warner.............................................    55
    Hon. Kay Bailey Hutchison....................................    57
    Hon. John Boozman............................................    62
    Hon. Marco Rubio.............................................    64
Response to written questions submitted to Robert D. Cabana by:
    Hon. Kay Bailey Hutchison....................................    65
    Hon. John Boozman............................................    67
    Hon. Marco Rubio.............................................    67
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Michael L. Coats.............................................    69
Response to written questions submitted to Robert M. Lightfoot 
  by:
    Hon. Kay Bailey Hutchison....................................    72
    Hon. John Boozman............................................    74


   NASA'S HUMAN SPACE EXPLORATION: DIRECTION, STRATEGY, AND PROGRESS

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning.
    Well, NASA is cranking now. Think back a year ago. In the 
year since the NASA bill--the NASA bill was about the only 
thing that passed, other than appropriations bills, continuing 
resolutions that had to be done. Up until the time that we 
passed the trade bills and the patent reform bill, major 
legislation, the NASA bill, was the only thing. And now, thanks 
to this lady right over here, and another lady named Barbara 
Mikulski, we now have NASA funded, compared to other agencies, 
very well, given the financial and fiscal environment we are 
in, in which there are cuts across the board in all agencies.
    You compare NASA's budgetary level with the others, NASA 
has come out very well. And so, we now have to pass the 
appropriations bill that Senator Mikulski and Senator Hutchison 
have crafted, as they have worked it out with Congressman Wolf 
and Congressman Fattah in the final conference report on that 
minibus appropriations bill that includes NASA.
    And what it does is, it funds two lines of rockets in 
parallel. That is a balanced approach. The one line is 
developing the commercial rockets to take crew and cargo to and 
from the International Space Station. And lest you question 
anything that's going on on the International Space Station, 
realize that there is a drug that is in its final FDA trials 
that is a vaccine for salmonella, and there is another drug 
that is in its, starting FDA trials that is a vaccine for MRSA. 
And those were developed utilizing the properties of Zero-G.
    In addition, and in balance is the parallel line of 
rockets, and that is the big rocket. And that will have what 
they now are naming--it's my understanding, Mr. Administrator--
Orion. It will have a crew of seven, and it will be the big 
rocket that will enable us--and it will evolve over time in its 
capability--to get the components up into earth orbit, and to 
go further, then, out in the cosmos, whether that is first the 
President's target of 2025 for the asteroid before we go on to 
Mars, whether it's that, and go back to the moon. Those are 
things still to be determined.
    In the meantime, also in parallel, is this plethora of 
other unmanned space missions. And about to be launched is a 
Volkswagen-sized Mars rover that has a scooper that can analyze 
the Martian soil, that has a red beam that will pulverize 
rocks, and that has two eyes that stick up that will beam back 
real-time images--with the transmission delay--from Mars back 
to Earth for earthlings to see this rover going around the 
surface.
    And of course, we took off several months ago to Venus. In 
the meantime we've done, also, a mission to the Moon--to study 
the Moon's gravitational field, as well as an Earth-observing 
satellite that's in polar orbit. So, we've got a lot that's 
going on. And as we get ready for these two new rockets, 
there's the modifications to the ground operations and ground 
equipment.
    So, with that as a background, we have a very robust 
future.
    And our first witness is the Administrator of NASA. And 
then, on the second panel we have the Center Directors from the 
three primary centers charged with executing NASA's human space 
exploration initiatives. Bob Cabana is Kennedy Space Center, 
and of course, he oversees the efforts to transform the center 
into the next generation launch complex, and where the 
workforce resides that will 1 day launch the astronauts to 
Mars. And Mike Coats, Johnson Space Center, the home of Mission 
Control, the center leading the development of the Orion crew 
vehicle. And Robert Lightfoot, Marshall Space Flight Center, 
which has designed every U.S. rocket that has ever launched 
humans into space, and it's currently designing the Space 
Launch System.
    So, we look forward to this.
    I would turn to my colleague, Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you very much, Mr. Chairman. I'm 
certainly delighted to join you, our Subcommittee Chairman, 
this morning on this very important hearing.
    As always, it's a privilege to share the dais with our 
distinguished Ranking Member of the full Commerce Committee, 
Senator Hutchison. Without her consistent leadership, along 
with Senator Nelson, we would not be in a position to hear what 
I hope will be a very positive message from Administrator 
Bolden and our other distinguished witnesses from the three key 
NASA centers.
    As many have said, the Nation is at a crucial crossroads in 
our Human Spaceflight Program. We are, for the first time in 
over 30 years, without the means of transporting our astronauts 
into outer space.
    Fortunately, the passage of the 2010 NASA Authorization Act 
last year in an overwhelming bipartisan and bicameral show of 
support provided the direction needed to remedy this situation 
as soon as possible.
    This hearing is intended to provide the Committee with a 
progress report on how NASA is doing in carrying forward the 
provisions of that law, and moving us along the course outlined 
by the law.
    We're in a difficult economic time, as we all know. The 
fiscal challenges are great. And that is no less true of NASA 
than the rest of our Federal household.
    In the relatively short time I've served on this 
subcommittee, along with my more casual observations of NASA 
space flight programs over the years, I've developed a sense of 
confidence and trust in the hardworking, dedicated people of 
NASA and their support contractors. I believe the technical 
experience, expertise and commitment is there to meet these 
enormous challenges--although, sadly, somewhat diminished over 
the past year, as we have seen the awkward, unfortunately ill-
timed transition away from the Space Shuttle Program to an all 
too slowly defined set of replacement programs.
    We now must move with maximum speed and efficiency within 
the constraints we face to get back on track.
    I look forward to hearing today that we are making real 
progress in that regard. But I also want to hear if there are 
any obstacles which will remain in which my colleagues and I 
can address and remove in the months and weeks ahead.
    The effective restoration of U.S. space restoration 
leadership is simply too important to the well-being of the 
nation, both economically and competitively, for us to do 
anything less than our very best to ensure the success of what 
is now, I hope, our common shared plan for the future of U.S. 
space flight.
    Thank you, again, for convening the hearing, Mr. Chairman. 
And I look forward to the testimony and exchange of questions 
and answers to follow. And I yield back.
    Senator Nelson. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    And I want to say first that I'm going to talk about some 
of the preamble to today's hearing. But, this subcommittee has 
been instrumental in setting the direction and the course for 
NASA.
    We have provided the leadership. And I, obviously, Senator 
Nelson, you've been there from the beginning. You have been the 
spirit, the leader, the little dog that got the bone that never 
would give it up. All of those things that were necessary to 
make us go forward as we were watching the Space Shuttle 
Program come to an end. And I can't say enough good about the 
never-give-up attitude that you've had.
    I want to say, Senator Boozman, you have jumped in in your 
very first term, and you've met with the staff; you've learned 
all the issues. You've always been a supporter of NASA, but 
you're an effective leader. And thank you for taking this 
subcommittee, caring about it, and being a major force for the 
things we've been able to do. Thank you.
    And I want to say that Senator Rockefeller also has been at 
our backs. I mean, going forward, he was a little skeptical, 
frankly, about the direction that NASA was going, and whether 
it was worth doing anything. But he became convinced, and he 
has been a champion, along with us, to get our program back on 
track.
    So, I just want to say that it has taken all of that, along 
with great leadership from the House, to get where we are.
    And I thought the Congressional Gold Medal Ceremony 
yesterday was inspiring. It was beautiful. And I thought it 
should inspire all of us that all the work that we've been 
doing for the last 2 years to get us on track is not only well 
worth it, but essential; that we can't be the country that is 
backing off at a time when other countries are gearing up to go 
forward.
    And I think we have some reestablishment to do to preserve 
our leadership in human space flight. And we are here to help 
make sure that happens.
    As we were winding down the Space Shuttle Program, we were 
not in sync with the administration. And I think Congress was 
exercising its prerogatives and trying to come to terms with 
the fact that we weren't going in the right direction with the 
right amount of speed and vigor.
    But, I will say that things have changed, I believe, and 
finally, in a meeting that we had about 2 months ago with the 
Director of the OMB and others, and Mr. Bolden and his Deputy, 
we've, begun, I believe, to forge a consensus that now has 
resulted in the September 14 announcement that the Space Launch 
System design was, in fact, a reality. And the agreements, 
then, became formalized, public, and contracts, I think, I'm 
hoping you're going tell me, are let, and we're on a roll here.
    And I will also say, while talking about the impetus that 
we have--Barbara Mikulski has been a champion. I changed 
subcommittees on Appropriations in order to be ranking on the 
Subcommittee that would assure that the authorization bill that 
we passed would be fully implemented. I couldn't have done it 
without a partner like Barbara Mikulski. And I believe her 
interest in, and approach to, the science mission of NASA was 
an enhancement to assure that we would be doing the space 
program in a way that would complement and augment the science 
part. And so, we're a team on that score.
    So, now I just want to renew my pledge for the next year 
and month and a half, that we will continue to go forward 
vigorously. We will conduct oversight vigorously. But, I'm 
hoping that we won't need the nudging, or the questioning, 
because we'll all have that team effort feeling, that we're 
going forward with the same goals, with the same vigor, with 
the same trust that really is necessary to accomplish what we 
all want, I think--and that is, for us to take our astronauts 
to the space station and beyond on our own momentum, with our 
own great employees, with our own experienced staff. And that's 
my goal for the next year and month and a half for this agency, 
and being on the appropriations side, as well as the 
authorization side. We can make this happen.
    So, thank you, Mr. Chairman. And I'll look forward to 
hopefully hearing a progress report from the Administrator that 
is a positive one, and we'll all go forward singing Kumbaya. 
Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Chairman Nelson, and Ranking Member Boozman for holding 
this very important hearing today.
    I am delighted to join you in hearing what I hope will be 11Good 
News11 from NASA regarding the steps that have been taken and will be 
taken, to implement the 2010 NASA Authorization Act, especially with 
regard to development of the Space Launch System, the Multi-Purpose 
Crew Vehicle, and the plan for effective utilization of the 
International Space Station.
    It is fitting that this hearing is taking place the day after four 
of our countries' most celebrated astronauts were awarded the 
Congressional Gold Medal.
    Today's hearing is about the progress NASA is making in re-
establishment and preservation of America's leadership in Human Space 
Flight and Exploration.
    This is very critical point in the history of the American Space 
Program. The United States is, at this moment, only barely a 
``spacefaring nation,'' in that we have no independent means of 
transporting astronauts into space.
    The fact that we have the International Space Station and are able 
to live and work there is the primary toe-hold we have on the claim to 
true ``spacefaring status'' as a nation.
    That is simply unacceptable. None of us like it; we all want to fix 
it, and this hearing will, I hope, give us a measure of confidence that 
we are on the path toward the solution. As my colleagues and 
Administrator Bolden know, it took us a while to get to the point where 
we were in full agreement with the basic design of the vehicles that 
will restore our human space flight capability.
    But a little over 2 months ago, in a meeting with Jack Lew, 
Director of the Office of Management and Budget, Senator Nelson and I, 
and the Administrator and Deputy Administrator of NASA, we finally got 
there.
    We agreed that we would all work together to find the resources and 
establish the mechanisms to move forward, we saw the formal 
announcement of the decision.
    On September 14, based on our agreement, NASA announced the way 
forward for the Space Launch System. Allowing America to continue to 
support a manned space program worthy of our Nation storied history in 
space.
    Following that meeting and agreement that we would all work 
together to find the resources and establish the mechanisms to move 
forward, we saw the formal announcement of the decision.
    As is always the case, actions speak louder than words.
    Today, I am looking to hear about those actions. I believe they 
will reflect the kind of movement we have been seeking, but I also know 
they will represent only the beginning.
    We have a long way to go, and we must see an aggressive and 
sustained commitment to this undertaking.
    I assure you that I will do my part over the coming year, to ensure 
that commitment is real and that we are well on our way to ensuring 
American leadership in human space exploration.
    Thank you again, Senator Nelson and Senator Boozman. I look forward 
to hearing the testimony today and the responses to the questions from 
the Committee.

    Senator Nelson. Thank you, Senator Hutchison. Thank you for 
your heartfelt remarks.
    I have a great colleague from Florida. And on things that 
affect our state, there is very little daylight between the two 
of us. And this is another one of those subject areas--space.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. Are we in opening statements? Or 
are we in questions?
    Senator Nelson. Yes.
    Senator Rubio. OK. Thank you. I apologize for being a few 
minutes late, and echo your sentiments, and likewise, enjoy 
working with you--particularly on this program, and with our 
colleagues from Arkansas and Texas, as well.
    And let me just say--I do have some questions later on, so 
I'll be brief. But I wanted to share with you an anecdote that 
I think will make you feel pretty good, and also gives us an 
insight to the opportunity we have here.
    During the August recess, as we finished here in early 
August, one of the things I did for vacation is, we rented a 
car here in Washington and we drove home. And as we were 
driving home, we went down 95 into Florida, we spent a day at 
the Kennedy Space Center, where we got to visit and watch some 
of the things they put on there for visitors. And I hadn't been 
there since I was 8 years old. My parents took me there for my 
eighth birthday.
    Suffice it to say, a lot has changed. But my kids have 
never been there. And they left there--especially my ll-year-
old--very inspired by what America has accomplished in the past 
in the space program.
    I'll never forget--there's a line. It's from President 
Kennedy. It's his actual voice, where he justifies America's 
space ambitions, and he uses the example of someone who emerged 
from a cave--thousands of years ago-and said, why do we go to 
space? The same reason why people wonder what was on the other 
side of that mountain. And, of course, a lot of human progress 
came as a result of that. And America's space program has been 
a leader in that regard.
    And, as we were leaving there, we watched a film about the 
first lunar landing. And my 11-year-old daughter turned to me 
and asked me, ``Why don't we go to the Moon anymore?'' Which is 
not just a specific question, but in general, I think the 
question that younger Americans have is, why don't we do great 
things anymore?
    And I think we do great things. I think it's important that 
we remind them of the things we've accomplished, and all the 
things that are going on in the unmanned programs as we build 
toward manned capability once again.
    But, I really think the space program is indicative of 
everything that's phenomenal about America. We're a nation of 
dreamers. We're a nation of people that are intellectually and 
scientifically curious. I don't think I need to justify or 
outline to the members of this committee all of the commercial, 
scientific, military and economic progress that has come as a 
result of our space program.
    But, if you want a way to inspire young people in America 
to go into science, math and technology, you know, the space 
program probably can do that better than any other national 
endeavor that we have.
    Just a few moments ago I had a meeting with the first lady 
of El Salvador. And as she was departing, she picked up her 
iPhone, or, her Blackberry, and showed me pictures of her 4-
year-old son. And you'll never believe what her son had on the 
table. He had a rocket that said USA on it, a little model 
rocket. This is the first son in El Salvador, a 4-year-old. And 
I asked her, ``What does he want to be when he grows up?'' She 
says, ``He wants to be an astronaut.''
    And that is what America's space program has meant to our 
role in world leadership, is that there's a four-year-old boy 
in El Salvador, the first son, the son of the president, who 
wants to be an astronaut, and he's inspired by America's space 
program.
    There's no replacement for our country in the world. There 
are a lot of great nations that are emerging, but there's 
nothing out there that can take our place. And nothing is more 
indicative of that than our space program.
    So, obviously, we recognize the challenges we face, but 
also the extraordinary opportunities.
    And I want to thank you and everyone at NASA for the hard 
work you do. And I hope that during my 6 years here in the 
Senate--or, I guess, 5 years and 2 months that I now, that 
I've, you know, run out the clock on 10 months here--that I'll 
have an opportunity to watch as America's space program remains 
a leader in the 21st century.
    So, thank you.
    Senator Nelson. General Bolden. Thank you for being here.

           STATEMENT OF HON. CHARLES F. BOLDEN, JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Bolden. Mr. Chairman, thank you for allowing me to be 
here.
    And to you and the other members of the Subcommittee, I 
want to thank you for the opportunity to appear before this 
committee today, and to discuss the outlook for NASA's Human 
Spaceflight Program.
    Allow me first, though, to thank the Congress for 
approving, and then yesterday awarding the Congressional Gold 
Medal to Astronauts Senator John Glenn, Neil Armstrong, Buzz 
Aldrin, and Michael Collins.
    And, Senator Nelson and Senator Hutchison, I especially 
thank you both from the bottom of my heart for your inspiring 
words yesterday during the ceremony. It meant a lot.
    Contrary to popular belief, this has been an incredible 
year for NASA. We have completed assembling and outfitting the 
U.S. On-orbit Segment of the International Space Station; we've 
taken key steps in moving into the future of exploration beyond 
Low-Earth Orbit; and we've watched a private company orbit a 
spacecraft around earth and successfully deorbit and retrieve 
it intact; celebrated the 50th Anniversary of human 
spaceflight; and witnessed the successful, safe conclusion of 
the historic Space Shuttle Program.
    Orbiting about 220 miles above Earth right now, the 
International Space Station, or ISS, represents an unparalleled 
capability for human space-based research, with science 
facilities that can support a variety of disciplines. The 
Station holds the promise of new discoveries in areas directly 
related to NASA's exploration efforts, and in field that have 
terrestrial applications and can improve life here on Earth.
    NASA has engaged other organizations in the ISS program, 
and in August of this year we finalized a cooperative agreement 
with the Center for the Advancement of Science in Space, or 
CASIS, to manage the portion of the ISS that operates as a U.S. 
National Laboratory to increase usage and maximize its 
potential.
    The ISS will provide opportunities to scientists and 
technologists throughout at least 2020. And with yesterday's 
successful docking of Soyuz 28S and the planned December 
docking of Soyuz 29S, we'll restore the ISS crew complement to 
six for the nominal 6-month duration.
    To support the ISS, NASA implemented the Commercial Orbital 
Transportation Services, or COTS, effort to develop and 
demonstrate cargo transportation capabilities, and the 
Commercial Resupply Services, or CRS, contracts to procure 
cargo services to and from the Station.
    NASA is pleased with the progress being made by both of 
these efforts and we anticipate that Space Exploration 
Technologies, Incorporated, or SpaceX, and Orbital Sciences 
Corporation will begin transporting cargo to the International 
Space Station under their respective CRS contracts next year, 
in 2012.
    NASA is investing in the development of private sector 
human spaceflight capabilities through the Commercial Crew 
Development Initiative. Now the Agency is taking the next step 
through the Commercial Crew Program--a partnership between NASA 
and the private sector to incentive companies to build and 
operate safe, reliable and cost-effective commercial human 
space transportation systems.
    On September 19, NASA released a draft Request for Proposal 
for Phase 1, and the Agency plans to release the final RFP for 
this effort by the end of this year.
    NASA is aggressively moving forward with our next 
generation human spaceflight system by developing the Orion 
Multi-Purpose Crew Vehicle, or MPCV and Space Launch System, or 
SLS, which will take astronauts beyond Low-Earth Orbit.
    NASA's plans include an uncrewed system test flight of the 
Orion and SLS in 2017, and a crewed flight test in 2021.
    In May I approved the Orion-based reference vehicle design 
for the MPCV, as Orion mapped well to the scope of our deep 
space MPCV requirements. The Agency's current contractual 
partnership with Lockheed Martin Corporation will therefore be 
used for at least the development phase of the Orion.
    In early Fiscal Year 2014, NASA plans to conduct 
Exploration Flight Test-1, or EFT-1--an uncrewed test mission 
using an early production variant of the Orion--that will help 
validate the vehicle's heat shield performance. In September I 
selected the design for the SLS, which will take our astronauts 
farther into space than ever before.
    Early flights will be capable of lifting 70 to 100 metric 
tons, evolving to a capacity of 130 metric tons.
    SLS will use a liquid hydrogen and liquid oxygen propulsion 
system based on the Shuttle Main Engines, and an upper stage 
that uses the Ares I J2X engine.
    While NASA plans to use five-segment solid rocket boosters, 
for at most the first two initial capability flights there will 
be a competition to develop the follow-on boosters.
    The Orion MPCV and SLS launcher will provide the United 
States with flexibility to conduct missions to a variety of 
compelling destinations beyond LEO, such as the Earth-Moon or 
Sun-Earth Lagrange points; near-Earth asteroids, the Moon, and 
the moons of Mars, and, yes, Mars itself.
    As we look to the future of human spaceflight, NASA is 
working with the National Research Council to develop roadmaps 
to guide our technology investment strategy. We're exploring 
innovative ways to drive a rapid pace of progress; reduce 
lifecycle costs; and minimize the risk of incorporating new 
technologies into system designs.
    NASA is also actively engaging with the international 
community through both the ISS partnership and the 
International Space Exploration Coordination Group, or ISECG, 
which recently released the initial version of a Global 
Exploration Roadmap. The GER examines options for expanding 
human presence into the solar system, with a human mission to 
explore the surface of Mars as its ultimate goal.
    NASA, with our commercial and international partners, has 
embarked on a new phase of human space exploration and 
development. In LEO, we see the culmination of the efforts of 
many nations to construct the ISS and the beginnings of a new 
way of doing business. The use of commercially provided 
services rather government-owned vehicles to transport crew and 
cargo from earth to LEO and back. This will enable NASA to 
focus on sending our astronauts on missions of exploration 
beyond LEO with the Orion and SLS. We're committed to 
developing an affordable, sustainable next generation human 
spaceflight system that will enable human exploration, 
scientific discovery, broad commercial benefits, and 
inspirational missions that are in the best interest of the 
Nation.
    We need your continued support to provide the funding 
required for this and all our human spaceflight efforts.
    Mr. Chairman, I'd be happy to respond to any questions you 
or other members of the Subcommittee may have at this time.
    [The prepared statement of Mr. Bolden follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the outlook for 
NASA's human space flight program. This has been a remarkable year, as 
we have completed assembling and outfitting of the U.S. On-orbit 
Segment (USOS) of the International Space Station (ISS), allowing us to 
focus on full utilization of the Station's research capabilities; taken 
key steps in moving forward into the future of exploration beyond Low-
Earth Orbit (LEO); celebrated the 50th anniversary of human 
spaceflight; and witnessed the successful conclusion of the historic 
Space Shuttle Program. We are also pleased with the progress our 
industry partners have made in developing an American capability to 
transport cargo and eventually astronauts to the ISS, and end the 
outsourcing of this work to foreign governments. More importantly, this 
will add a critical level of redundancy for transporting cargo and crew 
to the ISS. A robust transportation architecture is important to 
ensuring full utilization of this amazing research facility. Enabling 
commercial crew and cargo transportation systems in LEO allows NASA to 
focus on developing its own systems for sending astronauts on missions 
of exploration beyond LEO. This split between commercial and Government 
systems allows for a cost effective approach to promote a broad base 
for human exploration by the United States.

International Space Station
    The ISS is the culmination of the efforts of the United States and 
its Canadian, European, Japanese, and Russian partners to work together 
to construct a highly complex and capable spacecraft with components 
built in many nations around the globe, launched from four different 
space centers, and assembled on orbit by astronauts conducting over 160 
spacewalks. It represents an unparalleled capability for human space-
based research. The STS-135 mission, flown by Space Shuttle Atlantis in 
July of this year, marked the conclusion of the successful Space 
Shuttle Program after 30 years of flight, as well as the completion of 
major assembly and outfitting activities on the ISS. The Station, 
including its large solar arrays, spans the area of a U.S. football 
field and end zones, and weighs over 860,000 pounds, without its 
variety of visiting vehicles. The complex has more livable room than a 
conventional five-bedroom house, and has two bathrooms, a fitness 
center, a 360-degree window, and, most importantly, state-of-the-art 
scientific research facilities that can support a large variety of 
research disciplines. Examples include high-energy particle physics, 
Earth remote sensing and geophysics experiments, protein 
crystallization experiments, human physiology research (including bone 
and muscle research), radiation research, plant and cultivation 
experiments, combustion research, fluid research, materials science 
experiments, and biological investigations. Since November 2, 2001, 
when the crew of Expedition 1 docked with the ISS, the Station has been 
visited by more than 200 people, and has been continuously crewed for 
over 11 years. With the docking of Soyuz 28S to the ISS on November 16, 
2011, the Soyuz crew exchange capability is restored. The planned 
December 2011 docking of Soyuz 29S will restore the crew complement to 
six for a nominal six-month duration.
    Beyond being a feat of unparalleled engineering and construction, 
as well as international collaboration, the ISS is a place to learn how 
to live and work in space over a long period of time. It is a place to 
conduct research and development (R&D) that cannot be pursued on Earth 
due to our gravitational field. The three major science laboratories 
aboard the ISS--the U.S. Destiny, European Columbus, and Japanese Kibo 
facilities--as well as external test beds, enable astronauts to conduct 
a wide variety of experiments in the unique, microgravity and ultra-
vacuum environment of LEO. It is important to note that the Station 
supports R&D across an array of disciplines, including biology and 
biotechnology, Earth science, space science, human research, physical 
and materials science, and technology development. This means that R&D 
conducted aboard Station holds the promise of new discoveries not only 
in areas directly related to NASA's exploration efforts, but in fields 
that have terrestrial applications, as well. The ISS will provide these 
opportunities to scientists and technologists through at least 2020.
    In the NASA Authorization Act of 2005 (P.L. 109-155), Congress 
designated the U.S. segment of the ISS as a National Laboratory, and 
directed NASA to seek to increase the utilization of the ISS by other 
Federal entities and the private sector. To this end, on February 14, 
2011, NASA issued a cooperative agreement notice, and on August 31, 
2011, the Agency finalized a cooperative agreement with the Center for 
the Advancement of Science in Space (CASIS) to manage the portion of 
the ISS that operates as a U.S. National Laboratory. NASA has made 
solid strides in its effort to engage other organizations in the ISS 
program, and the Agency now has Memoranda of Understanding with five 
Federal agencies and Space Act Agreements with nine companies and 
universities.
    While the ISS offers extraordinary opportunities for advancing 
science and technology to other U.S. Government agencies, non-profit 
research foundations, and private firms, it will also continue to meet 
NASA's mission objective to prepare for the next steps in human space 
exploration--steps which will take astronauts beyond LEO to 
destinations such as the asteroids, the Moon, and eventually, Mars. The 
ISS is NASA's only long-duration flight analog for future human deep 
space missions. It provides an invaluable laboratory for research with 
direct application to the exploration requirements that address human 
risks associated with deep space missions. It is the only space-based 
multinational research and technology test-bed available to identify 
and quantify risks to human health and performance, identify and 
validate potential risk mitigation techniques, and develop 
countermeasures for future human exploration.
    In addition to the direct research benefits to be gained by 
utilizing the ISS as a National Laboratory, this innovative arrangement 
also supports NASA's effort to promote the development of a LEO space 
economy. National Lab partners can use the unique microgravity 
environment of space and the advanced research facilities aboard 
Station to enable investigations that may give them the edge in the 
global competition to develop valuable, high technology products and 
services. Furthermore, the demand for access to the ISS will support 
the providers of commercial crew and cargo systems. Both of these 
aspects of the U.S. segment of ISS as a National Laboratory will help 
establish and demonstrate the market for research in LEO beyond the 
requirements of NASA.

U.S. Commercial Cargo and Crew Transportation Services for the ISS
Commercial Orbital Transportation Services (COTS) and Commercial 
        Resupply Services (CRS)
    In the area of commercial cargo transportation, NASA has 
implemented a two-phased approach for developing and procuring 
services: Commercial Orbital Transportation Services (COTS) to develop 
and demonstrate commercial cargo transportation capabilities; and 
Commercial Resupply Services (CRS) to procure cargo resupply services 
to and from the ISS. NASA is pleased with the progress being made by 
Space Exploration Technologies, Inc. (SpaceX) and Orbital Sciences 
Corporation (Orbital) on both of these efforts.
    We anticipate that these providers will begin transporting cargo to 
the ISS in 2012--a challenging endeavor that will mark a significant 
milestone for both companies. NASA and these providers have spent many 
years preparing for the full utilization phase of ISS; now is the time 
when we will begin to see the fruits of this planning and development. 
NASA is engaged in ISS utilization and with the help and dedication of 
these providers; the ISS will be more extensively utilized and 
positioned to demonstrate the benefits of space-based R&D more widely 
to the world.

Commercial Crew Development (CCDev)
    NASA's investments have been aimed at stimulating efforts within 
the private sector to develop and demonstrate human spaceflight 
capabilities through the CCDev initiative. Since 2009, NASA has 
conducted two CCDev rounds, soliciting proposals from U.S. industry to 
further advance commercial crew space transportation system concepts, 
and mature the design and development of elements of the system, such 
as launch vehicles and spacecraft. In the first round of CCDev, NASA 
awarded five funded Space Act Agreements (SAAs) in February 2010, which 
concluded in the first quarter of 2011. Awardees and the amounts of the 
awards were: Blue Origin, $3.7 million; the Boeing Company, $18.0 
million; Paragon Space Development Corporation, $1.4 million; Sierra 
Nevada Corporation, $20.0 million; and United Launch Alliance, $6.7 
million. Under these SAAs, companies received funding contingent upon 
completion of specified development milestones, all of which were 
successfully accomplished by the CCDev industry partners.
    During the second CCDev competition, known as CCDev2, NASA awarded 
four funded SAAs that are currently being executed with the following 
industry partners:

  <bullet> Blue Origin's work involves risk-reduction activities 
        related to its reusable biconic shaped Space Vehicle, which is 
        to be launched first on an Atlas V launch vehicle, and then on 
        Blue Origin's own Reusable Booster System. As of October 31, 
        2011, Blue Origin had successfully completed five of ten 
        milestones and NASA had provided $11.2 million of the $22 
        million planned for this effort.

  <bullet> The Boeing Company is maturing its concept for a capsule-
        based spacecraft that will be reusable for up to ten missions 
        and be compatible with multiple launch vehicles. As of October 
        31, 2011, Boeing had successfully completed five of fifteen 
        milestones and NASA had provided $52.5 million of the $112.9 
        million planned for this effort.

  <bullet> Sierra Nevada Corporation (SNC) is maturing its Dream 
        Chaser, a reusable, piloted lifting body, derived from NASA's 
        HL-20 concept that will be launched on an Atlas V launch 
        vehicle. As of October 31, 2011, SNC had successfully completed 
        five of thirteen milestones and NASA had provided $30 million 
        of the $105.6 million planned for this effort.

  <bullet> SpaceX is maturing its flight-proven Falcon 9/Dragon 
        transportation system focusing on developing an integrated, 
        side-mounted Launch Abort System. Their crew transportation 
        system is based on the existing Falcon 9 launch vehicle and 
        Dragon spacecraft. As of October 31, 2011, SpaceX had 
        successfully completed four of ten milestones and NASA had 
        provided $40 million of the $75 million planned for this 
        effort.

    In addition to the four funded agreements mentioned above, NASA has 
also signed SAAs without funding with three companies: Alliant 
Techsystems, Inc. (ATK); United Launch Alliance (ULA); and Excalibur 
Almaz, Incorporated (EAI). The ATK agreement is to advance the 
company's Liberty launch vehicle concept. The ULA agreement is to 
accelerate the potential use of the Atlas V as part of a commercial 
crew transportation system. The EAI agreement is to further develop the 
company's concept for LEO crew transportation. As of October 31, 2011, 
ATK had successfully completed one of five milestones; ULA successfully 
completed two of five milestones; and EAI had completed one of five 
milestones.

Commercial Crew Program (CCP)
    The CCP is a partnership between NASA and the private sector to 
incentivize companies to build and operate safe, reliable, and cost 
effective commercial human space transportation systems. In the near 
term, NASA plans to be a partner with U.S. industry, providing 
technical and financial assistance during the development phase. In the 
longer term, NASA plans to buy transportation services for U.S. and 
U.S.-designated astronauts to the ISS. We hope that these activities 
will stimulate the development of a new industry that will be available 
to all potential customers--including the U.S. Government--putting U.S. 
industry in a leadership role for this new market.
    On September 19, 2011, NASA released a draft Request for Proposals 
(RFP) for Phase 1, entitled Commercial Crew Integrated Design Contract 
(CCIDC), inviting industry to comment on the process. The final CCIDC 
RFP will incorporate input from industry as appropriate and solicit 
proposals for a complete end-to-end crew transportation and rescue 
system design, including spacecraft, launch vehicles, launch services, 
ground and mission operations, and recovery. NASA plans to release the 
final RFP for this effort by the end of 2011.
    NASA has been told consistently by a broad range of potential 
providers that private sector partners expect to be able to achieve the 
capability to provide commercial spaceflight services to the ISS within 
3-5 years from initial development start. NASA's FY 2012 budget request 
of $850 million for CCP would provide that initial start in FY 2012 for 
the development of commercial crew transportation systems, which NASA 
believes would enable services to ISS to be possible in the 2016 
timeframe. A reduction in funding from the President's request could 
significantly impact the program's schedule, risk posture, and 
acquisition strategy. NASA's initial analysis shows that a FY 2012 
funding level of $500 million (consistent with the 2010 NASA 
Authorization Act) implemented with the current contract-based NASA 
acquisition strategy would delay initial capability to ISS to 2017, 
assuming additional funding is available in the outyears.

Preparing for the Next Giant Leap--Supporting Beyond-LEO Exploration
    NASA is aggressively moving forward with our next generation human 
spaceflight system by developing the Orion Multi-Purpose Crew Vehicle 
(MPCV) and Space Launch System (SLS), which will take astronauts beyond 
LEO for the first time since the Apollo-17 lunar mission of December 
1972. NASA's plans include an uncrewed system test flight of the Orion 
and SLS in 2017, and a crewed test flight in 2021.
    In addition, we are planning to conduct Exploration Flight Test-1 
(EFT-1), an uncrewed, two-orbit, high apogee, high-energy-entry, low-
inclination test mission that is targeted for flight in early FY 2014. 
This early exploration flight test is critical to providing early data 
to influence design decisions and serving as a pathfinder to validate 
innovative new approaches to space systems development that will reduce 
the cost of exploration missions. The EFT-1 utilizes an early 
production variant of the Orion spacecraft that will be integrated on a 
Lockheed Martin-procured, commercially available heavy class launch 
vehicle. This launch vehicle will require performance capability to 
launch a mass of approximately 18 metric tons to provide the energy and 
guidance capability to achieve reentry conditions required to validate 
Orion's heat shield performance.
    The EFT-1 spacecraft will make a water landing and will be 
recovered using the 21st Century Ground System (21CGS) recovery forces 
planned for future human exploration missions. The proposed flight test 
provides an opportunity to significantly inform critical design by 
operating the integrated spacecraft hardware and software in flight 
environments that cannot be duplicated by ground testing.

Orion Multi-Purpose Crew Vehicle (MPCV)
    In May 2011, I approved the Orion-based reference vehicle design, 
outlined in NASA's January 2011 report to Congress, as the Agency's 
MPCV. The Orion, which was already being built to meet the requirements 
of a deep-space vehicle, maps well to the scope of the MPCV 
requirements outlined in the NASA Authorization Act of 2010. The 
Agency's current contractual partnership with Lockheed Martin 
Corporation will therefore be used for at least the development phase 
of the MPCV.
    The MPCV will transport crew from the Earth's surface to 
destinations beyond LEO, eventually providing all services necessary to 
support a crew of up to four for up to 21-day missions. For very long 
beyond-LEO missions, such as exploration of Near Earth Asteroids (NEAs) 
or other planetary bodies, additional elements--a space habitation 
module for example--will be included to provide long-duration deep 
space habitation capability.
    Mounted on top of the SLS for launch and ascent, the MPCV will be 
capable of performing abort maneuvers should an emergency arise, to 
safely separate from the launch vehicle and return the crew to the 
Earth's surface. MPCV will also be capable of performing in-space 
aborts if conditions require the immediate safe return of the crew. The 
vehicle will include the necessary propulsive acceleration capability 
to rendezvous with other mission elements and return the flight crew 
from the destination to the Earth's surface. In-space operations, such 
as rendezvous and docking and extravehicular activities, will be 
performed with the MPCV in conjunction with other mission elements.
    The MPCV will be capable of efficient and timely evolution, 
allowing for an incremental or ``block'' development and mission 
capability approach. This will enable early progress to be made on the 
fabrication of key design aspects, depending on available funding, 
while utilizing early testing to buy down risks associated with 
subsequent block configurations. Each test cycle will also provide an 
opportunity to on-ramp or off-ramp capabilities as the design evolves.
    Moving forward, work on the MPCV will focus only on the deep-space 
design. While the MPCV could be called upon to service the ISS as a 
contingency effort--a backup requirement established by the NASA 
Authorization Act of 2010 (P.L. 111-267)--it should be well understood 
that utilizing the vehicle for routine ISS transportation would be a 
very inefficient and costly use of the MPCV deep-space capability. NASA 
is confident in the ability of our commercial and international 
partners to provide all currently foreseen support for the ISS. 
Therefore, there is no intention to conduct routine LEO missions with 
the MPCV.

Space Launch System (SLS)
    On September 14, 2011, I selected the design of a new launch 
vehicle--the SLS--that will take the Agency's astronauts farther into 
space than ever before, create high-quality jobs here at home, and 
provide the cornerstone for America's future beyond LEO human space 
exploration efforts. This new heavy-lift rocket will be America's most 
powerful since the Saturn V rocket that carried Apollo astronauts to 
the Moon and will launch humans to places no one has gone before. SLS's 
early flights will be capable of lifting 70-100 metric tons before 
evolving to a lift capacity of 130 metric tons.
    The new rocket will use a liquid hydrogen and liquid oxygen 
propulsion system. The vehicle's core stage will utilize existing Space 
Shuttle Main Engines (SSME RS-25D) for the initial capability (the 
first four or five missions, depending on manifest requirements). NASA 
is planning to develop an expendable version of the SSME (RS-25E) which 
would have lower manufacturing costs but still provide the engine 
performance needed, particularly specific impulse in a vacuum 
environment. NASA's use of the SSME inventory will reduce initial 
design costs and take advantage of an existing human-rated system. NASA 
plans to modify and use the existing SSME contract with Pratt & Whitney 
Rocketdyne to acquire engine servicing and testing for the initial 
launch system.
    The upper stage of the SLS will also use a liquid hydrogen and 
liquid oxygen propulsion system that includes the Ares I upper stage 
engine, the J2X. NASA intends to modify the existing Ares I Upper Stage 
contract with Boeing to develop the SLS core stage and upper stage and 
will also utilize the existing J2X contract with Pratt Whitney 
Rocketdyne to continue developing the upper stage engine. The Ares I 
Upper Stage Production Contract is the only means to meet SLS milestone 
schedules and avoid substantial duplication of cost, and the Ares I 
Upper Stage has the same functionality as the SLS Core and Upper Stage 
elements. NASA also plans to modify and use the existing Ares 
Instrument Unit/Avionics contract.
    While NASA plans to use five-segment solid rocket boosters for at 
most the first two initial capability flights of the SLS, there will be 
a competition to develop the follow-on boosters based on performance 
requirements. On October 7, 2011, the Agency released a Request for 
Information for Advanced Development of the follow-on systems boosters 
and received over 30 responses from the aerospace industry.
Beyond LEO Exploration with Orion MPCV and SLS
    The primary purpose of the Orion MPCV and SLS heavy lift vehicle is 
to conduct crewed deep space missions of exploration beyond LEO. 
Together, they represent the foundational building blocks and key 
enablers for both our national and international human spaceflight 
exploration enterprise.
    The Orion MPCV and SLS launcher will provide the United States with 
the flexibility to conduct missions to a variety of compelling 
destinations beyond LEO, including NEAs, the Moon, the moons of Mars, 
and Mars itself. The ``horizon destination'' for human space 
exploration is Mars, as it represents a compelling destination for both 
robotic and human space exploration missions. A human exploration 
mission to Mars will need vital technology, systems and operational 
development to succeed in this tremendously bold and challenging 
endeavor. NASA is working to develop new technologies to support human 
missions beyond LEO through its Space Technology and Advanced 
Exploration Systems (AES) programs.

Advancing Space Exploration Technologies
    NASA recognizes that any future human exploration effort is largely 
dependent on developing breakthrough technologies that will enable us 
to safely go farther and faster into space and at a lower cost. By 
investing in high payoff, disruptive technology that industry does not 
have today, NASA matures the technologies required for future missions, 
while proving the capabilities and lowering the cost of government and 
commercial space activities.
    NASA has been working with the National Research Council to develop 
Technology roadmaps for the Agency. Much like the Science decadal 
surveys, these roadmaps will help guide our investment strategy to 
ensure NASA is advancing the technology it needs for future human 
exploration. In a draft report released to the public late this summer, 
the National Research Council made a stark observation by noting that, 
``NASA's technology base is largely depleted, and few new, demonstrated 
technologies are available to help NASA execute its priorities in 
exploration and space science.''
    Internally, NASA has identified several critical technologies to 
advance human exploration. Within the Space Technology program Congress 
authorized, NASA is working toward a FY 2016 flight demonstration to 
test long-term storage and transfer capabilities for cryogenic fluids. 
Improved capabilities in this area, in combination with the SLS heavy-
lift vehicle, will bring deep-space exploration closer to reality. In 
addition, Boeing and a team of engineers from four NASA Centers are 
working together to develop two large-scale, lightweight composite 
cryogenic propellant tanks for validation and qualification testing in 
FY 2013 that promise to achieve weight and cost savings as compared to 
traditional aluminum lithium tanks and may be used on future heavy-lift 
launch vehicles. Other significant investment includes acceleration of 
the in-space propulsion and space power generation and storage ground-
based technology development efforts required to reduce risk for a 
future planned solar electric propulsion demonstration that will enable 
efficient deep-space transportation that is required for deep-space 
exploration.
    Other technology work in development includes the following:

  <bullet> At Goddard Space Flight Center (GSFC) in Maryland, a team is 
        developing a laser-based, deep space communications system that 
        will revolutionize the way we send and receive data, video and 
        other information, using lasers to encode and transmit data at 
        rates 10 to 100 times faster than today's systems which will be 
        needed for future human and robotic space missions.

  <bullet> At NASA's Jet Propulsion Laboratory (JPL), a team is 
        developing a Deep Space Atomic Clock, which utilizes a key 
        component from the Johns-Hopkins Applied Physics Laboratory, 
        that will dramatically improve navigation and guidance in 
        future deep space missions, and may lead to an improved Global 
        Positioning System (GPS) in support of activities here on 
        Earth.

  <bullet> At JPL and the Langley Research Center, engineers are 
        working to develop lightweight planetary entry systems that 
        will enable large mass, high elevation and pinpoint landing 
        capabilities required for Mars and other planetary 
        destinations.

  <bullet> At Johnson Space Center, a team is working to build on the 
        Robonaut 2 demonstration on ISS and further NASA's development 
        of next-generation tele-robotics systems.

    Consistent with NASA's technology roadmaps, the Human Exploration 
and Operations Mission Directorate's (HEOMD) AES Program is pioneering 
new approaches for rapidly developing prototype systems, demonstrating 
key capabilities, and validating operational concepts for future human 
missions beyond Earth orbit. AES activities are uniquely related to 
crew safety and mission operations in deep space, and are strongly 
coupled to future vehicle development. Early integration and testing of 
prototype systems will reduce risk and improve affordability of 
exploration mission elements. The prototype systems developed in the 
AES program will be demonstrated in ground-based test beds, field 
tests, underwater tests, and flight experiments on the ISS. Many AES 
projects will evolve into larger integrated systems and mission 
elements that will be tested on ISS before we venture beyond Earth 
orbit. The AES and the Space Technology Programs will work closely 
together to incorporate and integrate new technologies and innovations 
as they are matured to the point of infusion.
    The AES Program is also working closely with NASA's Science Mission 
Directorate to pursue a joint program of robotic precursor activities 
that will acquire critical data on potential destinations for future 
human missions such as the Moon, NEAs, and Mars and its moons. This 
program builds upon the successful collaboration between science and 
exploration on the Lunar Reconnaissance Orbiter mission. Later this 
month, the Mars Science Laboratory will be launched. Onboard the rover 
will be a Radiation Assessment Detector to measure the radiation 
environment during the transit to and on the surface of Mars. These 
data will help researchers to understand how the Mars radiation 
environment may affect the health of future human explorers.
    The development, testing, and evolution of an array of technologies 
for missions beyond LEO, including propulsion, logistics and resupply, 
life sciences and human systems, communications, and many other areas, 
enables what we call the Capability Driven Framework, and it's the 
basic approach to safely extending human presence to multiple 
destinations throughout the solar system in a robust, sustained and 
affordable manner.
    In addition to developing building blocks for future missions, the 
AES and Space Technology programs are exploring innovative ways to 
drive a rapid pace of progress, streamline project management, and use 
NASA's resources workforce more effectively. By using small, focused 
projects to rapidly develop and test prototype systems in house, NASA 
hopes to greatly reduce lifecycle costs, and minimize the risk of 
incorporating new technologies into system designs.

A Capability Driven Framework Approach to the Human Space Exploration 
        Architecture
    NASA, in collaboration with our international, interagency, 
industry, and academic partners, continues to refine the analysis, 
planning, and communication that will be instrumental in defining an 
effective Capabilities Driven Framework as a long-term strategy for 
guiding NASA investments in capabilities, technologies, robotic 
precursors, testing and development, terrestrial analogue activities, 
and the partnerships that will enable them. NASA's ongoing and cross-
cutting Human Architecture Team (HAT) continues the integrated 
planning, development, and analysis of the human spaceflight 
exploration and operations architecture, taking into consideration 
technology, science, and supporting infrastructure.
    Leveraging the ISS as an important National research platform and 
test bed for exploration technologies and operational concepts and 
other potential missions in relatively close proximity to the Earth are 
actively being considered as part of the incremental capability build-
up approach. These include potential satellite servicing and repair 
missions, assembly of large structures, or extended duration missions 
outside the radiation protection afforded by the Earth. The High-Earth 
Orbit and Geosynchronous Orbit regions provide another opportunity to 
test spacecraft systems at greater distances and in more challenging 
environments consistent with the NASA Authorization Act of 2010 (P.L. 
111-267), which specifies that the architecture have ``. . . the 
capability to conduct regular in-space operations, such as rendezvous, 
docking, and extra-vehicular activities, in conjunction with . . . 
other vehicles, in preparation for missions beyond low-Earth orbit or 
servicing of [future observatory-class scientific spacecraft intended 
to be deployed in Earth-orbit], or other assets in cis-lunar space.''
    When looking beyond near-Earth space and LEO, several missions and 
target destinations are viable. These include Earth's closest solar 
system neighbors: the Earth-Moon or Sun-Earth Lagrange points and cis-
lunar space, NEAs, the Moon, the moons of Mars, and Mars. Each 
destination provides unique exploration and operational opportunities. 
Lunar circumnavigation and flights to Earth-Moon or Earth- Sun Lagrange 
points hold near-term promise as compelling test locations for the SLS, 
Orion MPCV, and other key emerging systems. Lagrange points are 
gravitationally stable regions created by the interaction of the 
gravity fields of any two large masses; an object placed at a Lagrange 
point will tend to stay in place for a long time. The Earth-Moon L1 and 
L2 Lagrange points could therefore be excellent ``gateways'' for a 
multitude of exciting exploration missions. The NEAs provide the 
opportunity to send humans beyond the solar orbit of Earth while 
holding compelling science and planetary defense knowledge-building 
potential. In addition to possible scientific prospects, missions to 
NEAs would afford astronauts the experience applicable to deeper-space 
missions that would eventually contribute to establishing a permanent 
human presence beyond Earth. There are a few asteroids which could be 
visited by the SLS and Orion MPCV in the time-frame under 
consideration. Additional NEA survey data will be required to identify 
and refine the catalog of potential targets.
    On a slightly longer timeline, the moons of Mars--Deimos and 
Phobos--present opportunities to blend both NEA and surface mission 
attributes in a hybrid mission that may be less risk- and resource-
intensive than a full Mars surface exploration mission, but still be 
very much on the enabling path for such a mission. Mars, being the 
farthest and most challenging destination in the capability-driven 
plan, represents a long-term goal or horizon destination for human 
exploration and later longer duration surface habitation. Mars has a 
plethora of scientifically important and resource-rich targets from 
which to choose. Collectively, the NEAs, lunar, and Mars destinations 
also respond to the NASA Authorization Act of 2010, which states that 
Congress finds ``. . . the extension of the human presence from low-
Earth orbit to other regions of space beyond low-Earth orbit will 
enable missions to the surface of the Moon and missions to deep space 
destinations such as near-Earth asteroids and Mars.''
    NASA shares the belief of its partners that challenging and 
exciting exploration missions will be international in nature, so we 
are actively engaging with the international community, facilitating 
efforts to collaboratively set the stage for human exploration missions 
of the future through both the ISS partnership and in the International 
Space Exploration Coordination Group.

International Cooperation: The Global Exploration Roadmap (GER)
    In September 2011, the initial version of the Global Exploration 
Roadmap (GER) was released by the International Space Exploration 
Coordination Group (ISECG) and its members. The GER is the culmination 
of work by 12 of the 14 ISECG space agencies over the past year to 
advance coordinated space exploration.
    The GER starts with the ISS as a foundation, and examines options 
for expanding human presence into the solar system, with a human 
mission to explore the surface of Mars as the ultimate goal. The GER 
lays out a framework for continuing international discussions, 
including Common Goals and Objectives, two potential scenarios for 
human and robotic exploration over the next 25 years: ``Asteroid Next'' 
and ``Moon Next"; and, Human Exploration Preparatory Activities. The 
exploration scenarios and preparatory activities are not binding on the 
participating agencies, but they may serve to inform agency decisions 
related to exploration activities.
    Through the work of the ISECG and the GER, many of the world's 
space agencies have begun collaboratively working on long-range 
exploration mission scenarios. Agencies are looking for near-term 
opportunities to coordinate and cooperate that represent concrete steps 
toward enabling the future of human space exploration across the solar 
system.

Implementing the Future
    In implementing NASA's missions, the Agency's Centers ensure that 
the future outlined here is brought into being. Three of NASA's Centers 
focused on human spaceflight goals are the Johnson Space Center, in 
Texas; the Kennedy Space Center, in Florida; and, the Marshall Space 
Flight Center, in Alabama. Without these Centers' highly skilled and 
dedicated workforce and state-of-the-art facilities, realizing the full 
potential of the human exploration of space would be impossible.
    The Johnson Space Center (JSC) leads the development of the Orion 
MPCV, and the Program is working to make this vehicle affordable and 
able to meet budget and schedule requirements. As part of that effort, 
NASA is finalizing Orion's flight test strategy so that flight tests 
can focus on high risk items earlier in the development cycle when it 
costs less to change them. Orion has also streamlined NASA's insight 
and oversight model, using engineering for more in-line development 
work rather than only oversight. JSC has been working closely with 
other NASA centers on program-to-program integration to ensure safe and 
successful flight.
    JSC continues to focus on operating, utilizing, and maintaining a 
safe ISS. The Center is working to enhance ISS capabilities for 
research and technology, allowing us to use Station as a test bed for 
deep space engineering demonstrations and building upon our 
international partnership.
    The Kennedy Space Center (KSC) is focused on commercial 
partnerships to support safe, reliable, and cost effective access to 
LEO and the ISS, looking for creative ways to collaborate. Currently, 
KSC has approximately 80 partnership agreements signed or in 
discussion. A successful example is the historic agreement with Space 
Florida for use of Orbiter Processing Facility-3 (OPF-3) by Boeing to 
manufacture and test their CST-100 spacecraft.
    KSC's Commercial Crew Program is developing a viable commercial 
space industry, which is will enable the U.S. to retain jobs and 
technical expertise, and the Center's 21st Century Ground Systems 
Program is going forward to build a true multi-user launch complex for 
our Nation. It is evolving from a Government-centric, government-owned 
and operated complex, to a true multiuse spaceport with Government and 
commercial operations utilizing key infrastructure for access to space.
    The Marshall Space Flight Center (MSFC) is designing and developing 
the SLS. The plan for SLS starts where we are, with a talented 
workforce, robust hardware, and unique infrastructure either already in 
place or well into development, while providing competitive 
opportunities for advanced technologies that will be evaluated on both 
performance and return on investment. The SLS Program is a lean 
organization that has streamlined its interfaces, workflow, and 
decision-making processes.
    MSFC is also responsible for hardware and payload operations for 
the ISS and such science missions as the Discovery and New Frontiers 
Programs and the Chandra X-ray Observatory. The Center continues to 
lead the way in propulsion, science and discovery, in part because of 
its exceptional team of renowned experts and many unique, specialized 
laboratories and facilities.
    All three Centers are engaged in both the AES and Space Technology 
programs developing the essential technologies required for deep space 
exploration.
    It is important to note that while JSC, KSC, and MSFC are 
represented here today, all of NASA's Centers play a role in the 
Agency's exploration efforts, whether in the form of providing valuable 
testing and other support facilities, or operating NASA's robotic 
science missions. The Agency relies on its personnel and infrastructure 
around the Nation to accomplish America's achievements in space.

Conclusion
    NASA, with our commercial and international partners, has embarked 
on a new phase of human space exploration and development. In LEO, we 
see the culmination of the efforts of many nations to construct the 
ISS. From September 2000 to October 2010, 1,149 investigations were 
conducted aboard the Space Station, including U.S., International 
Partner, and National Laboratory Pathfinder investigations. This 
research involved 1,600 scientists and has already resulted in more 
than 310 scientific publications. The Station has now entered its 
operations and research phase, and this phase will continue through at 
least 2020. This research will benefit NASA's exploration goals, but 
also go beyond this by enabling other governmental and non-governmental 
entities to conduct wide-ranging experiments that we anticipate will 
result in a variety of terrestrial benefits.
    All of this research will be supported by a new way of doing 
business: the use of commercially provided services rather than 
Government-owned vehicles to transport crew and cargo from Earth to LEO 
and back again. We are also working aggressively to bring the new 
domestic commercial cargo providers onboard. The Commercial Crew 
Program has great promise, but also some significant challenges ahead. 
Human spaceflight is a very difficult endeavor, and our industry 
partners will have the responsibility for the full end-to-end system. 
Private enterprise and affordable commercial operations in LEO will 
enable a truly sustainable step in our expansion into space--a robust, 
vibrant, commercial enterprise with many providers and a wide range of 
private and public users will enable U.S. industry to support NASA and 
other Government and commercial users safely, reliably, and at a lower 
cost. NASA is proud to help in laying the groundwork for the emerging 
LEO space economy.
    By investing in space technology research, NASA can be a 
significant part of the solution to our Nation's economic, national 
security and geopolitical challenges. NASA's Space Technology Program 
will support NASA's needs and also act as a catalyst for innovation 
throughout America's aerospace industries, and it will create new, high 
technology jobs and innovations in manufacturing that will guarantee 
American leadership in the new technology economy.
    The commercial systems will enable NASA to focus its own 
development efforts on the Orion MPCV and SLS, which will send our 
astronauts on missions of exploration beyond LEO. These systems will be 
flexible enough to support many different mission scenarios, and will 
serve well in the decades to come. One of NASA's greatest challenges 
will be to reduce the development and operating costs (both fixed and 
recurring) for human spaceflight missions to sustain a long-term U.S. 
human spaceflight program. We must plan and implement an exploration 
enterprise with costs that are credible and affordable for the long 
term under constrained budget environments. We are committed to 
developing an affordable, sustainable, and realistic next-generation 
human spaceflight system that will enable human exploration, scientific 
discovery, broad commercial benefits, and inspirational missions that 
are in the best interests of the Nation. We are also committed to the 
development of the necessary technologies required to explore our 
universe. We need your continued support to provide the funding 
required for this effort.
    Mr. Chairman, I would be happy to respond to any question you or 
the other Members of the Subcommittee may have.

    Senator Nelson. Thank you, General.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Senator, the senator with 
the bone that won't let go.
    [Laughter.]
    Senator Boozman. We appreciate your testimony and 
appreciate you being here.
    The Space Launch System and Multi-Purpose Crew Vehicle are 
anticipated to fly unmanned in 2017, and then manned in 2021. 
If SLS is planning for a $1.2 billion flat budget, can you 
explain what exemptions are made with respect to the budget for 
those projected dates?
    Mr. Bolden. Senator, I will let Robert Lightfoot, who's 
behind me, talk to specifics of your question. But in general, 
we are assuming that we are going to get $1.2 billion as a 
starting amount for SLS, and that, as an absolute minimum, 
we'll be allowed to escalate for inflation. Otherwise, it's a 
decreasing budget. And I do need to make that very clear. So, 
that's one budget assumption, if that's what you were asking.
    Senator Boozman. Really, what I wanted to know was, if you 
had a $1.8 billion, what's the difference in getting stuff 
done?
    Mr. Bolden. Sir, if I had--every time you give me more 
money, I can get it done much more rapidly, and I can--given 
the flexibility of using the funds for exploration, the 
combination of MPCV and SLS, we can build, we can execute a 
development profile which resembles what everybody else in the 
world recognizes is realism, which is, funding expenditures 
that go up and down over time, the area under the curve, if you 
want to, stays the same, because I'll spend the same amount of 
money over a given period of time, but I'll be allowed to vary 
the amount that's spent each year so that we can keep the two 
programs moving along simultaneously and get to the same end 
point together, instead of running the risk of having one 
ready, and having to wait while we try to bring the other one 
up to catch up to it.
    Senator Boozman. In regard to the Orion MPCV, in your 
testimony you state that no contract changes need to be made 
through the development phase. Is there a plan to complete the 
MPCV manufacturing in its operational phase? When is the 
development phase for the MPCV expected to be complete?
    Mr. Bolden. I'll take, for the record, when, you know, the 
date that the development phase is expected to be completed, 
because it's an evolving program, and I will have to find out 
for you the definite date that it's complete.
    But in terms of what are our plans for the future with the 
MPCV itself, we are talking about a developmental program, 
which you gets you to the point that you're satisfied that the 
configuration you have and everything else is what you want to 
go operate with for the rest of your time, and that will, that 
could end up being a competitively based contract. But that's 
down the road. We may find at that time that, you know, you 
want to do similarly to what we did this time with Orion and 
use the same configuration. But, that's yet to be decided.
    Senator Boozman. Very good.
    In your testimony you talked about the Exploration Flight 
Test, and that it will validate innovative new approaches to 
space systems development which are expected to reduce the 
costs of exploration missions.
    Can you elaborate on what you mean by new approaches, and 
how cost is reduced? What other benefits are there from, for 
this flight test? What's the expected cost? How will the flight 
tests affect risk? Some of those kind of things?
    Mr. Bolden. Every time we fly, we buy down risk. So, any 
flight test, it, one of its prime objectives is to reduce the 
risk on subsequent flights and, eventually, in the operational 
phase. So, that is always first and foremost in my mind, as a 
tester.
    If you look at the thermal protection system on the MPCV, 
it is a new system. It's one that's been developed for very 
specific purpose. One of the primary goals that we endeavor to 
see with EFT-1 is, are we right? You know, are our models 
correct? If we find out that there is extremely high fidelity 
between what the flight test shows and what the models show, it 
reduces the amount of ground tests that you have to do. It 
increases your reliance on models. It means you don't have to 
do as many tests downstream as you wanted to do.
    We did a shell buckling test, for example, at Marshall, oh, 
sometime back this past year--not directly related to SLS--but 
it demonstrated to us that we overbuild things. We took a 
segment of a solid--I think it was a solid rocket booster, I've 
got to get this right--external tank, and we put pressure on it 
until it failed. We went to failure. That showed us that we 
build things a lot stronger than we may need to do.
    You know, those are little tests, but they help in the 
downstream design of the vehicles that you're going to do. 
Every pound we can take out of a design, every piece of wire 
that we don't have to put in it, means decreased cost. And it 
also adds to the reliability of the system, because you don't 
have as many components that you have to worry about. And 
that's, those are some of the things--and, again, I'll, I'm out 
of my league here. That's why I brought these three experts 
behind me. And ask them that question, and they'll give you the 
real answer.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Nelson. Yes, sir.
    Senator Hutchison.
    Senator Hutchison. Thank you.
    Mr. Bolden, the President's budgets had been submitted 
before we had the meeting with Jack Lew, the OMB Director. And 
as you know, the Appropriations Committee and Congress changed 
the budget request from the President to fund the SLS system at 
a level in which it could be completed.
    My question is, the 2013 budget--is that being revisited 
now by NASA and OMB and the White House, to come more in line 
with what Congress has now set out as the appropriate funding 
level?
    Mr. Bolden. Senator, I, first of all, let me thank you very 
much for hosting the meeting. I thought--and you and I have 
talked about this--I thought that was a banner day for the 
country, because it represented, it proved, or demonstrated our 
ability to get together on both ends of Pennsylvania Avenue, 
both parties, and come to consensus on priorities for the 
future of the Nation. And as you remember, we all agreed that 
the three priorities for us going forward would be SLS/MPCV for 
exploration; enhancement of the International Space Station 
supported by a robust commercial crew and cargo program; and 
then the James Webb Space Telescope as the hallmark for our 
science programs.
    So, as you see it, establishing priorities was really, 
really, really important. We are adjusting our budget request 
now so as to support those priorities, but also to find ways to 
bring about the necessary expenditure of funds for things like 
technology development, without which we can't realize those 
three priorities.
    So, while SLS/MPCV is critical for exploration, it 
represents today state-of-the-art. We can't go to Mars with the 
state-of-the-art. We've got to think out of the box. These 
three guys behind me have got to have their people do 
imaginative things.
    What we fly in 2021 when we fly SLS and MPCV on a circum-
lunar mission, or whatever that demonstration flight is, my 
guess is, it will not resemble, in many ways, the vehicle 
that's flown--in terms of internal mechanisms and systems, it 
may be different from what we fly in 2007--2017. That's why I 
say it's an evolving program. So----
    Senator Hutchison. Well----
    Mr. Bolden. Yes.
    Senator Hutchison.--let me just see if I can make sure I'm 
understanding what----
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison.--you're saying. And that is, are you 
going to revisit the 2013 submission? And will it accommodate 
the numbers that you have said we have to have to build the SLS 
system more adequately than the submission before our meeting 
with Mr. Lew?
    Mr. Bolden. Senator, I the numbers that are being developed 
for the 2013----
    Senator Hutchison. 2013.
    Mr. Bolden.--budget will adequately support what we have 
agreed to as the priorities for NASA and the Nation. So, that's 
the purpose for giving it to you, so that, as I've told you all 
the time before----
    Senator Hutchison. It will be different. It is being 
revisited. It can't be what you----
    Mr. Bolden. We have revisited our budget submission, and 
that is in work right now in the Executive Office of the 
President. The budget that will come forward from the President 
in February will reflect the agreements that have been made 
between the Administration and the Congress as best we can.
    Senator Hutchison. Well, I'm very hopeful that that is 
going to cement our trust relationship, because the original 
proposal from last time at $1.3 billion is not going to do it. 
So, we've done the adjustments on our end in the 2012 budget, 
and if we are in fact all going in the same direction, we would 
expect some accommodation of that new relationship.
    Mr. Bolden. Senator, let me make sure that I clarify, make 
sure that you understand my statement, because you've made a 
statement about a specific amount. And I think you know, I'm 
not privy to discuss specific amounts at this time. But, what I 
want to emphasize to you is that we have developed----
    Senator Hutchison. Well, I'm only putting what's already 
been put out.
    Mr. Bolden. Yes, ma'am. I'm just saying, you know, we have 
put in place a plan for the development of the Space Launch 
System, Multi-Purpose Crew Vehicle, commercial crew and cargo, 
and enhancement of the International Space Station and 
utilization through 2020, those being among the three top 
priorities for the Administration and the Congress.
    Our intent is to build a budget that supports that and 
enables us to bring those in on the schedule that we presented 
to you.
    Senator Hutchison. Mm-hm.
    Mr. Bolden. So, that is our intent. And hopefully, that, 
you know, we're saying the same thing----
    Senator Hutchison. But there, the intervening meeting, and, 
meeting of the minds, and an intervening appropriations bill 
that should have an impact on what you submitted before----
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison.--these----
    Mr. Bolden. I, you know, as you will hear from the Center 
Directors, if we are, you know, if today or tomorrow, or 
whenever it is that the House is going to vote, if the minibus 
passes and it is signed by the President, that is great news 
for the Nation. It gives us firm budget numbers to which we can 
work. It increases the morale in our workforce, because they 
now know that they're not going to have to wait for 4 weeks, or 
8 weeks, or whatever it is----
    Senator Hutchison. Mr. Bolden, I'm in agreement with you on 
that.
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison. But, what I'm asking is, is NASA going 
to carry forward, and is the OMB and the President's proposal 
going to carry forward what we are passing right now, and not 
come in with another drop that forces us to have to rearrange 
priorities yet again? That's my question.
    Mr. Bolden. Let me see if I can understand the question. 
Are you asking about the balance in allocation of funds within 
the NASA budget? Are we going to stay exactly where we are now? 
You mean, between--for example, commercial crew and SLS/MPCV. 
You know, we have a difficult road ahead in SLS/MPCV at the 
level of funding that we are right now, mutually agreed to by 
the Congress and the White House. But these are very difficult 
fiscal times, and we all agree that we had to take very 
difficult measures.
    We think we have put forth a budget that will enable us to 
produce a program for exploration. We have a plan in place that 
we hope will be able to develop a commercial crew program, 
commercial crew and cargo, that will sustain our operation and 
leadership on the International Space Station. And those 
things, you know, right now, I think we have put forth a budget 
that will do that, and is in compliance with the agreements 
that you and I made, and----
    Senator Hutchison. Are you talking about what's going 
through Congress right now as your----
    Mr. Bolden. No, ma'am. We're, I thought you were asking me 
about the 2013----
    Senator Hutchison. That's what, I am.
    Mr. Bolden.--budget being developed by the Administration.
    Senator Hutchison. Well, we significantly changed direction 
after----
    Mr. Bolden. Senator, we're not----
    Senator Hutchison.--we came to the meeting of the minds 
about funding the priorities.
    Mr. Bolden. Yes.
    Senator Hutchison. You told us what you had to have, and we 
provided it for the SLS.
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison. The commercial crew vehicle system has 
never been short-changed by NASA by your administration, but 
SLS has. So, we have now set those priorities, and we've agreed 
to them----
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison.--with you and Mr. Lew. All I'm trying to 
find out, and I'm just wanting a straight answer if possible, 
is, now that we have set these priorities and we in Congress 
have put together a path forward, you're not going to 
backtrack----
    Mr. Bolden. No, ma'am. And I say again, we are going to 
live up to the agreement that we made to fund, sufficiently 
fund a system, a Space Launch System and a Multi-Purpose Crew 
Vehicle that will enable us to launch a test flight in 2017 
uncrewed, and a crewed flight in 2021, and get to Mars by 2030. 
And that's what I think we mutually agreed to. And that's what 
we're going to do.
    I go back to Senator Boozman's question about what I would 
do if I had more money. I don't have more money. I'm not going 
to get more money. So, we will do what is necessary in terms of 
the allocation of funds so that we do not back off from our 
commitment to a Space Launch System that can keep us on track 
for those target dates. I hope that's answering the question.
    Senator Hutchison. I've gone over my time. And I was hoping 
for that, what I think was a straight answer. And I will know 
for sure in February, when we do get the President's budget, 
that now that we've set this course, that we're going to stay 
on the course that we're on----
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison.--from this day forward, having the, 
NASA----
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison.--budget in the minibus----
    Mr. Bolden. And, Senator----
    Senator Hutchison.--appropriations bill.
    Mr. Bolden.--I do want to make sure what, you know, that, 
we, this is a great news story, where we are right now. And, as 
I said, again, you know, the agreement on the priorities----
    Senator Hutchison. It is a great news story.
    Mr. Bolden. Yes, ma'am.
    Senator Hutchison. Just tell me we're going to continue----
    Mr. Bolden. We're going to continue. We're going to 
continue----
    Senator Hutchison. Thank you.
    Mr. Bolden.--the great news story----
    Senator Hutchison. Thank you----
    Mr. Bolden.--yes, ma'am.
    Senator Hutchison.--Mr. Chairman.
    Senator Nelson. And, General, that's asked by a lady who is 
a bulldog in the Appropriations Committee, as well as this 
committee.
    And just to provide a little more subtext to that colloquy 
between the two of you: the Administration had originally for 
the Space Launch System requested roughly--and I'm rounding--
$1.7 billion for the SLS in Fiscal Year 2012. That ended up 
being funded at $1.86 billion in the minibus appropriation. The 
Administration had originally requested $916 million for Orion, 
and that ended up being funded at $1.2 billion.
    Where you are having some heartburn, General Bolden, is 
that the President's request for commercial crew was at $850 
million. That was funded in the Senate Appropriations Bill at 
$500 million, but in the House Appropriations bill at $312 
million. And so, we were fortunate to get that up to $406 
million, on commercial crew. And so, that's the area that we're 
going to have to work on----
    Mr. Bolden. Yes.
    Senator Nelson.--because we all agree that we want to stop 
paying as quickly as we can to the Russians for the seats to 
get to and from the International Space Station. And, that will 
be revisited as we carry on these discussions.
    Senator Hutchison. Well, that's true. But, Mr. Chairman, 
what concerns me is, the Fiscal Year 2013 budget, that was 
previously submitted before we came to these agreements, was 
$1.3 billion for the SLS. And that----
    Senator Nelson. In 2013.
    Senator Hutchison. In 2013.
    Senator Nelson. Right.
    Senator Hutchison. Which is completely insupportable if 
we're going to stay on the agreed to path, which is what I was 
trying to get him to acknowledge, that we weren't going to 
shortchange the SLS in the 2013 budget, because they're going 
to have to--if they're going to keep the agreement, they're 
going to have to adjust those numbers. I know they want more on 
the commercial side, but not at the expense of the SLS system, 
which should have been overtaken by the agreements that we made 
in my office 2 months ago.
    Senator Nelson. And I think that will resolve itself. And 
especially when you consider that the President proposes, and 
the Congress disposes. And the Congress has spoken with regard 
to the direction.
    I just think that, as a practical matter, next year we all 
are going to have to realize the fact that if we want to lessen 
the time that we're going to have to wait for commercial crew 
going to and from the Space Station, that that number is going 
to have to be addressed. But, where we are right now, in this 
Senator's opinion, we are very fortunate what you and Senator 
Mikulski did to get that number up to $406 million.
    Senator Hutchison. That's right. But, what I'm trying to do 
is suggest to the Administrator that we need to have the 
support from the President in the next submission, so that we 
aren't, in the Appropriations Committee, having to redirect 
funds.
    Senator Nelson. Exactly.
    Senator Hutchison. And I would be for increasing the 
commercial. But, I want the President to suggest where we get 
it, and I want to make sure it's not from the SLS.
    Senator Nelson. And I hope that this message is getting 
back to Jack Lew down at OMB. We got a lot of that done in our 
meeting that you referenced with the head of OMB. And 
hopefully, those agreements are going to continue. But, we're 
on a good track.
    Senator Rubio.
    Senator Rubio. Thank you.
    I wanted to explore the commercial program. Some of the 
commercial entities, as you know, have expressed concern about 
the contracting requirements. I saw testimony in the House by 
the folks over at SpaceX. They were talking a little bit about 
the difficulties of providing information that's going to have 
significant costs and schedule impacts.
    And there was an opinion piece recently run in one of the 
Florida papers that actually used the term, NASA saddling the 
commercial crew program with costly and schedule-stretching 
delays created by complex and onerous contracting methods, and 
project oversight practices which themselves add several years 
to the gap.
    So, I think we all understand the need for certification 
efforts to ensure that the vehicles are safe and are ready to 
fly, particularly people.
    Can you talk to me a little bit about the efforts we're 
making to balance this competing interest between safety, and 
deliverables versus the input that we're getting from the 
commercial space providers as far as the contracting? And I 
think, as you get ready for the end, the creative design 
contract, is it going to reflect some of the comments that 
we're hearing from the industry on all these sorts of things? I 
mean, just kind of give us an insight into that, because those 
complaints are getting a little bit more prevalent.
    Mr. Bolden. Senator, two of my responsibilities are to live 
within my budget, and foremost, to ensure the safety of my 
crews, whether they're traveling to and from the International 
Space Station, flying on a NASA airplane, or traveling to Mars. 
And that is what I'm dedicated to do.
    We understand the input from some of the commercial--
prospective commercial partners. As I mentioned, we put a draft 
RFP on the street, a Request for Proposal, which actually was--
it probably was the third iteration of putting things out that 
we intended to use as requirements for any vehicle on which 
NASA personnel fly to and from the International Space Station, 
or to Low-Earth Orbit. So, we have had the commercial partners 
working with us over the last 2 years on the development of 
mutually agreed upon human rating standards.
    We now have had input from the commercial, prospective 
commercial partners on the Request for Proposal that came from 
the draft Request for Proposal. We've posted for public 
consumption all of the comments that came from the commercial 
providers, and we continue to work with them to understand why 
they think they cannot work under the guidance of FAR 
regulation.
    There are certain things that we have to do by law in order 
to buy, to purchase goods and services from any vendor. And, I 
have to be able to come to this Congress and present numbers 
that just, that verify how I have held a contractor accountable 
for the money that I give them. If I let them build with no 
accountability, I don't satisfy my fiduciary responsibility as 
the NASA Administrator. And I also don't have a way to hold 
their feet to the fire and guarantee that my crews are going to 
be safe when they go to orbit.
    So, I do appreciate the situation, or, the position of the 
commercial entities. That is not the position of all of our 
prospective commercial vendors. I've visited with many of them. 
Most of them will tell you, they have done fixed-price 
contracts for the government for decades. They know how to do 
it; they're very comfortable with it. Their question of us is: 
we need for you to be very specific in the requirements up 
front so that we know what we're building to. And that's what 
we're working on right now.
    I cannot let a contractor go off and change configuration 
every month or week, or whatever it is, without oversight and 
insight into that. And I think that's the debate we're having 
with some of the commercial entities right now.
    Senator Rubio. OK. And, my second question is much broader, 
and it really is--one of the great thrills of my public service 
was to be at the State level, when we dealt with space program 
issues there, but largely it was about capabilities, you know, 
providing infrastructure and help in that way.
    Really, here at the Federal level, what's exciting about it 
is, we get to have a voice in the strategic vision of the 
program, and I want to explore that with you for a moment. 
Because I don't know if it's this simple. But there's somewhat 
of a debate over whether the goals of our space program should 
be capability-driven versus destination-driven. And that's a 
valid debate. And maybe there's a third way.
    And I personally lean, I think that you inspire people when 
you say, ``We're going to do this.'' And maybe there's a way to 
marry the two. As I mentioned to you earlier, my daughter asked 
why we don't fly to the moon anymore. And it's a lot easier to, 
I think, get kids excited about, we're going to certain places, 
President Kennedy did, versus, you know, the other methodology 
that may be out there. And, as I said, maybe there's a third 
way, or a way to complement both of those.
    Just share with me a little bit--I know it's the first time 
we've got to interact in a committee meeting like this--your 
vision--maybe there's a way to marry the two--but, how do we 
get people excited about space?
    Mr. Bolden. I think people are excited about space. And 
it's generational, to be quite honest with you.
    Let me first of all say, destination versus capability is 
not binary. It's not either/or. If we don't have a destination, 
we don't know what capabilities we need. We are a capabilities, 
we are putting in place a capabilities- driven program because 
we have decided--the President has told us, and Congress 
agrees--our destination, our ultimate destination for humans is 
Mars. I can't say that any more clearly. The ultimate 
destination for humans who travel with NASA is Mars. And our 
timeline for that is the 2030s.
    So, we have a place to which we're going; we have a time in 
which we want to get there. If we were to take ourselves back 
in time when President Kennedy spoke at Rice University, he 
said, ``By the end of this decade, I want humans to be safely, 
to be taken safely to, and return from, the moon.'' He didn't 
say, July 29, or 19, or, you know, August, or anything. He 
said, ``Before the end of the decade, I want them to go to the 
Moon.''
    President Obama has said, ``OK, guys, in the 2030s I want 
you to have humans capable of going to Mars with the intention 
of landing there.'' So, that's our destination.
    We don't have the technological capability to get humans 
there safely right now--at least, we don't know that we have 
that capability. And so, that's why we're doing a lot of things 
right now. We just tested the J2X engine, which is the upper 
stage engine for SLS. A full duration test on the upper stage 
engine at the Stennis Space Center.
    We have the MLP, the--you've got to had a launch pad on 
which this things sits. It just went through rollout, and it's 
out at Launch Complex 39B right now going through some tests. 
That's necessary. We tested DM-3, which is the five-segment 
solid rocket motor. That has been through a fully successful 
test.
    So, we're incrementally going along, developing the 
capabilities that we need. That's what makes it capabilities 
driven. We're going to give them to you incrementally, but 
that's--and it has to be within the budget. That's the hard 
part for all of us, is to live within the constraints of the 
budget and get where we're going----
    Senator Rubio. And now, describe--because I'm out of time, 
too. But just say, on the budget part of it, one of the 
competing interests we have is, you go out there, people argue, 
well, should we be spending this money on this with all these 
other needs that we have? I think one of the ways you justify 
that is, we get people--and I think we need to do a better job 
here in the Senate and the Congress--of getting people excited 
about that destination; of creating a national goal that we all 
talk about with our kids. I mean, I'd like to see it being 
discussed at, by the time you're my age, with our kids, America 
is going to land on the surface of Mars and return, and this is 
why it's in our national interest to do it. And, I think it's 
incumbent upon us who are in public service to create a level 
of excitement, and broad public awareness that the United 
States is working on big, exciting things like a landing on the 
surface of Mars.
    And so, we should talk in the future about how we explore 
that. Because I really, really think that that can be a 
catalyst, not just for our space program, but it can be a 
catalyst for getting kids excited about science and math, and 
being a part of that endeavor itself.
    So, thank you.
    Mr. Bolden. We made an effort just the other day to help 
keep people excited when we announced the start of the 
recruitment process for the Class of 2013 of astronauts. That's 
a big deal. You know, there are kids who have been told, if 
they look at the media, that NASA's Human Spaceflight Program 
is over. I don't recruit astronauts if I'm not intending to fly 
them.
    Senator Rubio. Yes. But the people that might walk on the 
surface of Mars are probably in high school, could be right 
now.
    Mr. Bolden. That is very true. And I hope that they want to 
aspire like the son of, the 4-year-old son of the President of 
El Salvador, you know. That's where we're going. And kids are 
excited about that. And that, we intend to keep that 
excitement.
    Senator Rubio. Thank you.
    Senator Nelson. Senator Rubio, as part of your question, I 
think it's worth noting that Senators Hutchison and Mikulski 
enabled an increase on the exploration research and development 
from the President's request of $288 million up to $304 
million. And this is exactly what you were hitting at--
developing the new technologies that we have to develop if 
we're going to Mars.
    And so, my compliments, again, to the Senators. And I might 
point out that this is a discussion about the human space 
program. But I hasten to add that the first A in NASA is 
Aeronautics, and for aeronautics, the President's request was 
$569 million, and the appropriations level is $569 million.
    So, we have that going. And, of course, that's an extremely 
important program, because that involves all of us right here, 
day to day, in our aviation activities.
    General I'll just wrap up here, just asking you to comment 
for the record on, a lot of these, flesh out the near-term 
missions. And you, in a colloquy with Senator Hutchison and 
Senator Rubio, started talking about the question of, do we go 
to the asteroid? Do we go back to the moon first? And, in your 
answer, this is going to involve international partners, 
because we're not going to do this alone. And how is the 
collaboration with the international partners? How is it likely 
to influence the determination on our way to Mars, that we 
should do this, or that mission?
    Mr. Bolden. Senator, we cannot do it alone, as you said. 
And the international collaboration in everything we do is 
critical. If I--and I'm, I will talk too long. But I--Senator 
Glenn got my attention the other night when we had the Apollo 
11 crew and Senator Glenn over at headquarters, briefing them 
on where we are today, to just bring them up to speed.
    And, he made a very insightful comment to me. He said, 
``You know, I like everything you're talking about, but you're 
talking too much about exploration, and you're not talking 
about the International Space Station. And you need to make 
sure that everybody understands that you can't explore if we 
don't utilize effectively the International Space Station.''
    And I come around to that because we don't have a binary 
system. We have to have aeronautics, or we can't land on Mars, 
because it's hypersonic flight. We have to have a way to get to 
the International Space Station, or we can't do the 
capabilities and the technology development that's going to go 
into the ultimate heavy lift launch vehicle and Multi-Purpose 
Crew Vehicle.
    The way we are going to get there, unless I pay the 
Russians $460 million a year, is through American entities. And 
so, they all tie together inextricably. And I've got to do a 
better job of explaining that.
    This is not a competition between commercial space and 
exploration. It's a collaboration. Our international partners 
will leave us if we don't get our act together and demonstrate 
to them that we can be disciplined, and we can develop 
collaborative programs that will help humans reach to these 
destinations that everybody wants to go.
    You know, we're doing well. We are still the acknowledged 
leader in the world in exploration. I watched President de 
Kirchner from Argentina when we were there visiting a couple of 
weeks ago, when we showed her the results from the Aquarius/
SAC-D mission. It's an Argentine mission that, we built the 
satellite and launched it for them out of Vandenberg about a 
month ago. It's already bringing data on salinity in the oceans 
of the world. I mean, she was like a kid in a candy store. She 
almost climbed up on the table looking at the charts about 
ocean salinity, saying, what does this mean for my nation? What 
does this mean for me as a leader? What do I need to do? The 
President asks those same questions when we bring him things. 
You all ask us those questions frequently.
    We have got to, though, we have to have international 
cooperation and collaboration, or else we can't get there.
    Senator Nelson. Is there a preference in the international 
community that they're expressing, to go back to the moon, as 
opposed, first going to the asteroid?
    Mr. Bolden. The international community mirrors the 
sentiment in the United States. Everybody says Mars is the 
ultimate destination.
    You've heard this term, flexible path. I don't know whether 
it's 50 percent or 30 percent or what. Some of the 
international partners want to go to the moon because they have 
interest, and they have expertise to get there. And they don't 
have any interest in an asteroid.
    Many of them want to go to an asteroid, and they want to do 
it right now, because that's where their expertise lies. If 
their remote, if their remote sensing, if their forte is remote 
sensing, they want to go to asteroids. If their forte is 
resource development, they want to go to the moon. So, it 
depends on, you know, what it is that's in their best interest.
    Everybody wants to go to Mars. And everyone is coming 
together to go to Mars. And we need to make sure that we pay 
attention to what's going on offshore, because everybody else 
is moving steadily together. And we don't want to be left 
behind.
    Senator Hutchison, you're absolutely right: It is essential 
that we keep the pace of the heavy lift launch vehicle and MPCV 
going. But, my challenge is to work with the Congress and the 
Administration to make sure that we don't fall behind, because 
we can't effectively utilize the International Space Station 
and maintain our leadership there. It's a challenge but we can 
do it.
    Senator Nelson. And, since everybody's hitched up to the 
goal of going to Mars, one of the things that you're going to 
have to do is develop a whole bunch of new technologies.
    Mr. Bolden. Yes.
    Senator Nelson. And, of course, I often think that if we 
can sprint to Mars in 39 days with Dr. Franklin Chang-Diaz's 
plasma rocket instead of taking 9 to 10 months. That's a game 
changer right there. And that's a technology that's being 
developed. So, who knows by the time we're ready to go to Mars, 
what the new technologies are going to be?
    Mr. Bolden. Yes.
    Senator Nelson. OK.
    Senator Hutchison. Could I just----
    Senator Nelson. Yes. Please.
    Senator Hutchison.--add one thing? And that is, we, none of 
us have talked about the President may be setting a priority 
that would rearrange some of the other scientific technology 
budgets to assure that we can do all of the three priorities 
that we have agreed are on our agreed list.
    Mr. Bolden. Senator, that's one, when I talk about 
prioritization, that's exactly what we're doing. The delicate 
balance, you know, that we play at NASA is that we have 
constituents who all have very important things. And as I said, 
this is not an either-or. You know, there are science 
imperatives that we have to be able to satisfy if we're going 
to go to Mars. And you may think they're not significant.
    We just launched NPP, which was a developmental satellite 
for us that is now an operational weather satellite. I've got 
to have that. If I don't know, you know, if I don't have 
effective weather satellites, I can't launch. It, it's just, I, 
there's nothing, you know, no capability that we can drop off 
the table.
    Now, we can drop off individual programs and projects, and 
that's what we're looking at right now. That's the 
prioritization that we're talking about. How do we accomplish 
the critical goals and objectives, but do it with less? You 
know, how do we synergize human spaceflight with robotic 
spaceflight? How do we synergize a scientific mission with a 
human spaceflight need that, you know--and those are what we 
call precursors.
    Every time we launch, we're trying to make life better here 
on earth. And it doesn't make any difference what that 
satellite is going to do, what it's stated purpose is. Almost 
every satellite that we launch in one way or another makes life 
better here on earth. And that's what we, that's the imperative 
that I ask our folk to always keep in mind. What benefit is 
this going to bring to earth, no matter what it's doing?
    Senator Hutchison. Well, I'm suggesting that the President 
also has options, not within the NASA budget, but arranging the 
priorities between NASA and some other scientific priorities, 
and determining which are the most important. That's an option 
that hasn't, you know, been talked about today that I want to 
also have on the table. Thank you.
    Mr. Bolden. Thank you, ma'am.
    Senator Nelson. Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. And I know time is 
short on the first panel, and I appreciate the courtesy of 
getting a chance to ask the Administrator, at least, I've got a 
series of questions I'd like to submit for the record. I'll 
just ask him one.
    And I again want to thank the Administrator for coming to 
my state, Virginia, the other night and speaking so well at the 
Northern Virginia Technology Council.
    You know, I want to talk a little bit about, you know, some 
of the opportunities and plans you might have for continued 
development at Wallops Island we share with Maryland, a 
facility that has greatly grown and has wonderful, wonderful 
potential. And I would like your comments on NASA's future at 
Wallops, and where you think it might be headed.
    I also want to at least note that I know this area has 
probably already been covered, but I will have a number of 
other questions in terms of my continued support for commercial 
space activities on the private sector side, and the growth of 
that opportunity; and, again, the partnership with NASA. And I 
know those subjects have been covered somewhat, but I want to 
get my two cents in on those, as well.
    But, if you could speak to some of the developments at 
Wallops.
    Mr. Bolden. Sir, specifically, with relation to Wallops, 
the senior director, or, the Facility Director out there, Bill 
O'Dell, is working diligently with Orbital Sciences and with 
MARS, an organization that you know. Our challenge there is 
completing the launch pad for Taurus II for the Orbital 
Sciences company, so that they can get off their two 
demonstration flights for us as early as possible next year in 
the COTS program, the commercial, our demonstration of their 
ability to get things to orbit. That's a very high priority for 
us right now, so we continue to do that.
    Wallops is, it's a, I always tell people, it's sort of like 
Stennis--it's a federal city. Wallops has many agencies that 
are there. It is our primary domestic balloon launch facility--
and I'm not talking about a party balloon, either. We're 
talking about balloons that are blocks long, that we take down 
to the Antarctic and launch, and they stay in, over the South 
Pole, or go up to the North Pole and stay for months at a time. 
So, Wallops plays a vital role in everything that we do in 
science, as well as in our exploration, and servicing of the 
International Space Station.
    Senator Warner. Thank you, Mr. Administrator.
    Mr. Chairman, since I was late, I will defer all my other 
questions for the record in respect to you and the other 
colleagues on the second panel.
    Senator Nelson. Thank you, Senator Warner.
    General Bolden, thank you very much.
    May I invite up the second panel. I introduced this panel 
previously.
    We'll start in the order alphabetically and thank all three 
of you--Bob Cabana, Mike Coats and Robert Lightfoot.
    Director Cabana.

            STATEMENT OF ROBERT D. CABANA, DIRECTOR,

           KENNEDY SPACE CENTER, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Cabana. Senator Nelson, Ranking Member Boozman, and 
members of the Committee, thank you for inviting me to be here 
today.
    I'm pleased to provide a status of ongoing work at the 
Kennedy Space Center. But first I'd like to thank all of you 
for your hard work toward providing a budget for NASA in 2012.
    KSC successfully made it through an extremely challenging 
transition this past year, as we safely completed the last 
shuttle mission and continued our preparations to support both 
NASA's exploration program, as well as commercial operations 
from the Cape. This would not have been possible without the 
extremely talented and dedicated workforce at KSC that deserves 
our very best.
    As we transition to the future, we've focused on providing 
a strong institutional core that is more efficient, cost 
effective, and capable of supporting multiple programs. Key 
steps in making this happen include reducing our footprint, and 
replacing aging infrastructure with greener technologies; 
partnering with Federal, state and commercial entities; and 
reorganizing our workforce to better support future operations.
    To facilitate collaboration and partnerships, we 
established the Center's Planning and Development Office to 
focus on commercial agreements. These agreements take advantage 
of KSC facilities that are excess following the shuttle, and 
are not required for our future space launch system. To date, 
this office has approximately 80 agreements in various stages 
of discussion and signature. The most notable agreement between 
Space Florida and KSC allows the use of the orbiter processing 
facility and the engine shop for commercial operations.
    We've also made significant progress in preparing for the 
Space Launch System and the Orion Multi-Purpose Crew Vehicle. 
Pad 39B has been cleared of all shuttle infrastructure and is 
undergoing a modernization that includes a state-of-the-art 
lightening protection system, digital control systems, a 
refurbished propellant distribution system, and a fiberoptic 
data transmission capability.
    In the operations in checkout high bay, hardware is already 
arriving to support assembly of the Orion test vehicle, 
currently scheduled for launch in 2014.
    The Commercial Crew Program was established at KSC this 
year, and in partnership with JSC and other NASA centers, it's 
moving forward to contract for a commercial capability to 
provide our crews with transportation to the International 
Space Station. This will relieve us of our dependence on our 
Russian partners, and allow us to focus our energy on 
exploration beyond our home planet.
    Our 21st Century Ground Systems Program is working to build 
a true multiuser launch complex. Investments in 21st Century 
focus on development of the ground systems that not only 
support the Space Launch System and Multi-Purpose Crew Vehicle, 
but provide a common infrastructure for other government and 
commercial users.
    Finally, the Launch Services Program at KSC continues to 
provide the bridge to space for NASA's science missions by 
procuring and managing commercial launch services and providing 
payload processing for final launch preparations. Next week, 
we'll be launching the Mars Science Lab from the Cape on 
November 25th.
    The Kennedy Space Center is moving forward. The potential 
exists for a revitalization of Florida's Space Coast through 
further development of the 21st Century Ground Systems Program, 
the growth of commercial crew services, and continued 
accomplishments of the Launch Services Program. We are 
committed to the success of these programs and the success of 
NASA's future exploration in space.
    I'd like to thank the Committee for this opportunity to 
share the bright future of the Kennedy Space Center and the 
Space Coast. We value your continued support and your 
confidence in our abilities to serve as the launch complex for 
America's ambitions in space.
    Thank you.
    Senator Nelson. Thank you.
    Director Coats.

            STATEMENT OF MICHAEL L. COATS, DIRECTOR,

           JOHNSON SPACE CENTER, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Coats. Good morning, Chairman Nelson, Ranking Member 
Boozman, and members of the Committee.
    I'm privileged today to be here and to be representing the 
Johnson Space Center. JSC continues to play a leadership role 
in human spaceflight design, development, operations and 
training, as well as human health and performance, orbital 
debris analysis, and curation of astromaterials. JSC continues 
to focus on safely operating, utilizing and maintaining the 
International Space Station as a National Laboratory asset.
    After the successful launch and docking of the Soyuz 
vehicle, we welcomed the three new crew members onboard the ISS 
on Tuesday. They will maintain the continuous 11-year 
uninterrupted human presence onboard. We are enhancing ISS 
capabilities for both research and technology, and also 
beginning the use of the Space Station as a test bed for deep 
space engineering demonstrations, further building upon our 
partnership of five space agencies and 15 countries.
    We are very proud of our leadership role in the development 
of the Orion Multi-Purpose Crew Vehicle--a spacecraft that will 
carry astronauts to new destinations beyond Low-Earth Orbit and 
will continue to build upon the research and expertise of the 
Human Research Program to create next generation systems to 
sustain humans in space.
    The Orion program is working to make this vehicle 
affordable and able to meet budget and schedule requirements. 
As part of that effort, NASA is finalizing Orion's flight test 
strategy so that flight tests can focus on high risk items 
earlier in the development cycle, when it costs less to change 
them.
    JSC has been working closely with other NASA centers on 
program-to-program integration to ensure safe and successful 
flight. JSC has taken an active role in the Advanced 
Exploration Systems Program--a portfolio of projects that 
target near-term demonstration of the most critical technical 
challenges for human exploration beyond Low-Earth Orbit. These 
projects are aligned with overall agency exploration policy as 
defined by the NASA's Technology Roadmaps and existing program 
needs.
    Finally, JSC is pursuing many collaborative efforts with 
partners to further innovative strategies for problem solving, 
to accelerate research and development, and deliver products 
effectively and efficiently to ensure NASA's leadership in 
human spaceflight into the future.
    Thank you again to the Committee for the opportunity to 
speak with you today, and I welcome any questions you might 
have.
    Senator Nelson. Thank you.
    Director Lightfoot.

          STATEMENT OF ROBERT M. LIGHTFOOT, DIRECTOR,

       MARSHALL SPACE FLIGHT CENTER, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Lightfoot. Good morning. And thank you, Mr. Chairman 
and members of the Subcommittee. I appreciate the opportunity 
to speak with you today and talk about Marshall Space Flight 
Center, and what we do for NASA and the Nation.
    Marshall has served this Nation in space exploration and 
science and technology development for more than 50 years. We 
support NASA in the areas of propulsion and space 
transportation, systems for living and working in space, and in 
the science and technology for helping us understand the earth 
and the universe.
    The Marshall of today is responding to NASA's new funding 
and programmatic environment by reorganizing and downsizing to 
become more affordable, adaptable and relevant to the Nation's 
needs, while retaining the capabilities we think we bring to 
the Nation as a center.
    Nowhere at Marshall are our historic strengths and our 
response to today's new realities more evident than in the 
Space Launch System, or SLS. NASA has selected a vehicle 
architecture that delivers more performance than the Saturn V, 
at less cost than the annual budget of the space shuttle.
    As SLS evolves from a 70-metric-ton initial payload to its 
ultimate payload of 130 metric tons, we've inserted competitive 
opportunities for advanced technologies that will deliver 
affordable performance. The SLS plan meets the Agency 
Affordability Goals in several key ways: We have streamlined 
the SLS programs and processes, and we're also using proven 
hardware left to us by the Shuttle Program and the 
Constellation Program that are already in place and well on 
their way through the development process.
    Through these and other initiatives, we expect to flatten 
the funding curve typical of most development programs and live 
within the means we've been provided.
    While SLS is an important part of our work at Marshall, 
it's only one part of our diverse portfolio. Our engineers and 
scientists continue to support the International Space Station 
by running the Payload Operations Center, where all payload 
operations run through our center at Marshall.
    We also support the environmental control and life support 
systems that are on the Space Station and will be used in the 
future.
    We're also excited about our efforts in supporting the 
Office of the Chief Technologist, where we do technology 
initiatives that they have planned. We're also working to 
enable the commercial providers as well, as we do, as they move 
forward. And we have some key roles we play in the Agency 
science portfolio.
    At Marshall, we're excited about the path forward for the 
Agency, and we look forward to the new opportunities and the 
challenges that will bring. But we understand the challenges 
you guys face as well in Congress. And so, to that means, we've 
already taken steps to become more affordable and more adaptive 
as we move forward.
    I appreciate the chance to speak with you today. Thank you 
for what you've done to support NASA. And I'll look forward to 
your questions.
    Senator Nelson. Senator Boozman. You need to go first. If 
you need to leave--Senator Hutchison?
    Senator Boozman. Let me go ahead and yield my time now to 
Senator Hutchison.
    Senator Nelson. Sure. All right.
    Senator Hutchison.
    Senator Hutchison. OK. Well, thank you very much. Because I 
do have another appointment. That would be great.
    I want to ask generally, each of you, how you've 
restructured your workforce organizations to support the 
exploration efforts, the International Space Station efforts, 
and the commercial resupply and crew programs. Obviously, we've 
talked a lot already about going forward with both the 
commercial trajectory as well as Orion and SLS.
    How are you accommodating your workforces and the 
downsizing that all of you have had to do, and to assure that 
you are supporting the joint goals that we have talked about, 
that we all have with those priorities?
    Mr. Coats. Well, Senator, I'll be frank. It's been a 
difficult couple of years for the workforce--amazing 
workforce--at the Johnson Space Center. We have had two major 
programs come to an end--the Shuttle Program and the 
Constellation Program--and we've laid off about 3,500 people, 
about 20 percent of our workforce at the Johnson Space Center.
    But, I've got a team down there--and I know Bob and Robert 
do, too--really talented and dedicated people. They're awfully 
proud of their history. I can't be more proud of how they 
handled the last two shuttle missions, knowing a lot of them 
were going to be laid off. They finished final assembly of the 
Space Station, and it was as smooth and seamless as you could 
have asked for.
    But this team wants to look forward. As one young lady told 
me, ``We're awfully proud of our history, but we'd like to go 
make some history of our own out there.'' The team wants 
direction; they want support from the country; they're anxious 
to get started.
    So, we have tried very hard to transition the team off of 
the Shuttle Program, off the Constellation Program, on to the 
new things we're working on, including the Space Station, of 
course. And I think it's going reasonably well. They're 
excited--frankly, they're excited about the Authorization Act 
we had last year. The seemingly endless series of continuing 
resolutions--hopefully, the minibus bill will bring that to an 
end. They're excited about that. Having direction, having 
support from Congress and the Administration means an awful lot 
to the team down there.
    They're excited about working on MPCV. When Charlie 
announced we were going to continue the Orion MPCV back in May, 
that was a huge deal at the Johnson Space Center. Extending the 
International Space Station to 2020 and beyond was a big deal 
down there. They're excited about that, and the things that 
we're doing on the International Space Station--not only the 
experiments, 150 experiments or so that we're running at any 
one time, but the test bed aspect of the Space Station and how 
important it is for exploration. That is very, very important 
to the team down there.
    We're working on the new technologies, as Senator Nelson 
talked about how important that is for exploration. So, the 
team is looking ahead; they're excited; they're proud of their 
past; but they're anxious to make the next 50 years just as 
successful as the last 50 years.
    Senator Hutchison. Thank you.
    And, Director Cabana?
    Mr. Cabana. Senator, I think the biggest change to KSC is, 
KSC has always been dependent on large single-government 
programs in the past, and we really are kind of transitioned to 
be this multi-user spaceport of the future.
    Senator Hutchison. Mm-hm.
    Mr. Cabana. And we're making that happen. When the shuttle 
landed, I mean, the team just performed flawlessly right up to 
that last mission. And it was really hard. In July, after 
Atlantis landed, the very next day, 2,500 more people walked 
out the door. The Constellation team, when the program was 
canceled, there was a huge disappointment. But that team now is 
transitioned into the 21st Century program, and they are 
excited about making KSC a true multi- user spaceport that 
supports not only our Space Launch System, but also commercial 
operations from the Cape and how that can happen.
    We've tried to make a strong engineering team that doesn't 
support, you know, it was embedded within the Shuttle Program. 
Now it's going to be an engineering team that can support 
multiple programs.
    So, I think, that's the biggest change. What I've noticed 
lately is, having a clear path forward, and now the funding to 
execute that plan, it's been a huge boost to the team. They are 
ready to move out and make this happen. And that's, I can't say 
enough good things about them. If you point them in the right 
direction and give them the tools and resources to get the job 
done, they're going to make it happen.
    So, I think we're turning the corner. I think we're 
building toward the future, and folks are excited about making 
it happen.
    Senator Hutchison. Mr. Lightfoot?
    Mr. Lightfoot. I think that for Marshall Space Flight 
Center, having just the direction and the plan to go forward 
has been a big key for us, getting past that uncertainty.
    But one of the things that--and I agree with everything 
that Mike and Bob have said about what we're trying to do from 
an Agency standpoint--but, one of the things that we did early 
on, I think, as a team--not at our centers, but as a group of 
center directors--is, we decided that we needed to stay in 
contact. It's very easy in a time of uncertainty to circle the 
wagons and, you know, become Marshall, Johnson and Kennedy. But 
we decided early on in this that we were going to stick 
together and make sure we were talking on a pretty routine 
basis.
    And we tried to transfer that on to our teams as well. I 
have two great colleagues here. I have 10 great colleagues 
overall. But these two guys have stuck by me, and we've stuck 
with each other through all this process, and make sure we're 
talking and communicating as much as we can. And I think that's 
been critical for our workforce to see that. And it's been one 
of the biggest things that's got us through this transition.
    And now I think it's one of the things that's been the 
impetus to allow us to be ready to move forward.
    Senator Hutchison. That's very positive. And I'm glad to 
hear you say that, because the sharing, obviously, is going to 
create efficiency. So, that's good news. And I just hope that 
we will be able to continue to utilize the great workforces 
that you have, accommodating to the new needs and the new 
challenges that we're all facing to achieve these goals that 
we've suggested.
    So, thank you very much.
    Thank you, Mr. Chairman.
    Senator Nelson. That is good news, a good positive 
direction.
    And, Senator, in response to your question to Director 
Cabana, would you further flesh out the fact that in this 
budget that Senator Hutchison and Senator Mikulski passed, that 
for the modernizations, for you to re-do the ground facilities 
to accommodate these new rockets, plus the 21st century, you're 
looking at funds available up to $484 million in this fiscal 
year, in this appropriations budget.
    Mr. Cabana. Yes, sir. And I think that's really important. 
The $316 million that comes from SLS toward 21st Century, 
that's money that's going to go into Launch Complex 39 that 
directly supports preparing that launch complex to support the 
heavy lift rocket. The additional $168 million that has come to 
21st Century, we're using that in conjunction with the other 
money. The modifications that we're making, we have to make 
them to support SLS.
    And I'd like to bring out, if we look back on the 
Constellation money, while we were under the continuing 
resolution, we did not, that money was not wasted. All the 
Constellation money that came to KSC we specifically said, what 
can we do that's generic to prepare Launch Complex 39 for the 
future, for commercial and for a heavy lift rocket coming, so 
that it wasn't specific, but it still made progress toward 
preparing for the heavy lift rocket? So, I think it's critical 
that those funds are used properly. And we are making sure that 
we support SLS.
    To go back to the Senator's question and comment on what 
Robert said about us working together, one of the largest 
problems with a big program like this is the integration of it. 
And we have downsized our programs so that they are less 
intensive as far as the number of personnel is concerned, so 
that they are less costly. But having the crew vehicle at 
Johnson, the rocket at Marshall, and the launch complex at KSC, 
we are working together. I think our teams that, each project 
program manager at each of those three centers, work very 
closely with each other, and with us as we prepare, you know, 
the O&C High Bay for Orion coming together.
    So, I think it's really important, it's critical, that we 
do work together, and we are utilizing those funds to the most 
efficient manner that we can.
    Senator Hutchison. Thank you.
    Senator Nelson. Thank you, Senator.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chair.
    With your permission, I think Senator Rubio has to go.
    Senator Nelson. Sure.
    Senator Rubio. And I apologize. I have an 11:45 engagement.
    Good morning. And thank you for being a part of this.
    Director Cabana, I wanted to actually just--and I think 
you've touched upon it in your opening statement and your 
answer to some of the other questions--just to elaborate some 
more on what we're doing at Kennedy Space Center to help with 
the transition from the Shuttle Program, particularly the, you 
know, how we're identifying uses for some of the facilities 
that are no longer needed in support of the shuttle operation; 
how we're helping transition people; some of the good news that 
we've had recently about people coming in; that sort of thing.
    Mr. Cabana. Sure. Approximately a year ago we went out with 
a notice of availability on facilities at Kennedy Space Center. 
As a result of that, we had a lot of interest from commercial 
companies coming to work at KSC.
    As we transition from the shuttle, this excess capacity 
that we have--not only in personnel, which is our key, but in 
facilities--you know, we have to, I can't maintain them. I'm, 
with the reduced budgets that we have, I do not have the money 
for the maintenance and operations of these facilities. We 
don't have the money to tear them down even. They'd just be 
sitting idle, falling apart.
    But we do have commercial companies that are interested in 
utilizing them. And I think our partnerships are going to be 
the key to the future, to make sure that we capitalize on these 
assets and that they don't go to waste.
    So, if we have no definitive use for them to support the 
Space Launch System, we are looking for commercial companies to 
come in. And the best partnership that we have has been through 
the State of Florida and Space Florida. It has worked extremely 
well to allow them, through a use agreement, to take over OPF-3 
and make it available for commercial operations. They in turn 
are leasing it, this first model, to the Boeing Company for the 
assembly and processing of the CST-100 capsule.
    As OPF-1 and 2 have become available, we have other folks 
that are interested in bringing work to those facilities also. 
We're making sure that the work we bring in supports NASA's 
mission and commercial operations at the Cape--commercial space 
operations, not just anybody.
    So, it's a long process. It's much more difficult than I 
thought, to get all the agreements in place to make it happen. 
But, having this first model now, I think it will be easier as 
we move forward in the future.
    Senator Nelson. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I want to thank all of you all for being here, and thank 
you for your hard work. You've had a very difficult job the 
last few years.
    I had the opportunity to be down to try and watch one of 
the launches, and it was scrubbed, but it was still really good 
being there.
    I know the most difficult times in my life have been where 
you don't know where you're at. And this has been very 
difficult for yourselves, your employees that have worked so 
hard, and really made a program that has identified the United 
States throughout the whole world. So, we can be very proud of 
that. Hopefully, we're starting to have some reassurance, some 
continuity to the program, so that that will settle down. But, 
again, we appreciate all that you're doing, and have done 
through a very difficult time.
    I've just got a couple things. And then I have a couple 
things that I'll submit for the record.
    Senator Boozman. Mr. Coats, in Mr. Bolden's testimony, he 
discusses an exploration flight test that I asked about. Can 
you describe in a little bit more detail, about the test, its 
primary goals, the benefits that we'll get from that, and how 
beneficial to the JSC?
    Mr. Coats. Senator, one of the things we've learned, that 
I've learned in 33 years in this space business in one role or 
another--and Bob and I certainly learned it as test pilots--the 
earlier you can test things and discover problems, the more 
money you're going to save down the line. So, having an early 
flight test has always been one of the options, and one of the 
important priorities for us.
    I think several things came together to make what we call, 
we're calling now the Exploration Test Flight-1 much more 
feasible. I think, getting some agreement between Congress and 
the President and the Administration on the direction of the 
space program; having some certainty in the budget and so forth 
has made EFT-1 much more viable. We've still got a long ways to 
go. We've got the find about $163 million in the MPCV budget to 
pay for that. But, if we can fly the EFT-1 flight in 2014, I 
think we'll mitigate the risk down the line, and the costs of 
the program, tremendously.
    Of course, the difference you need to understand between 
Low-Earth Orbit, being in orbit in Low-Earth Orbit and coming 
back from deep space is, we've got much higher speed entry. So, 
it's not quite the same as coming back. So, if we can do an 
EFT-1--we're not going to go into deep space, but we're going 
to go way out there and come back in, a high speed entry, which 
will test a lot of the things that we can't test with a normal 
LEO reentry out there.
    We need a heavy lift rocket, a Delta IV rocket, and we got 
a pretty reasonable deal, I think, from a contractor on that 
rocket. So if we can use that to lift the vehicle way out into 
space and bring it back, we can test the reentry capabilities.
    There are 16 items that we have on our high-risk list, if 
you will. We'll test 10 of those on EFT-1. And I think that's 
very, very important. If we can pull that off in 2014 and find 
the money to do that, we're going to save a lot of money down 
the line. We're hoping then 2 years later to have an abort test 
as well. And that's, I think, a pretty reasonable program. It's 
obviously going to depend on what the budget is in the out 
years and so forth. But, that's, we're pretty excited about 
having EFT-1. Charlie approved that, and that has got us pretty 
pumped up.
    Mr. Cabana. And, Senator, if I could add to his comments 
also--it will allow us, the recovery folks at KSC, the launch 
and recovery folks down there that will be retrieving this 
vehicle, to develop the procedures that they need to recover 
it, and it will prepare them better for the future also.
    Senator Boozman. Good. Very good. Thank you very much. 
That's very helpful.
    Senator Nelson. I just want to underscore what you all 
said, because a lot of people miss the significance of this in 
all the detail.
    We're talking about a test flight of the Orion capsule that 
is for the big rocket. And this test flight will go in two 
Fiscal Years. We're in Fiscal Year 2012 right now, and we're 
talking about Fiscal Year 2014 for this test. And for those who 
are concerned about launching rockets down at the Space Center, 
in addition to what's going on with the commercial rockets, 
then we're talking about the big rocket, developmental program 
and test program, starting as early as 2 years from now.
    So, thank you for bringing that clarity to this issue.
    What obstacles do you think there are on future 
partnerships that you all have talked about? For example, Mr. 
Cabana, you talked about Space Florida, the Boeing company 
utilizing the Orbiter Processing Facility number 3.
    Do you see any legal obstacles or other obstacles in the 
future partnerships? As you were saying, you've got two more 
OPFs. You'd like to utilize those, instead of them just sitting 
there.
    Mr. Cabana. Yes, sir. It's going to be a challenge, 
Senator. When we have a single facility that we can turn over 
to someone to use, it's much easier than if we have a joint use 
facility. If we're truly going to make the Kennedy Space Center 
Launch Complex 39 a multiuser spaceport, where we run into 
issues is when we have a government program and a commercial 
program, for example, both operating out of the vehicle 
assembly building, rolling out to the pad, and we get into 
cross-waivers, the liability, and who's responsible, and how 
much do you pay?
    When you turn a facility over, it's pretty clear what the 
O&M costs on that facility are. When you have joint use of a 
facility and somebody's only in there a small portion of the 
time, for example, how do you charge their fair share?
    But, I don't see any obstacles that we can't work through. 
We're making progress. Nothing is ever easy. But, you know, we 
are going to make it work. So, we'll figure it out as we go. I 
promise you, if issues come up that we need help on, we'll make 
sure that we go to the right folks to get that help, sir.
    Mr. Lightfoot. And, Senator, I would add that, you know, 
the Michoud Assembly Facility down in New Orleans is part of 
the Marshall Space Flight Center, and we've been going to the, 
similar efforts in bringing folks in to use Michoud to help 
lower our costs as an agency.
    And it is, sometimes it can be difficult to make sure we're 
doing the right thing and bringing the right folks in to 
maintain that capability. But, we're all kind of learning from 
each other as we go through these processes to make sure we get 
the right tenants in to utilize those facilities and share 
those costs.
    Senator Nelson. Mr. Lightfoot, as we develop this big 
rocket that we're referring to here as the SLS, can you 
elaborate on what other uses there might be for the SLS vehicle 
beyond NASA's Human Exploration Program? How much of a priority 
is it for you to find other users of the SLS?
    Mr. Lightfoot. Well, we, as an Agency, are talking about 
that now. We have a couple teams in place that are looking at 
other missions that the rocket could do. And it's more than the 
lift capability. It's a lot to do with the volume. This is 
going to be a large volume as well in the payload area.
    We've talked to, we are continuing to----
    Senator Nelson. Describe that for the people that are 
listening in the audience on television right now. How big--
take, for example, what's the diameter of the current, let's 
say, the commercial rockets? And then, describe the diameter of 
the big rocket.
    Mr. Lightfoot. I don't have the commercial ones in the top 
of my head. We can get you that for the record.
    [The information on the rockets follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    But, I know the big rocket, I believe most of them are 5 
and a half meters, 18 feet. It's the largest--we're talking 27 
and a half foot in our first version, and a potential to go to 
33 feet in the upscaled version, and 130 metric tons. So, it's 
a lot more volume. And, again, so it's more than just the mass. 
It's the volume.
    So, we're talking to our science community on what, how 
could we use that rocket for that potential, any potential 
missions they have down the road, as well. And have the 
Government agencies, and even commercial folks, in terms of 
letting them know what that capability is.
    Senator Nelson. Have you had any discussions with potential 
users of that much larger volume?
    Mr. Lightfoot. Yes. We've talked to them. But it's been, 
you know, very speculative at this point. It's a lot of this, 
you've got to get it built, and we'll take advantage of it when 
it gets there.
    Senator Nelson. From your perspective, the commercial 
approach, such as used by companies as SpaceX and Orbital, and 
now Boeing is in that competition as well, versus the 
government approach to launch vehicle development--describe for 
us the differences in your mind, particularly as it pertains to 
cost. And how do these approaches differ?
    Mr. Lightfoot. Well, I think for us on the government side, 
we have a set of standards we follow and we do as part of the 
U.S. Government, especially in relation to how we buy those 
capabilities.
    The commercial guys, we're actually learning some things 
from them in terms of what they've been doing, and spending 
some time with them. I think every one of us have been to the 
commercial guys to see how they're doing it and what they're 
doing. And they have some things they can do as a commercial 
entity we can't do as the Government in terms of how they 
purchase things.
    But, for the most part, I think what we bring to the table 
is, we have a legacy and a history--not that they don't. I 
mean, they're perfectly capable and have some great folks as 
well. But, we're pulling on our legacy and history. But, we're 
also starting to poke on our legacy and history, to make sure 
we're not overdoing things, so that we can get back into the 
affordability arena in a better way.
    We have taken, I know, on the SLS we've taken some, I want 
to say, 170 ``shall statements'' we had in our documents, and 
we've knocked them down to around 25. And we're making things 
fight their way back in. At, trying very hard not to compromise 
any safety, you know, because that's critically important for 
us, but recognize where we may be putting a requirement out 
there that we can be a little bit more relaxed on than we have 
in the past. And that, and we're looking at each one of those, 
one at a time. So, that's how we're looking at it, as it 
relates to us versus the commercial guys.
    Senator Nelson. So, both approaches are trying to learn 
from each other.
    Mr. Lightfoot. I think so. We're, a lot of our workforce, a 
lot of, all the agencies' workforce in individual places are, 
we have 80-something Space Act Agreements--I think Bob said he 
had over 80--where we're helping other entities with specific 
capabilities that we have in our shop, to help them work some 
of the issues they're dealing with as they go through the 
development process as well.
    Senator Nelson. Mr. Coats, the Administrator mentioned in 
his testimony that Orion has streamlined its insight and 
oversight model. How has this streamlining saved NASA on 
development cost? And what about the lessons learned to be 
applied to larger programs?
    Mr. Coats. Well, one of the outcomes of the last 20 months 
of uncertainty, when we weren't quite sure if we were going to 
have an Orion program of any kind, the Administrator had told 
our team to continue marching on until we got that resolved. 
But, because of the series of continuing resolutions, the 
budget was very constrained for the last 20 months. So, we have 
had to look for ways to achieve efficiencies, if you will. And 
we've had excellent results, I think, working with Lockheed 
Martin, a contractor who I used to work for--as full disclosure 
here.
    But, I think we've learned a lot about working together and 
looking for ways to eliminate redundancies, inefficiencies; 
look for the cheapest way to get testing done, whether it's 
acoustic testing, vibration testing, whatever. What's the best 
way to get that done? We had no choice. We had to revisit all 
of the requirements that we had laid out, you know, all the 
``shall statements'' that we had in our documents, and so 
forth--were they really necessary? Because that adds money to 
the program.
    We've talked about insight and oversight. We've looked at 
ways to streamline that. I think we've got an excellent working 
relationship right now with the contractor. If we can do the 
testing that we've laid out, that we talked about previously, 
EFT-1 and then the abort test and so forth, I think we've got a 
good test program laid out here and, which will mitigate and 
allay all the risks that we're worried about in the program 
right now.
    I'm really proud of the team. And they've been doing, 
they've marched on while Charlie was saying, we're going to 
resolve this. And he did in May. He made that decision. We've 
continued on with the testing. We did the pad abort testing. We 
did the impact testing last year, and the--or, last week in the 
Langley hydrolab down there.
    So, we haven't stopped the testing that we've been doing. 
It's been stretched out a little bit because of the budget 
uncertainties. There's no question about that. There has been 
an impact to the schedule. But, the team has really stayed 
focused. And I have to give a lot of credit to the team, to the 
contractor team and frankly, the senior NASA management for 
pressing on. And all this was clarified by Congress and the 
Administration.
    Senator Nelson. And, on lessons learned, Director Cabana, 
what adjustments have you made to the management of the 
Commercial Crew Program as a result of input from the industry 
and lessons learned from the Commercial Cargo Resupply Program?
    Mr. Cabana. I think one of the biggest changes is, if you 
look at previous NASA programs, they're very civil service 
intensive, a large number of FTE. The Commercial Crew Program 
that we share jointly with the Johnson Space Flight Center has 
very few--under 200 civil servants working on it.
    I think that we used the, we've looked to the launch 
services program, which has done very well procuring vehicles 
for our science missions, and how they do their work. I'm not 
saying we can go as far in that direction as they have. We're 
trying to find that middle ground that is less restrictive, or, 
intensive in many ways as previous procurements, and, to, an 
easier way of doing it, that allows this give and take between 
the government and the contractor to come to the right answer.
    Requirements are a big deal. When we talk commercial space, 
first off, everybody talks commercial space and how different 
it is. It's a government procurement by a different name. All 
our vehicles have been built by commercial companies. So, it's 
a little bit different way of doing things. And hopefully it 
will be a less expensive way of doing things that will get what 
we want out of it when we define our requirements.
    And that's the key, is, we go to a fixed price contract--we 
have to firmly define what our requirements are, and not change 
them, because every change brings huge costs. So, I think if we 
put the work into it on the front end, firmly define our 
requirements, as Director Coats has said, we will be able to 
get to an answer that provides the vehicle that we need, with 
the proper insight, and is safe, and allows our crews to fly on 
it to the International Space Station in a less costly manner.
    Senator Nelson. Senator, do you have anything else?
    Senator Boozman. No. Thank you, Mr. Chairman. Again, this 
has been a very helpful hearing, I think, for all of us.
    Senator Nelson. Indeed, it has.
    Thank you, gentlemen.
    The meeting is adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Additional Information Submitted by NASA in Response to Question and 
                   Answer Period with Senator Boozman

    NASA shares the belief of its current and potential partners that 
challenging and exciting exploration missions will be international in 
nature, so the Agency is actively engaging with the international 
community, facilitating efforts to collaboratively set the stage for 
human exploration missions of the future through both the ISS 
partnership and in the International Space Exploration Coordination 
Group (ISECG). Agencies are looking for near-term opportunities to 
coordinate and cooperate that represent concrete steps toward enabling 
the future of human space exploration across the solar system. Formal 
partnerships for exploration preparatory activities are being discussed 
with several agencies where mutual interest and benefit has been 
identified. These are partnerships in the areas of advancing 
exploration technologies, robotic missions and the use of ISS. Formal 
partnerships related to human exploration missions will follow, when 
appropriate, but the timing of such partnerships is highly content 
dependent and cannot be predicted at this time. NASA and its 
international space agency colleagues will continue their work to 
understand common goals, objectives, and approaches to satisfy them.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. Over the past 2 years, there has been much debate 
within NASA, the Administration, and the broader space community 
concerning NASA's priorities and direction. What portions of the debate 
do you consider settled, and what questions do we still need to answer? 
How are you working to move the agency forward in a unified direction?
    Answer. NASA's detailed plans are described with the FY 2013 budget 
request. In more general terms, NASA is working to execute the balanced 
program of space exploration agreed to by the President and a 
bipartisan majority of Congress within a constrained budget 
environment.
    We are working to send humans to an asteroid and ultimately to 
Mars, to peer deep into space to observe how the first galaxies form, 
and to broaden human activity in low-Earth orbit (LEO). We have 
completed assembling and outfitting of the U.S. segment of the 
International Space Station (ISS), allowing us to focus on full 
utilization of the Station's research capabilities. NASA is making air 
travel safer and more efficient, learning to live and work in space, 
and operating a fleet of spacecraft to investigate the Earth, the Solar 
system and the Universe.
    The FY 2013 request supports the implementation of key priorities 
for NASA.
    First, since the historic construction of the International Space 
Station (ISS) was completed in 2011, and now that all the international 
partners have agreed to its extension to at least 2020, we must enhance 
its utilization to ensure the success of this national laboratory. For 
over eleven years, international crews of space explorers have been 
living on orbit, both building the International Space Station and 
conducting a diverse research program continuously. NASA is committed 
to making this National resource available to the broader scientific 
and commercial research community. Key to its sustainment is the 
availability of a U.S. commercial crew and cargo delivery capability as 
soon as possible. NASA is working with American companies to establish 
the next generation of safe and efficient vehicles for access to LEO 
and the ISS. In calendar year 2012, we will see the first commercial 
cargo flights to the ISS, demonstrating the innovation and capabilities 
of our industry partners and providing a path forward to end our sole 
reliance on Russian transport of astronauts. We will continue to work 
with our industry partners to develop end-to-end systems for 
transporting crew and cargo to orbit. I am committed to ensuring that 
American companies, launching from U.S. soil, are providing the cargo 
and crew transportation services that we need to keep the ISS 
functioning. We are making steady progress on these launch services. 
Later this spring and summer, we expect that both of our private 
company partners, SpaceX and Orbital Sciences, will complete 
demonstration flights of their cargo vehicles to Station and actually 
berth with the ISS, marking a major milestone in our goal to establish 
commercial space capabilities for low-Earth orbit travel. Some 
modification of the Iran, North Korea, Syria Non-proliferation Act 
(INKSNA) provisions will likely be required for the continued operation 
of ISS and other space programs after 2016. The Administration plans to 
propose appropriate provisions and looks forward to working with the 
Congress on their enactment.
    Second, with the FY 2013 budget request, NASA is moving out on 
plans to develop a flexible launch system that will ultimately be the 
most capable in history. The Space Launch System (SLS) rocket and the 
Orion Multi-Purpose Crew Vehicle (MPCV) will carry American astronauts 
beyond low-Earth orbit and into deep space within the next decade. 
Following a thorough analysis of alternatives, NASA has established 
architecture for SLS and the Orion MPCV. In recent months we have 
continued to push forward with contracting and design efforts to make 
this system a reality. At the same time, we are moving forward on a 
critical effort to develop the technologies and capabilities required 
to support our ambitious exploration goals. Our FY 2013 budget request 
supports our plans for an uncrewed SLS test flight in 2017 and a crewed 
test mission by 2021.
    Third, we plan to continue progress toward the launch of the 
world's most advanced telescope in 2018. The James Webb Space Telescope 
(JWST) will operate deep in space to orbit the sun nearly one million 
miles from Earth. From that vantage point, JWST will look out into 
space and back in time almost as far as it is possible to look. Over 
the past year, NASA has engaged in a thorough review of JWST, made 
important adjustments to management, and put the project on a sound 
financial footing. Since we completed this new plan, the project has 
met 19 of 20 FY 2011 milestones (with one deferred without impact), and 
has met all FY 2012 milestones to date on or ahead of schedule. NASA is 
confident that the FY 2013 request supports a 2018 launch of JWST.
    Fourth, the FY 2013 budget request supports continued advances in 
new space technologies. The National Research Council (NRC) has 
determined that future U.S. leadership in space requires a foundation 
of sustained technology advances, but that the U.S. space program is 
now living on the innovation funded in the past. Our focus on new space 
technologies is absolutely essential to enable NASA to achieve its 
ambitious goals. At the same time, NASA technology research seeds 
innovation, supports economic vitality and helps to create new jobs and 
expanded opportunities for a skilled work force. Space technology 
investments address long-term Agency technology priorities and 
technology gaps identified by NASA Mission Directorates and within the 
Agency's draft space technology roadmaps. On February 1, 2012, the NRC 
released its final review of NASA's Draft Space Technology Roadmaps. 
The report, which notes that NASA's technology base is largely depleted 
and identifies sixteen top-priority technologies necessary for NASA's 
future missions, which also could benefit American aerospace industries 
and the Nation. This NRC assessment will help guide NASA's technology 
priorities in the years to come.
    NASA's budget request supports a portfolio of innovative science 
missions that will explore the diverse planetary bodies of our solar 
system, unravel the mysteries of our universe and provide critical data 
about our home planet. Currently operating missions continue to return 
a stream of data from orbits around the Sun, Mercury, the Moon, the 
asteroid Vesta, Mars, and Saturn. We now have missions on the way to 
Jupiter, Pluto and Mars. Sixteen Earth Science missions in orbit study 
the Earth as an integrated system. The Hubble, Spitzer, Chandra, and 
Fermi space telescopes continue to make groundbreaking discoveries on 
an almost daily basis. In calendar year 2011, the Messenger spacecraft 
entered orbit around Mercury, Ebb and Flow began mapping the gravity 
field of the Moon, and Juno launched on its way to Jupiter. Also in 
2011, Aquarius produced the first global view of ocean surface salinity 
and the Suomi National Polar-orbiting Partnership satellite began 
making observations of Earth's weather and climate. In 2012, we will 
launch the Nuclear Spectroscopic Telescope Array to study massive black 
holes, supernovae and other high-energy sources in the universe, and 
will launch the Radiation Belt Storm Probes into Earth's Van Allen 
belts. In 2013, we will launch the next land observing mission (the 
Landsat Data Continuity Mission) and complete environmental testing of 
the Global Precipitation Measurement mission, the Lunar Atmosphere and 
Dust Environment Explorer (LADEE) and the Mars Atmosphere and Volatile 
Evolution (MAVEN) mission.
    In view of these key priorities for NASA and of our constrained 
fiscal environment, we will not be moving forward with the 2016 and 
2018 ExoMars missions we had been studying with the European Space 
Agency. Instead, NASA is developing a new, integrated strategy for Mars 
missions to ensure that the next steps for Mars exploration will 
support science and human exploration goals and take advantage of 
advanced space technology developments. NASA will complete this 
integrated plan, including the framework for a mission to take 
advantage of the 2018 or 2020 launch opportunities, no later than this 
summer and, hopefully, in time to support the FY 2013 appropriations 
process. The FY 2013 request supports this approach, and this process 
will be informed by coordination with the science community and our 
international partners. The FY 2013 budget request continues to support 
robust Mars exploration including two spacecraft orbiting Mars, the 
Opportunity rover on the surface, a multi-year exploration of Mars by 
the Curiosity Mars Science Laboratory, and the MAVEN mission to explore 
the Mars upper atmosphere. The August landing of Curiosity will be 
among the most difficult technical challenges that NASA has ever 
attempted and Curiosity's mission of exploration will far eclipse 
anything humanity has attempted on the surface of Mars in the past. We 
look forward to receiving a treasure trove of data from the surface of 
Mars to help answer questions about its past and present habitability.
    With the 2013 request, NASA will conduct aeronautics research to 
enable the realization of the Nation's Next Generation Air 
Transportation System (NextGen), and the safer, more fuel efficient, 
quieter, and environmentally responsible aircraft that will operate 
within NextGen. Through the aeronautics research we conduct and sponsor 
with universities and industry, NASA helps to develop the technology 
that enables continuous innovation in aviation. As a result, U.S. 
companies are well positioned to build on discoveries and knowledge 
resulting from NASA research, turning them into commercial products 
that benefit the quality of life for our citizens, provide new high-
quality engineering and manufacturing job opportunities, and enables 
the United States to remain competitive in the global economy.
    The request also continues NASA's dedicated efforts to inspire the 
next generation of explorers. NASA can provide hands-on experience and 
inspiration as few other agencies can. To foster the development of the 
U.S. work force, NASA's education programs will focus on demonstrable 
results and capitalize on the Agency's ability to inspire students and 
educators through unique missions and the big challenges that help 
today's young people envision their future in science, technology, 
engineering and mathematics (STEM). NASA Education is one of many 
Federal Government programs that support STEM education. NASA Education 
is working with other agencies through the National Science and 
Technology Council's Committee on STEM Education to fund coordinated 
and effective student and teacher opportunities. NASA will focus its 
resources on demonstrated areas of strength in its unique role in STEM 
education, freeing resources for other Agency priorities. NASA brings 
many assets, beyond funding, to support the Administration's emphasis 
on STEM education. Our people, platforms like the International Space 
Station, and our facilities across the Nation all contribute to 
strengthening STEM education.

    Question 2. We continue to see the characterization of a heavy lift 
capability as a competing priority with a commercial crew capability--
with strong advocacy by some for one at the exclusion of the other. 
Please explain why these capabilities are complementary and why we need 
both.
    Answer. NASA, with its commercial and international partners, has 
embarked on a new phase of human space exploration and development--one 
that will be supported by commercial crew transportation to low-Earth 
orbit (LEO) and by the development of the Orion Multi-Purpose Crew 
Vehicle (MPCV) and the heavy-lift Space Launch System (SLS), which will 
enable missions beyond LEO. This split between commercial and 
Government systems allows for a cost effective approach to promote a 
broad base for human exploration by the United States.
    In LEO, the International Space Station (ISS) has entered its 
operations and research phase, and this phase will continue through at 
least 2020. A robust transportation architecture is critical to 
ensuring full utilization of this research facility--including research 
efforts that will support the development of long-duration exploration 
missions beyond LEO. Private enterprise and affordable commercial 
operations in LEO, including the transportation of crew to and from ISS 
(as well as rescue from ISS), will enable U.S. industry to support NASA 
and other Government and commercial users safely, reliably, and at a 
lower cost. NASA is helping to lay the groundwork for the emerging LEO 
space economy as we also end our sole reliance on Russian transport of 
astronauts to the ISS.
    The commercial crew and cargo systems that support ISS will enable 
NASA to focus its internal development efforts on the Orion MPCV and 
SLS, which will send U.S. astronauts on missions of exploration beyond 
LEO. These systems will be flexible enough to support many different 
mission scenarios, and will serve well in the decades to come. The 
Orion MPCV and SLS launcher will provide NASA with the flexibility to 
conduct missions to a variety of compelling destinations beyond LEO, 
including Near-Earth Asteroids (NEAs), the Moon, the moons of Mars, and 
Mars itself.

    Question 3. How can efforts, such as NASA's recent MOU with the Air 
Force and NRO on launch vehicle certification bring down the cost for 
space access government-wide? What other possibilities is NASA 
considering for partnering with the national security community to 
reduce costs?
    Answer. NASA supports the addition and use of new entrants in all 
classes of launch vehicles in order to continue to facilitate and 
encourage competition, which will be the true motivator for reduced 
launch service prices over the long term. The Coordinated Strategy for 
Certification of New Entrant Launch Vehicles recently signed by the 
U.S. Air Force, National Reconnaissance Office (NRO) and NASA is 
anchored in NASA's existing model and policies. The Strategy provides a 
common framework for jointly communicating with industry and providing 
alternatives to mitigate the inherent risk of any new launch system. 
The Strategy should enable more companies to become certified to launch 
high value robotic payload missions and thus further enable future 
competition amongst commercial launch service providers.
    NASA and the national security community have a long history of 
cooperation. While the national security community and the Nation's 
civil space agency have different missions, priorities, and budget 
allocations, there are many similarities. For example, NASA shares with 
the national security community many of the same technologies, enabling 
systems, facility and workforce needs, and a common industrial base. 
The key to cooperation and a fruitful partnership is to focus on the 
activities that advance the needs of both organizations and result in 
potential efficiencies and cost savings.
    Through groups such as the Space Industrial Base Council and now 
the Defense Production Act Committee, NASA partners with the national 
security community to address industrial base challenges. NASA also 
participates with the national security community in industry forums 
such as the Space Quality Improvement Council and the Space Supplier 
Council to work with industry to improve how we acquire space systems 
with the ultimate goal of improving affordability and mission success. 
NASA is currently working with our national security partners and the 
Department of Commerce to periodically survey the industrial base to 
improve our understanding of industry and its supply chain. This effort 
has the potential to reduce costs in several ways: By identifying 
commonality within supply chains across agencies and programs we can 
reduce procurement and asset management costs and facilitate common 
specifications and standards that can lower production costs. We can 
also work with other agencies to mitigate supply chain risks and 
identify and resolve issues before they become major (and costly) 
problems e.g., parts and material shortages, counterfeit parts, and the 
loss of skills, capabilities, product lines, and/or suppliers.
    A particular focus area for NASA's interagency industrial base 
activities has been in propulsion. The Department of Defense (DoD) has 
been invited to participate in the recently announced initiative called 
the National Institute for Rocket Propulsion Systems (NIRPS). Led by 
the Marshall Space Flight Center, NIRPS is establishing a forum for 
cooperation, collaboration, information sharing, and alignment of 
common pursuits to better manage investments across portfolios to 
ensure the industrial base can sustain those critical technologies and 
skills in the liquid propulsion sector, which in turn will hopefully 
drive down the costs of propulsion systems. NASA is also engaged in 
other active partnership efforts with DoD, such as Eastern range 
modernization activities under the 21st Century Space Launch Complex 
initiative as well as ocean recovery support for the Orion MPCV.

    Question 4. What is the path forward for the creation of more 
formal international partnerships for exploration? When would these 
agreements need to be in place?
    Answer. NASA shares the belief of its current and potential 
partners that challenging and exciting exploration missions will be 
international in nature, so the Agency is actively engaging with the 
international community, facilitating efforts to collaboratively set 
the stage for human exploration missions of the future through both the 
ISS partnership and in the International Space Exploration Coordination 
Group (ISECG). Agencies are looking for near-term opportunities to 
coordinate and cooperate that represent concrete steps toward enabling 
the future of human space exploration across the solar system. Formal 
partnerships for exploration preparatory activities are being discussed 
with several agencies where mutual interest and benefit has been 
identified. These are partnerships in the areas of advancing 
exploration technologies, robotic missions and the use of ISS. Formal 
partnerships related to human exploration missions will follow, when 
appropriate, but the timing of such partnerships is highly content 
dependent and cannot be predicted at this time. NASA and its 
international space agency colleagues will continue their work to 
understand common goals, objectives, and approaches to satisfy them.

    Question 5. When will we start development of the additional 
elements we need for exploration missions, such as landers and deep 
space habitats?
    Answer. In the near term, NASA is focusing its exploration 
development efforts on the Orion MPCV and SLS--foundational 
capabilities that will be required for all contemplated deep space 
destinations. Several technology and capability development activities 
will also produce systems and subsystems that are required for deep 
space human exploration missions, such as a Deep Space Hab, new space 
suit, etc. The goal for longer lead technology efforts is to 
demonstrate new capabilities by 2020 to enable human missions in the 
next decade.
    NASA is pursuing a capabilities-driven architecture approach to 
human spaceflight exploration planning, which in turn drives the system 
development and technology prioritized investments. Architecture and 
analysis efforts are ongoing, to include continuing studies on initial 
destinations for the first test flights of the Space Launch System 
(SLS) and Orion Multi-Purpose Crew Vehicle (MPCV) as the basic elements 
of the system. The SLS and Orion MPCV are being designed to provide 
capabilities for a variety of deep space missions to multiple 
destinations including the Moon, asteroids, the moons of Mars, and 
ultimately the surface of Mars. Besides near-Earth asteroid rendezvous 
flights, these systems could be used to support circum-lunar 
navigations and flights to Earth-Moon Lagrange points. Lagrange points 
are gravitationally stable regions created by the interaction of the 
gravity fields of any two large masses; an object placed at Lagrange 
point will tend to stay in place for a long time. These could therefore 
be excellent locations in which to place habitation modules to study 
long-duration expeditions away from LEO, conduct developmental systems 
tests, enable tele-robotic operations, and execute science activities. 
Beyond this initial capability, SLS and Orion MPCV could support 
eventual missions to the moons of Mars--Deimos and Phobos and the 
surface of Mars itself, with incremental upgrades. In addition, NASA 
has been working with the National Research Council (NRC) to develop 
Technology roadmaps for the Agency. Much like the Science decadal 
surveys, these roadmaps will help guide the Agency's investment 
strategy to ensure NASA is advancing the technology it needs for future 
human exploration. These roadmaps will help inform Agency decisions 
about the specific timeframes for the development of additional 
elements needed for exploration missions.
    In further support of such development the Human Exploration and 
Operations Mission Directorate's (HEOMD) Advanced Exploration Systems 
(AES) Program is pioneering new approaches for rapidly developing 
prototype systems, demonstrating key capabilities, and validating 
operational concepts for future human missions beyond Earth orbit. 
Early integration and testing of prototype systems will reduce risk and 
improve affordability of exploration mission elements. The prototype 
systems developed in the AES program will be demonstrated in ground-
based test beds, field tests, underwater tests, and flight experiments 
on the ISS. Many AES projects will evolve into larger integrated 
systems and mission elements that will be tested on ISS before we 
venture beyond Earth orbit. The AES Program is developing a deep space 
habitat, a crew excursion vehicle, reliable life support systems, 
advanced spacesuits, radiation protection, and autonomous systems to 
assist the crew with mission operations. The AES Program is also 
developing a small lunar lander test bed and technologies for 
autonomous precision landing. The Space Technology Program is 
developing capabilities for cryogenic propellant storage, in-space 
propulsion, power generation and energy storage, and advanced robotics. 
The goal is to demonstrate these new capabilities to enable human 
missions in the next decade.
    The AES and the Space Technology Programs will work closely 
together to incorporate and integrate new technologies and innovations 
as they are matured to the point of infusion.

    Question 6. A human mission to Mars would be extremely difficult, 
if not impossible, with what we know about the effects of such a 
mission on the human body and our current abilities to mitigate those 
effects. How is NASA addressing this issue and what confidence do we 
have that NASA's research and technology programs will make such a 
mission possible? How is NASA pursuing advanced propulsion technologies 
that could significantly shorten the trip to Mars, such the VASIMR 
engine?
    Answer. NASA recognizes the significant life and health sciences 
challenges associated with long-duration human spaceflight beyond the 
protection of Earth's Van Allen radiation belts. As such, NASA is 
pursuing a comprehensive program across multiple fields of research and 
applications-based areas of study including radiation, micro- and 
partial-gravity, among others. The HEOMD International Space Station 
(ISS) Program, Space Life and Physical Sciences Research and 
Applications (SLSPRA) Division, and Human Spaceflight Capabilities 
Division, with the office of the Chief Health and Medical Officer, are 
among the organizations focused upon solutions to the challenges of 
human space exploration.
    One of the key roles played by the ISS is that of exploration 
research laboratory. Experiments being conducted on the ground and 
aboard ISS will help scientists understand, and engineers mitigate, the 
negative impacts of extended exposure to the microgravity environment 
on the human body. Such impacts include decalcification of bones, 
muscle atrophy, and radiation exposure. NASA is refocusing the Human 
Research Program within SLPSRA to ensure a coordinated, systematic 
approach to risk reduction. The development of technologies and 
techniques to counter these effects is critical to deep-space missions.
    NASA also recognizes that any future human exploration effort is 
largely dependent on developing breakthrough technologies that will 
enable astronauts to safely go farther and faster into space and at a 
lower cost. By investing in high payoff, breakthrough technologies that 
industry does not have today, NASA matures the technologies required 
for future missions, while proving the capabilities and lowering the 
cost of government and commercial space activities. The Agency has 
identified several high-priority technologies to support human 
exploration of Mars, including long-term storage and transfer 
capabilities for cryogenic fluids; solar electric propulsion for 
efficient in-space transportation of cargo; nuclear thermal propulsion 
to reduce interplanetary trip time for the crew; entry, descent, and 
landing technologies to land large payloads on Mars; and deep space 
habitation systems that incorporate advanced life support and radiation 
protection. The Advanced Exploration Systems and Space Technology 
Programs are developing these capabilities for future human missions. 
The Variable Specific Impulse Magnetoplasma Rocket (VASIMR) is one 
example of electric propulsion technology that may hold promise for 
future deep space missions.

    Question 7. Please provide a detailed list of milestones for the 
next year for both SLS and Orion.
    Answer. Please see below.
November 2011

  <bullet> 11/1--Space Launch System (SLS) Stages Justification for 
        Other than Full and Open Competition posted

  <bullet> 11/4--SLS, MPCV, Ground Systems Development and Operations 
        (formerly 21st Century Ground Systems) Formulation 
        Authorization Documents signed

  <bullet> 11/8--SLS Engine (RS-25) Justification for Other than Full 
        and Open Competition posted; Orion Boiler Plate Test Article 
        Phase I Water Drop Test #3

  <bullet> 11/9--SLS J-2X E10001 Test Fire (500 seconds)

  <bullet> 11/14--SLS Industry Day at Michoud Assembly Facility

  <bullet> 11/17--Orion Periodic Technical Review 3

  <bullet> 11/21--SLS Key Decision Point A Decision Memo signed

  <bullet> 11/30--GSDO Mission Concept Review; Mobile Launcher 
        Structural Load Test Completed
December 2011

  <bullet> 12/1--SLS Engine Undefinitized Contract Action Issued; Orion 
        Boiler Plate Test Article Phase I Water Drop Test #4; SLS J-2X 
        E10001 Test Fire (80 seconds)

  <bullet> 12/7--ESD Cross-Program System Requirements Review

  <bullet> 12/12--SLS Advanced Booster Engineering Demonstration & Risk 
        Reduction draft NASA Research Announcement Released

  <bullet> 12/13--Orion Boiler Plate Test Article Phase I Water Drop 
        Test #5

  <bullet> 12/14--SLS J-2X E10001 Test Fire (100 seconds)

  <bullet> 12/15--SLS Advanced Booster Engineering Demonstration & Risk 
        Reduction Industry Day at Marshall Space Flight Center

  <bullet> 12/16--SLS Booster UCA Issued; SLS Stages Undefinitized 
        Contract Action Issued

  <bullet> 12/20--Orion Main Parachute Test completed successfully

  <bullet> 12/21--Orion Exploration Flight Test 1 Undefinitized 
        Contract Action Issued
January 2012

  <bullet> 1/5--Orion EFT-1 Justification for Other than Full and Open 
        Competition Posted

  <bullet> 1/6--Orion BTA Phase 1 Water Drop Test (#6--Final)

  <bullet> 1/17--ESD Cross-Program Systems Requirement Review

  <bullet> 1/31--ESD Cross-Program Systems Requirement Review Results 
        to Agency and Key Decision Point Approval; Orion Crew Module 
        Hardware move to Kennedy Space Center

  <bullet> 1/25 to 2/3--Orion Boiler Plate Test Article Modal Test #1
February 2012

  <bullet> 2/1--*SLS Advanced Development draft NASA Research 
        Announcement Release

  <bullet> 2/7 to 2/20--Orion Boiler Plate Test Article Modal Test #2

  <bullet> 2/8--Orion Crew Module Flight Hardware Test Article Tour 
        Complete

  <bullet> 2/9--**SLS Advanced Booster Engineering Demonstration & Risk 
        Reduction final NASA Research Announcement Release

  <bullet> 2/15--SLS J-2X Power Pack Assembly #2 Test #1--1,9 second 
        spin-start test in Test Stand A-1 at Stennis Space Center

  <bullet> 2/22 to 2/29--Orion Boiler Plate Test Article Modal Test #3

  <bullet> 2/28--Orion Ground Test Article Test Complete
March 2012

  <bullet> 3/2 to 3/6--Orion Boilerplate Test Article Modal Test #4

  <bullet> 3/6--Space Launch System (SLS) J-2X Power Pack Assembly Test 
        #2

  <bullet> 3/8 to 3/12--Orion Boiler Plate Test Article Modal Test #5

  <bullet> 3/20--*SLS Advanced Development final NASA Research 
        Announcement Issued; SLS J-2X Power Pack Assembly #2 Test #3

  <bullet> 3/16 to 3/26--Orion Boiler Plate Test Article Modal Test #6

  <bullet> 3/29--SLS J-2X Engine 10001 with Clamshell in Test Stand A-2 
        Test #11; SLS System Requirements Review/System Definition 
        Review Step 1 Board
April 2012

  <bullet> 4/3--SLS Power Pack Assembly #2 Test #4--under review

  <bullet> 4/9--**SLS Advanced Booster Engineering Demonstration & Risk 
        Reduction NASA Research Announcement Proposals Due

  <bullet> 4/12--SLS J-2X Engine 10001 with Clamshell in Test Stand A-2 
        Test #12

  <bullet> 4/17--SLS J-2X Power Pack Assembly #2 Test #5--under review

  <bullet> 4/19--Orion Ground Test Article on dock at Kennedy Space 
        Center from Denver

  <bullet> 4/26--SLS J-2X Engine 10001 with Clamshell in Test Stand A-2 
        Test #13
May 2012

  <bullet> SLS J-2X Power Pack Assembly #2 Test #6--under review

  <bullet> SLS J-2X Power Pack Assembly #2 Test #7--under review

  <bullet> SLS J-2X Power Pack Assembly #2 Test #8--under review

  <bullet> *SLS Advanced Development NASA Research Announcement 
        Proposals Due

  <bullet> SLS System Requirements Review/System Definition Review Step 
        2 Board

  <bullet> Orion Crew Module structure shipped to Kennedy Space Center 
        to initiate Assembly, Integration and Production in the 
        Operations and Checkout Building
August 2012

  <bullet> Ground Systems Development and Operations (GSDO) System 
        Requirements Review/System Definition Review Board

    * Smaller contract for broader area of risk reduction including, 
but not limited to, manufacturing, materials, design, operations, etc.
    **Limited to Booster risk reduction activities

    Question 8. Please characterize the impact on the Commercial Crew 
Program of the $406 million FY12 funding level per the conference 
report on H.R. 2112, and include any relevant assumptions about funding 
in FY 2013-2018. How will NASA prioritize schedule versus continued 
funding of multiple competitors?
    Answer. NASA performed a reassessment of the acquisition strategy 
for the next phase of the Commercial Crew Program given the lower than 
anticipated appropriation of $406M for FY 2012 that was passed by 
Congress and signed into law by the President. On December 15, NASA 
announced its decision to modify the competitive procurement strategy. 
Instead of awarding contracts for the next phase, the Agency plans to 
use multiple, competitively awarded funded Space Act Agreements. Using 
competitive Space Act Agreements instead of contracts will allow NASA 
to maintain a larger number of partners during this phase of the 
program. NASA intends to structure these Space Act Agreements to 
provide NASA the flexibility to adjust content and funding levels based 
on available funds. This flexibility is important during a period of 
high budget uncertainty when NASA is receiving less funding than 
President Obama requested for the Agency's commercial space program. 
This approach for the next phase will facilitate industry's continued 
development of commercial capabilities but will not require compliance 
with NASA's certification standards. NASA plans to initiate the 
competitive process for this next phase in February 2012. NASA still 
plans to use FAR-based contracts for the certification and purchase of 
the commercial crew services.
    While industry should be able to accelerate their development 
efforts under SAAs, NASA estimates that the likely availability date of 
International Space Station (ISS) services missions has likely slipped 
to 2017 because of the FY 2012 funding level for CCP. This assumes that 
more robust funding levels will be available in the out-years (FY 2013-
FY 2017). Details of the budgetary requirements for this new approach 
were provided in the FY 2013 President's Budget Request for NASA.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Maria Cantwell, to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. What is your rationale for the initial use of the 5-
segment solid rocket boosters on the Space Launch System rather than 
holding an immediate competition for the final advanced booster?
    Answer. NASA is moving out with the development of the Space Launch 
System (SLS), having announced the basic architecture of the system on 
September 14, 2011. The NASA Authorization Act of 2010 (P.L. 111-267, 
October 11, 2010) directed the Agency to develop, as rapidly as 
possible, replacement vehicles capable of providing both human and 
cargo launch capability to destinations beyond low-Earth orbit. In 
general, it can take anywhere from 6-8 years to develop a heavy lift 
launch vehicle; however, NASA is expediting that process by utilizing 
as much existing hardware as possible. In developing the SLS, the Act 
directed the Administrator to utilize, to the extent practicable, 
existing contracts, investments, workforce, industrial base, and 
capabilities from the Space Shuttle Program (SSP), Orion, and Ares I 
projects. This includes SSP-derived components and Ares components that 
draw extensively on SSP heritage propulsion systems, including liquid 
fuel engines, cryogenic stages, and solid rocket motors. As a result, 
the Agency will initiate the development of the SLS with SSP- and Ares-
derived assets. The Agency presently is undertaking full and open 
competitive procurement activities for the SLS Advanced Booster. 
Initial steps in this process have been taken (please see response to 
Question #2).

    Question 2. My understanding is that in the press call after the 
September Space Launch System announcement, NASA Associate 
Administrator for Human Exploration and Operations Bill Gerstenmaier 
stated that the advanced booster competition for the Space Launch 
System would take place ``almost immediately.'' We are now hearing that 
the competition will take place possibly in 2015 after some low-level 
risk reduction study contracts are completed. NASA's plans are simply 
unclear. What is the timing and process planned for the advanced 
booster competition?
    Answer. NASA plans to compete the SLS Advanced Booster, and has 
already taken the initial steps in this process:

  <bullet> The Agency posted a draft NASA Research Announcement (NRA) 
        for ``SLS Advanced Booster Engineering Demonstration and/or 
        Risk Reduction'' on December 12, 2011.

  <bullet> An Industry Day focused on the SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction activity was 
        held at Marshall Space Flight Center (MSFC) on December 15, 
        2011.

  <bullet> NASA issued the final NRA for SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction on February 9, 
        2012, with responses due back to NASA on April 9, 2012.

    The NRA solicits applied research proposals, which will offer 
solutions to meeting the Advanced Booster goal of reducing risk in the 
areas of affordability, performance, and reliability. Specifically, the 
NRA solicits proposals that will: (1) provide an Advanced Booster 
concept in response to a set of top level performance requirements; (2) 
identify liquid and/or solid booster high risk areas; (3) provide 
related hardware demonstrations on how risk can be mitigated; and (4) 
identify high risk areas associated with adaptation of Advanced Booster 
technology to SLS. NASA has identified potential target areas for risk 
mitigation. However, other high value demonstration proposals for 
liquid or solid rocket designs for target areas beyond those 
specifically identified are requested.
    This NRA effort is important in order to ensure that NASA will be 
able to evolve the SLS from its initial 70-metric-ton capability to the 
final 130-metric-ton capability, which will enable a variety of human 
missions to deep-space destinations. The NRA phase for the Advanced 
Booster is anticipated to be 30 months. NASA anticipates initiating a 
full and open competitive Design, Development, Test and Evaluation 
(DDT&E) procurement for the Advanced Booster system in FY 2015 with 
contract award anticipated in FY 2016.

    Question 3. What specific steps are being taken to prevent giving 
the current Space Launch System booster contractor an unfair advantage 
in the future advanced booster competition?
    Answer. The Advanced Booster performance requirements are 
significantly greater than the current booster contractor's 
configuration provides to NASA, therefore a new development is required 
in some manner whether the final concept uses solid or liquid 
propellant. In addition, the SLS Program is again engaging industry 
early in the acquisition process to ensure requirements and the 
solicitation are written to maximize competition. Potential offerors 
have been asked for their comments first in a Request for Information 
issued in October, then through the comment process on the draft NRA, 
and have also been invited to sit one-on-one with the proposal 
evaluation team. Second, a detailed technical library is being provided 
to maintain competitiveness across all potential offerors. Finally, the 
evaluation criteria in the solicitation have been thoroughly reviewed 
within the Agency to ensure the best solicitation to yield competitive 
proposals and an equitable evaluation.

    Question 4. How is NASA ensuring that the core vehicle and the 
launch pad are being designed and built to handle both liquid and solid 
rocket booster options? What are the added costs involved in following 
the current path rather than simply holding the advanced booster 
competition immediately?
    Answer. The system (and core) design process includes an analysis 
of multiple alternatives that include both liquid and solid booster 
options. Concept studies are determining the effect of both designs on 
the core vehicle with worst-case structural loads and thermal 
environments used to derive ultimate vehicle design requirements. In 
order to minimize launch facility development costs, the SLS Program 
and 21st Century Ground Systems Program are collaborating on pad design 
to account for base heating effects and vehicle hold-down design, while 
holding the vehicle configuration to two boosters but providing 
flexibility of booster design diameter.
    The current SLS Program development approach entails executing an 
immediate, albeit two-phased, advanced booster competition. An advanced 
booster that meets exploration requirements to lift 130 metric tons 
does not currently exist today. NASA estimates the development timeline 
of new advanced booster would not support a December 2017 launch. Thus, 
the approach selected allows phasing of design and development 
activities (core and upper stages, core and upper stage engines, and 
spacecraft adapters and fairings) to fit within the yearly budget 
allocations while mitigating advanced booster development risks, 
meeting the first flight milestone in 2017 for a 70 metric ton vehicle, 
and, ultimately, evolving the vehicle to a 130 metric ton lift 
capacity. The approach exercises good engineering judgment in 
identifying risks associated with major new concept and/or technology 
developments before making larger investments in the DDT&E. 
Additionally, the two-phased approach also allows for vehicle 
configuration maturation before selecting a final advanced booster 
concept and provides for early engineering demonstrations/tests, which 
leverage existing assets to prove the design.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. NASA plans to use five-segment solid rocket boosters 
for the initial two SLS capability flights through 2021. NASA has 
announced plans to issue a NASA Research Announcement in December for 
Advanced Booster Engineering Demonstration and Risk Reduction. NASA has 
also announced plans to hold an open competition in Fiscal Year 2015 
for the SLS Advanced Booster Design, Development, Test and Evaluation 
(DDT&E) with award anticipated in Fiscal Year 2016. How is NASA 
ensuring that the core vehicle and the launch pad are designed and 
built to handle both the initial and advanced booster designs, whether 
they be liquid or solid rocket booster options?
    Answer. In developing an evolvable Space Launch System (SLS) that 
will grow in capability from lifting 70 metric tons to lifting 130 
metric tons, one important challenge is that of integrating the launch 
vehicle, the spacecraft (specifically, the Orion Multi-Purpose Crew 
Vehicle [MPCV]), and the supporting launch infrastructure. While NASA 
does not at this point know whether the SLS Advanced Boosters will use 
solid or liquid propellant, the Agency will define specific booster-to-
core-vehicle electrical, physical, and thermal interfaces and 
interoperability requirements to ensure that potential bidders to the 
Advanced Booster contract announcement will be fully apprised of the 
requirements to which they must design their systems. By defining these 
interfaces and requirements for potential bidders, NASA will ensure 
that the SLS core vehicle and associated infrastructure will be able to 
accommodate liquid or solid rocket booster designs, as long as these 
designs are based on the Agency's requirements.

    Question 2. What are the added costs involved in following the 
current path rather than holding the advanced booster competition 
immediately?
    Answer. The NASA Authorization Act of 2010 (P.L. 111-267, October 
11, 2010) directed the Agency to develop, as rapidly as possible, 
replacement vehicles capable of providing both human and cargo launch 
capability to destinations beyond low-Earth orbit. NASA is expediting 
the development process by utilizing as much existing hardware as 
possible. In developing the SLS, the Act directed the Administrator to 
utilize to the extent practicable existing contracts, investments, work 
force, industrial base, and capabilities from the Space Shuttle Program 
(SSP), Orion, and Ares I projects. This includes SSP-derived components 
and Ares components that draw extensively on SSP heritage propulsion 
systems, including liquid fuel engines, cryogenic stages, and solid 
rocket motors. As a result, the Agency will initiate the development of 
the SLS with SSP and Ares derived assets. This approach will enable 
NASA to flight test the SLS with the Orion MPCV sooner than would be 
possible if the Agency were to first go through the process of 
developing requirements for a brand new Advanced Booster and holding a 
design competition. NASA anticipates that the utilization of existing 
technologies for the initial SLS capability will speed development of 
the system and reduce overall system development cost for the initial 
capability. NASA presently is undertaking full and open competitive 
acquisition activities for the SLS Advanced Booster. Initial steps in 
this process have been taken:

  <bullet> The Agency posted a draft NASA Research Announcement (NRA) 
        for ``SLS Advanced Booster Engineering Demonstration and/or 
        Risk Reduction'' on December 12, 2011.

  <bullet> An Industry Day focused on the SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction activity was 
        held at Marshall Space Flight Center (MSFC) on December 15, 
        2011.

  <bullet> NASA posted the final NRA for SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction on February 9, 
        2012, with responses due back on April 9.

    The NRA solicits applied research proposals, which will offer 
solutions to meeting the Advanced Booster goal of reducing risk in the 
areas of affordability, performance, and reliability. This effort is 
important in order to ensure that NASA will be able to evolve the SLS 
from its initial 70-metric-ton capability to the final 130-metric-ton 
capability, which will enable a variety of human missions to deep-space 
destinations. The NRA phase for the Advanced Booster is anticipated to 
be 30 months. NASA anticipates initiating a full and open competitive 
Design, Development, Test and Evaluation (DDT&E) procurement for the 
Advanced Booster system in FY 2015 with contract award anticipated in 
FY 2016.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. The commercial crew program will be funded at $406 M 
for Fiscal Year 2012, a lower amount than the Administration's request. 
What is NASA's plan to accelerate expansion of commercial crew to 
prevent sending hundreds of millions of dollars overseas to competing 
programs? Will NASA consider using the proven successful model of Space 
Act Agreements again to expedite these private sector developments?
    Answer. NASA performed a reassessment of the acquisition strategy 
for the next phase of the Commercial Crew Program given the lower than 
anticipated appropriation of $406M for FY 2012 that was passed by 
Congress and signed into law by the President. On December 15th, NASA 
announced its decision to continue to use multiple, competitively 
awarded funded Space Act Agreements for the next phase. Using 
competitive Space Act Agreements instead of contracts will allow NASA 
to maintain a larger number of partners during this phase of the 
program. NASA intends to structure these Space Act Agreements to 
provide NASA the flexibility to adjust content and funding levels based 
on available funds. This flexibility is important during a period when 
NASA is receiving less funding than President Obama requested for the 
Agency's commercial space program.
    The announcement for proposals was released on February 7, 2012. 
These competitively awarded SAAs are expected to be followed by a 
competitively awarded contract for the certification phase. The 
certification phase will ensure that the designs fully meet the safety 
and performance requirements for NASA utilization.

    Question 2. The Commercial Orbit Transportation Services (COTS) 
model delivered capabilities at a fraction of the cost that traditional 
NASA acquisition would have been. Given the constrained budget 
environment for NASA going forward, this model is incredibly valuable. 
Can you provide information on how NASA will look to implement the 
value and cost-savings obtained from the public-private partnerships 
utilized in the commercial programs in other programs?
    Answer. As noted in the response to Question #1, NASA will be using 
competitively awarded SAAs for the next phase of its Commercial Crew 
Program, though the certification phase of the Program is expected to 
proceed under a competitively awarded contract.
    A decision to work with or support others outside the Agency 
(including commercial partners) to fulfill Agency goals or objectives 
requires NASA to review the relevant authorities available to implement 
the decision. The options could encompass several alternatives, such as 
procurement contracts with industry and universities, interagency 
agreements, or international cooperation. The Agency may also provide 
financial and/or technical assistance to others in the form of grants, 
cooperative agreements, or SAAs to foster activities that support the 
Agency's overall mission when that mission can be met by advancing a 
public purpose instead of acquiring property or services for the direct 
benefit or use of NASA. The Agency also has the authority to enter into 
other types of arrangements depending on the circumstances, such as 
leases, concession agreements, property loan agreements, and 
Cooperative Research and Development Agreements (CRADAs), for example. 
NASA must take into account the opportunities and limitations presented 
by each option when it formulates its approach, as each authority is 
subject to its own set of related laws, regulations, and policies.

    Question 3. Thank you for giving me a brief update on NASA's plans 
at Wallops Island, Virginia. Can you provide more detail on what you 
believe the potential for Wallops is in terms of commercial space 
generally, and the commercial crew program? What role will Wallops play 
as you progress with commercial crew, and how do you plan to partner 
with the private sector? Can you provide any details on plans for 
furthering developing infrastructure at Wallops?
    Answer. The Commercial Crew Program (CCP) is a partnership between 
NASA and the private sector to incentivize companies to build and 
operate safe, reliable, and cost effective commercial human space 
transportation systems. In the near term, NASA plans to be a reliable 
partner with U.S. industry, providing technical and financial 
assistance during the development phase. In the longer term, NASA plans 
to be a customer for these services, buying transportation services for 
U.S. and U.S.-designated astronauts to the ISS. NASA hopes these 
activities will stimulate the development of a new industry that will 
be available to all potential customers, including the U.S. Government.
    Regarding the use of Wallops Island, Virginia for potential 
inclusion in commercial crew transportation systems, NASA does not plan 
to dictate the use of any specific ground infrastructure by any 
commercial provider. The commercial provider will own and operate the 
crew transportation systems, and the commercial providers will decide 
which launch site and what ground infrastructure they plan to use. 
NASA's interest will be in ensuring that whatever site/infrastructure 
is chosen, that it will be safe, reliable, and cost effective.
    An example of a commercial entity that has expressed interest in 
using Wallops' capabilities is Orbital Sciences Corporation, which 
Wallops and the Mid-Atlantic Regional Spaceport for launching its 
Antares rocket. Orbital has a Space Act Agreement with NASA to conduct 
demonstration flights under the Commercial Orbital Transportation 
Services (COTS) effort, as well as a contract with NASA to launch 
supplies to the ISS under the Agency's Commercial Resupply Services 
(CRS) effort. In addition, Orbital is pursuing other launch activities 
using the Antares from Wallops for NASA science and technology 
payloads, as well as for other Government agencies and commercial 
organizations.

    Question 4. NASA has now decided on an architectural plan for its 
next space launch vehicle, and has offered cost and schedule estimates 
for its completion. In the past, we've seen cost grow, schedules slip, 
and projects run on a cost-plus basis. How are you working to prevent 
that kind of cost growth in the Space Launch System?
    Answer. Moving forward on the SLS, one of NASA's greatest 
challenges will be to reduce the development and operating costs (both 
fixed and recurring) for human spaceflight missions to sustain a long-
term U.S. human spaceflight program. The Agency must plan and implement 
an exploration enterprise with costs that are credible and affordable 
for the long term.
    NASA appreciates the work of Booz Allen Hamilton on the Independent 
Cost Assessment (ICA) for the SLS, Orion Multi-Purpose Crew Vehicle 
(MPCV), and the Exploration Ground Systems (formerly named 21st Century 
Ground Systems). The ICA recommendations provide advice on the 
effective and efficient implementation of NASA's programs given the 
technical and architectural decisions that have been made. The Agency 
has already implemented a number of recommendations, and will continue 
to carefully consider the remainder of the ICA's findings and 
recommendations as it proceeds to implement these efforts during its 
program formulation activities.
    NASA is currently assessing a number of potential opportunities for 
reducing the institutional costs associated with developing, producing, 
and operating SLS. For example, NASA continues to partner with other 
Federal Government and commercial customers to maximize utilization of 
the rocket test facilities at SSC. United Launch Alliance and the U.S. 
Air Force already utilize test stand capabilities there, including the 
B1 test stand for RS-68 testing and the E-Complex for component and 
small-thrust testing. NASA is currently considering other potential 
opportunities for sharing capabilities.
    In addition to prudent consolidation of infrastructure, the SLS 
Program will continue to examine ways to increase efficiency and 
agility to deliver an affordable and achievable heavy-lift system as 
soon as possible. Examples being considered in formulating SLS plans 
include the following:

  <bullet> Using common parts and common designs across the Government 
        to reduce costs;

  <bullet> Ensuring requirements are appropriately specific and also 
        that requirements applied to NASA crew launch vehicles are 
        similar to those provided to our eventual commercial crew 
        partners, thereby ensuring that NASA vehicles are not required 
        to meet more substantial requirements than commercial crew 
        vehicles, and vice versa;

  <bullet> Conducting insight/oversight activities of the Agency's 
        contract partners in a smarter way, thereby using NASA's 
        resources more appropriately to focus on the high-risk items; 
        and

  <bullet> Ensuring that there are no unique configurations or 
        developments that do not end up directly supporting the final 
        system.

    Once a final SLS architecture decision is made, NASA will develop 
detailed plans to accomplish these goals and will keep Congress 
apprised.

    Question 5. NASA has publicly stated that the Space Launch System 
cannot meet the 130 metric ton legal requirement without advanced 
boosters. The first unmanned test launch in 2017 could provide the 
desired reentry trajectory for the Orion MPCV by using the upper stage 
and no boosters. Can you provide a status update and timeline on plans 
for an advanced booster competition?
    Answer. NASA plans to compete the SLS Advanced Booster, and has 
already taken the initial steps in this process:

  <bullet> The Agency posted a draft NASA Research Announcement (NRA) 
        for ``SLS Advanced Booster Engineering Demonstration and/or 
        Risk Reduction'' on December 12, 2011.

  <bullet> An Industry Day focused on the SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction activity was 
        held at Marshall Space Flight Center (MSFC) on December 15, 
        2011.

  <bullet> NASA posted the final NRA for SLS Advanced Booster 
        Engineering Demonstration and/or Risk Reduction on February 9, 
        2012.

    The NRA solicits applied research proposals, which will offer 
solutions to meeting the Advanced Booster goal of reducing risk in the 
areas of affordability, performance, and reliability. Specifically, the 
NRA solicits proposals that will: (1) provide an Advanced Booster 
concept in response to a set of top level performance requirements; (2) 
identify liquid and/or solid booster high risk areas; (3) provide 
related hardware demonstrations on how risk can be mitigated; and (4) 
identify high risk areas associated with adaptation of Advanced Booster 
technology to SLS. NASA has identified potential target areas for risk 
mitigation. However, other high value demonstration proposals for 
liquid or solid rocket designs for target areas beyond those 
specifically identified are requested.
    This effort is important in order to ensure that NASA will be able 
to evolve the SLS from its initial 70-metric-ton capability to the 
final 130-metric-ton capability, which will enable a variety of human 
missions to deep-space destinations. The NRA phase for the Advanced 
Booster is anticipated to be 30 months. NASA anticipates initiating a 
full and open competitive Design, Development, Test and Evaluation 
(DDT&E) procurement for the Advanced Booster system in FY 2015 with 
contract award anticipated in FY 2016.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                      Hon. Charles F. Bolden, Jr.

    Question 1. During the hearing, you and I had an exchange regarding 
a question I posed regarding the issue of establishing the appropriate 
development budget planning for the Space Launch System. It appeared to 
me there was some apparent misunderstanding or miscommunication 
regarding the precise nature of the question, resulting in an 
incomplete or unclear response. The issue and concern prompting that 
question is of such importance that some follow-up is necessary, and 
useful to provide an opportunity for greater clarification for the 
hearing record. The question, I believe, is fairly straightforward but 
I will restate it perhaps more clearly, and with the background that 
prompts it.
    The context for the question was the meeting in my office on 
September 13th of this year, with Jack Lew, Director of the Office of 
Management and Budget, Rob Nabors, and yourself and your Deputy 
Administrator, along with Senator Nelson and members of our respective 
staffs. The purpose of that meeting was to have a definitive discussion 
with Mr. Lew on the Administration's position regarding the selection 
of the reference design for the Space Launch System (SLS) as required 
by the 2010 NASA Authorization Act (P.L. 111-267). Mr. Lew indicated 
that after serious and thorough consideration, the Administration had 
made the decision to support the development of SLS following the basic 
reference vehicle design presented in the Ninety-Day report provided to 
the Congress the previous January 10th. He indicated that it was 
clearly going to be a challenge to identify and provide resources to 
support that development, but that he was committed to work with the 
Congress to do so and meet the letter and intent of the law with regard 
to that development. That welcome news was matched by a commitment by 
Senator Nelson and myself to make our best efforts, in working with 
NASA and Administration officials, to achieve those objectives. 
Contrary to what you indicated during the hearing, there was no 
specific discussion of funding levels or capability milestones during 
the meeting and thus none were agreed to, beyond the broad commitment 
to jointly seek to ensure the development could proceed--obviously, 
from my point of view, as outlined in the legislation.
    Prior to that meeting, the Committee had been informed of the data 
provided to the Booz Allen corporation in late June to enable it to 
conduct an independent assessment of the cost basis for what had been 
determined by you, I understand, on June 22 as the proposed reference 
vehicle design, and which had formed the basis for that portion of the 
NASA FY 2013 budget submission then under development. That was, of 
course, prior to a formal Administration decision to support the 
vehicle design selection. The budget profile presented for review at 
that time, and as provided to the Committee, reflected a $1.3B annual 
funding level for the procurement portion of the development activity. 
(With the addition of personnel costs and other associated ground 
support costs, etc., the combined total annual funding level would be 
roughly $1.8B annually, but the focus was on the procurement portion of 
the activity, and I referenced that number, as the only number formally 
available to the Committee at that time other than the number in the FY 
2012 Budget Request, which of course had yet to be dispositioned by the 
Congress at that time.)
    My question was and still is, simply stated, the following:
    Given the ``official'' notification by Mr. Lew in our meeting of a 
decision to proceed with the SLS vehicle development on September 13, 
and the commitment to seek to identify the necessary resources to 
successfully pursue that development in a manner meeting the 
requirements and objectives of the law, would it not make sense to 
expect that the Agency would be provided the opportunity to revisit its 
FY 2013 budget submission, now ``armed'' with that commitment, and make 
the case for a modification of the ``pre-decisional'' budget profile in 
a manner that might more closely achieve at key aspect of the 
statutorily-described capabilities of the SLS? Namely, that the core 
elements of the evolvable SLS vehicle design would be available (the 
law described a ``goal'' of December 31, 2016) to provide backup crew 
and cargo launch capability to service the ISS in the event either 
commercially-developed capabilities or international partner-provided 
capabilities might not be active or available at that time. Clearly, 
the pre-decisional profile reviewed by Booz-Allen, with a cargo 
capability available by end of 2017 and a crew capability not available 
before 2021, would not meet that required capability, especially with 
respect to crew capability, since that would not be available until 
after the end of the currently-committed period of U.S. utilization and 
support of ISS through the year 2020.
    Answer. As provided previously, the President and I are committed 
to ensuring America's continued preeminence in launching a new era of 
human space flight that takes us beyond where we have ever gone before. 
NASA shares Congress' goal of sustaining U.S. leadership in space 
exploration and is committed to implementing the SLS that Congress 
authorized in the NASA Authorization Act of 2010. Our exploration 
systems and the scientific and technical advances produced by the ISS, 
in concert with timely development of our critically important 
commercial crew and cargo capability, support NASA's long-term 
exploration program. SLS and Orion MPCV without commercial crew and 
cargo and vice versa would leave a critical void in our human and 
robotic exploration program.
    The SLS reference vehicle design that was selected last year was 
the result of thorough analyses based upon stakeholder requirements 
that were levied upon the Agency. Among the requirements included using 
existing hardware and contracts to the maximum extent practicable to 
minimize development costs and schedule. After conducting this 
analysis, the Agency decided to use the current reference vehicle 
design. Based on our estimates for development, manufacturing and 
testing of the reference vehicle design, the first flight is scheduled 
to occur in 2017. Additional funding would not accelerate this 
schedule, however it would increase the confidence that the schedule 
could be met. NASA is assessing the option of accelerating the first 
crewed flight currently scheduled for 2021 given the Agency's projected 
funding profile. As part of the FY 2014 budget formulation process, 
NASA will be analyzing the technical and budgetary feasibility of 
accelerating the flight.
    As a result of the current fiscal environment, NASA's appropriation 
in 2012 was $1.8 billion below the authorized level, and $700 million 
below the 2011 level. In this context, resources allocated to the 
development of our human exploration vehicles must be balanced as part 
of the larger portfolio of programs and projects supported by NASA, and 
authorized by--and with appropriations from--the Congress. The 
President's Budget Request for FY 2013 would fund the Orion MPCV at 
$1.02 billion, and the total SLS request of $1.885 billion, which 
includes $1.34 billion for the SLS vehicle development plus $404.5 
million for Exploration Ground Systems (EGS) which had previously been 
carried under the SLS line, in addition to $140.4M of SLS and EGS 
related construction of facilities. EGS will develop all of the 
necessary launch site ground systems to enable the assembly, testing, 
and launch of the SLS elements. The funding related to construction of 
facilities will be used to modify test and launch facilities in support 
of the SLS launch vehicle.

    Question 2. During the hearing, both in response to the question 
repeated above, and in response to other questions raised by Members, 
you stated ``I don't have more money. I'm not going to get more 
money.'' As an expansion on my previous question, can you state for the 
record the basis for that statement? Subsequent to the meeting on 
September 14, were you provided, or did you request, an opportunity to 
demonstrate the need for ``more money'' in order to advance the 
development milestones for SLS in a manner more consistent with the 
objectives of the law? If so, was either that opportunity denied, or if 
you were able to make the case for increased funding, was that denied? 
I recognize that you could perhaps be instructed that the answer to 
such a question might be precluded on the grounds of internal 
Administration ``pre-decisional'' discussions. However, what I am 
asking about relates to a conversation held with the Director of the 
Office of Management and Budget, and goes to the heart of whether the 
degree of willingness to materially support the SLS development with 
adequate resources to meet prescribed Congressional preferences and 
intent changed as a result of that conversation. A negative response or 
a refusal to respond will not inspire confidence that the commitment to 
``work together to find adequate resources to successfully develop the 
SLS'' as made in that meeting, should be considered a credible 
commitment.
    Answer. As previously noted, NASA is committed to the development 
of the SLS. Our budget formulation for 2013 was guided by the 
Congressional guidance provided in the NASA Authorization Act of 2010 
and taking into account the 2012 Appropriation reductions from that. 
Our analysis of SLS funding requirements resulted in the final funding 
level requested for SLS vehicle development supported by the separate 
funding lines requested for EGS and Construction of Facilities. While 
the specifics of the budget formulation process are pre-decisional, as 
the question suggests, NASA has worked closely with OMB on the 
development of the President's FY 2013 budget request for the Agency. 
The requested funding will enable the Agency to develop, test and 
launch the SLS and Orion MPCV first uncrewed flight in 2017 and the 
first crewed flight in 2021. Concurrently, the Agency continues to 
aggressively pursue cost-savings initiatives to increase schedule 
confidence and robustness and reduce development costs. The SLS, Orion 
MPCV and EGS programs have already initiated several affordability 
efforts including streamlining government oversight and insight, 
incrementally building and testing vehicle capabilities, reducing the 
number of contractor formal deliverables, and streamlining processes 
while maintaining adequate rigor.

    Question 3. In response to a question from Senator Rubio during the 
hearing, you indicated that one of your responsibilities was to live 
within your budget. I certainly cannot disagree with that. However, 
would you also agree that one of your responsibilities, in service to 
the President, and as NASA Administrator, is to tell the President 
directly what budget your Agency would need to more faithfully execute 
the Congressional Act, which he signed into law? Would you agree that 
such a conversation with the President is within the scope of your 
prerogatives as a direct appointee of the President, and cannot be 
precluded or over-ridden by conflicting guidance from the Office of 
Management and Budget or any official of that Office?
    Answer. Yes, such conversations are within the scope of my 
prerogatives as a Presidential appointee and I have had discussions 
with the President and his staff about priorities. While the intent is 
to continue to implement the direction given in the Authorization Act, 
the timing of that implementation must be dependent on the funding 
annually appropriated by the Congress and within the constraints of 
realistic outyear planning in a tight fiscal environment.

    Question 4. Given the fact that the SLS, certainly in its initial 
development phase, will be using mostly technology, systems and 
infrastructure that are well-known and understood, I assume we should 
not expect any major delay to development of the full vehicle because 
of technology challenges. Would you agree with that, and, if not, would 
you provide your rationale for the technical challenges you believe 
impose significant challenges for the development schedule of the SLS?
    Answer. Per direction in the NASA Authorization Act of 2010 (P.L. 
111-267), NASA is using existing contracts in the development of SLS to 
the extent practicable. NASA does not anticipate significant technical 
challenges in the development of the SLS, but it should be noted that 
this approach, while sound, does not eliminate all potential technical 
challenges. The use of existing technologies in a new vehicle 
necessitates the integration of different systems, and this integration 
poses technical challenges. In addition, in seeking to provide the most 
effective boosters for the SLS, NASA is planning to compete the 
advanced boosters for the SLS. On December 12, 2011, the Agency 
released a draft NASA Research Announcement for Advanced Booster 
Engineering Demonstration and/or Risk Reduction, with the final NRA 
anticipated to be released in February of 2012. The advanced boosters 
could be solid or liquid, and the amount of off-the-shelf content used 
is to be determined. NASA will work to ensure that any technical 
challenges are resolved expeditiously and that the SLS schedule 
milestones are met.

    Question 5. Is it accurate to assume that the 2017 date for the 
first operational un-crewed flight of the SLS and Orion Multi-Purpose 
Crew Vehicle together, and the first flight with crew in 2021are dates 
that--especially the 2021 date--could be moved sooner in time if 
adequate or additional funding were made available? Please provide 
documentation supporting your response.
    Answer. NASA's plans include an uncrewed system test flight of the 
Orion and SLS in 2017, and a crewed test flight in 2021. It is 
important to note that while the availability timeframes of these 
vehicles could potentially be impacted by increased funding, the 
development of the spacecraft, the launch vehicle, and the supporting 
infrastructure must be carefully coordinated so that all three elements 
will be operationally available at the same time. In planning the 
development and integration schedules of Orion, SLS, and Exploration 
Ground Systems (EGS) efforts, NASA has worked to ensure that the flow 
of resources would support this goal.
    NASA is currently conducting an integrated technical, schedule, and 
cost review, which will be completed late this summer. The results of 
this review will help NASA assess the degree to which it might be 
possible to accelerate the crewed SLS/Orion MPCV test mission, 
currently scheduled for 2021.

    Question 6. As you know, we experienced considerable frustration 
over the past year waiting for a final decision and announcement on the 
SLS vehicle design. We now have the consensus and agreement we were 
seeking. However, the Committee continues to have its oversight 
responsibility so I want to be sure you understand that we will 
continue to want the regular updates we have been receiving and to be 
made aware of any issue that might come up that could cause a delay in 
moving forward. Will you and your senior program officials continue to 
supply the Committee with biweekly updates on the SLS and Orion?
    Answer. NASA recognizes and welcomes its responsibility to keep the 
Congress informed of the progress of its efforts, and senior program 
officials look forward to continuing to provide the Committee with 
biweekly updates on SLS, Orion, and EGS, as well as any issues that 
could cause a delay in moving forward.

    Question 7. At the SLS Industry Day held at the end of September in 
Huntsville, NASA officials discussed plans for contract modifications 
for Core and Upper stage, Avionics, and Boosters. For those elements of 
the SLS where current contracts can be used and simply modified as 
needed to redirect work toward SLS activities, can you provide the 
status of those contract discussions? Is work now taking place under 
those revised contracts? If so, would you please describe that work in 
your answer to these questions?
    Answer. Since the SLS architecture announcement in September 2011, 
NASA has taken numerous procurement actions consistent with Agency 
planning. An SLS acquisition strategy overview was released on 
September 22, 2011. This overview defined the procurement plans to 
utilize existing assets to expedite development, as well as further 
development of technologies and future competitions for advanced 
systems and key technology areas specific to SLS evolved vehicle needs. 
This general synopsis was followed by specific synopses announcing 
NASA's intent to pursue Justifications for Other than Full and Open 
Competition (JOFOCs) to use the existing Upper Stage contract for the 
SLS Stages (including the Core and Upper Stages) and to use the 
existing J-2X engine contract for the SLS Upper Stage Engines and Core 
Stage Engines. To gain efficiencies, it was determined that the 
avionics effort will be incorporated into the Stages contract scope. 
The current booster contract will be utilized for the use of for five-
segment solid rocket boosters for the initial SLS missions.
    Following the release of these statements, NASA authorized SLS work 
to begin under undefinitized contract actions (UCAs) for Stages, 
Engines, and Boosters pending negotiation of final contract 
modifications for these efforts. A UCA combining the efforts of the RS-
25D and J-2X engines was issued on December 1, 2011. A UCA for the 
Space-Shuttle-derived solid rocket boosters to support initial design 
and development efforts and supply boosters for the first two test 
flights was issued on December 16, 2011. A UCA for SLS Stages 
(Consisting of the Core Stage, Upper Stage and Avionics) was issued on 
December 16, 2011. The UCAs permit NASA and the contractors to perform 
critical and urgent work on SLS while the contracts modifications are 
definitized through the summer and fall of 2012. This includes 
continued testing of the J-2X, shipping of RS-25D engines to Stennis 
Space Center for qualification and testing, initial design and testing 
of the Core Stage structure, and preparations for the first five-
segment solid rocket motor qualification test in 2013.
    In addition, on December 12, 2011, a draft NASA Research 
Announcement (NRA) was released for the Advanced Booster Engineering 
Demonstration and Risk Reduction and Development contracts. On December 
15, 2011, the NRAs were openly discussed in an Industry Day at Marshall 
Space Flight Center, which was attended by over 64 different potential 
bidders. The SLS Program held separate meetings with many of the 
bidders to obtain feedback on the Draft NRAs to improve the final 
release product. The final NRA was issued in February 2012.

    Question 8. As you know, I am keenly interested in the full 
utilization of the Space Station, especially the portion designated as 
a U.S. National Laboratory. The Committee has included language in each 
Authorization Act since 2005 to help guide the establishment of the ISS 
as a national laboratory, and to ensure it meets clear policy and 
process objectives intended by the Congress and in a manner best 
defined last year in the ``Reference Model for the International Space 
Station U.S. National Laboratory,'' a study commissioned by NASA and 
published in September of 2010. You mention this new relationship 
briefly in your statement, but can you describe, in detail, how this 
partnership will work between NASA, the space station operations 
management, and the independent non-profit entity that will manage the 
National Laboratory? Please include a description of any deviation from 
either the submitted--and accepted--proposal provided by CASIS, or the 
subsequent Cooperative Agreement between NASA and CASIS, and the 
relevant explanation, justification and supporting documentation for 
any such deviation.
    Answer. Following the direction of the NASA Authorization Act of 
2010 (P.L. 111-267), proposals were solicited in early 2011, and in 
2011, the Center for the Advancement of Science in Space (CASIS) was 
awarded a cooperative agreement to manage the non-NASA use of the ISS 
National Laboratory. As the cooperative agreement states, CASIS will 
work with NASA to expand utilization of the ISS and to develop new 
sources of investment in ISS research through the use of innovative 
management tools. The relationship between NASA and CASIS will be such 
that CASIS can execute its responsibilities as defined in the 
cooperative agreement independently of NASA. CASIS will be judged on 
its performance of the tasks they agree to with NASA, as documented in 
the annual program plan. Space station operations management will 
execute the research that CASIS brings forward, in a manner similar to 
research currently executed for the International Partners.
    There are differences between the CASIS proposal and the methods in 
which the cooperative agreement is being performed, but these changes 
are not unusual for cooperative agreements. CASIS has filled several 
key positions with individuals other than those identified in the 
original proposal. Several positions have also been modified or added; 
the Director of External Affairs and the Director of Development 
positions have been replaced by the Director of Community Engagement, 
Public Relations, and Communication, and a Director of Economic 
Valuation and a Director of Marketplace Development have been added. In 
addition, CASIS brought several functions in house that were originally 
proposed to be performed by subcontractors, most significantly the 
performance dashboard and project valuation methodologies that are 
proprietary to Pro Orbis LLC, one of the partners identified in the 
CASIS proposal. However, these personnel and subcontracting decisions 
have been discussed with NASA and are within the discretion of the 
recipient of a grant or cooperative agreement, per NASA's regulations 
as found in 14 CFR Part 1260. CASIS has also proposed to establish an 
Economic Collegium to provide economic and business advice, analogous 
to the function of the Science Collegium in scientific and technical 
issues. While not described in the proposal, the Economic Collegium 
appears to be a reasonable concept, and NASA has no objections to this 
development.
    Another departure from the CASIS proposal in the method used to 
appoint the permanent board of directors. The CASIS proposal described 
a Board consisting of ex officio members including the Chairs and 
Ranking Members of NASA's House and Senate authorizing committees, the 
NASA Administrator, and senior officials from Federal agencies active 
in research and development. Staff from the Office of Science and 
Technology Policy and the Office of Management and Budget, together 
with the NASA Administrator, would have been tasked with selecting 
candidates for the Board.
    However, Federal employees serving in the specific roles 
contemplated by the by-laws issued by CASIS under Florida law would 
need to exercise fiduciary responsibilities prohibited by 18 U.S.C. 
208, a Federal statute on conflicts of interest. After considering the 
merits of governance structure, NASA management determined that even 
non-fiduciary board positions by Federal officials would represent an 
inappropriate level of Federal involvement in CASIS' internal 
governance. However, NASA is very much in accord with the intention of 
the original proposal to ensure that the experience of key Federal 
stakeholders is applied to assist CASIS in recruiting a balanced and 
skilled board. NASA is working with Executive and Legislative branch 
stakeholders to define an alternative Board process and structure that 
will provide a broad venue for Federal input into CASIS' board 
selection, while at the same time providing CASIS with appropriate 
latitude to meet its governance obligations under the cooperative 
agreement. This work is still underway, but significant progress has 
been made. NASA will keep Congress apprised of developments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                      Hon. Charles F. Bolden, Jr.

    Question 1. Human exploration beyond Low Earth Orbit requires some 
common elements, such as a heavy lift rocket like the Space Launch 
System and an ascent and descent spacecraft like Orion. Other elements 
such as in-space propulsion, space exploration vehicle, and long 
duration habitat have been said to be required for astronauts to 
perform meaningful exploration missions. When might such elements be 
expected to be designed, built, and used? Are there other elements 
besides these which might be required? When would they be proposed and 
in what time-frame might they be expected to come on line?
    Answer. NASA is pursuing a capabilities-driven architecture 
approach to human spaceflight exploration planning, which in turn 
drives the system development and technology prioritized investments. 
Architecture and analysis efforts are ongoing, to include continuing 
studies on initial destinations for the first test flights of the Space 
Launch System (SLS) and Orion Multi-Purpose Crew Vehicle (MPCV) as the 
basic elements of the system. The SLS and Orion MPCV are being designed 
to provide capabilities for a variety of deep space missions to 
multiple destinations including the Moon, asteroids, the moons of Mars, 
and ultimately the surface of Mars. Besides near-Earth asteroid 
rendezvous flights, these systems could be used to support circum-lunar 
navigations and flights to Earth-Moon Lagrange points. Lagrange points 
are gravitationally stable regions created by the interaction of the 
gravity fields of any two large masses; an object placed a Lagrange 
point will tend to stay in place for a long time. These could therefore 
be excellent locations in which to place habitation modules to study 
long-duration expeditions away from low Earth orbit (LEO), conduct 
developmental systems tests, enable tele-robotic operations, and 
execute science activities. Beyond this initial capability, SLS and 
Orion MPCV could support eventual missions to the moons of Mars--Deimos 
and Phobos and the surface of Mars itself, with incremental upgrades. 
In addition, NASA has been working with the National Research Council 
(NRC) to develop Technology roadmaps for the Agency. Much like the 
Science decadal surveys, these roadmaps will help guide the Agency's 
investment strategy to ensure NASA is advancing the technology it needs 
for future human exploration. These roadmaps will help inform Agency 
decisions about the specific timeframes for the development of 
additional elements needed for exploration missions.
    In further support of such development, and consistent with NASA's 
technology roadmaps, the Human Exploration and Operations Mission 
Directorate's (HEOMD) Advanced Exploration Systems (AES) Program is 
pioneering new approaches for rapidly developing prototype systems, 
demonstrating key capabilities, and validating operational concepts for 
future human missions beyond Earth orbit. Early integration and testing 
of prototype systems will reduce risk and improve affordability of 
exploration mission elements consistent with the capabilities-driven 
exploration architecture. The prototype systems developed in the AES 
program will be demonstrated in ground-based test beds, field tests, 
underwater tests, and flight experiments on the ISS. Many AES projects 
will evolve into larger integrated systems and mission elements that 
will be tested on ISS before we venture beyond Earth orbit. The AES 
Program is developing a deep space habitat, a crew excursion vehicle, 
reliable life support systems, advanced spacesuits, radiation 
protection, and autonomous systems to assist the crew with mission 
operations. The Space Technology Program is developing capabilities for 
cryogenic propellant storage, in-space propulsion, power generation and 
energy storage, and advanced robotics. The goal is to demonstrate these 
new capabilities by 2020 to enable human missions in the next decade. 
The AES and the Space Technology Programs will work closely together to 
incorporate and integrate new technologies and innovations as they are 
matured to the point of infusion.

    Question 2. NASA Exploration will undoubtedly be aided by research 
conducted in low earth orbit to develop and test technologies as well 
as operational concepts. What type of exploration-related research is 
currently planned and how exactly does the International Space Station 
fit into NASA's exploration plans? Also, how crucial, and in what 
capacity would the Commercial Resupply Service and the Commercial Crew 
Program be in facilitating a successful Exploration Program?
    Answer. The ISS is vital element of NASA's science and technology 
development effort to enable safe, affordable, and sustained human 
exploration of deep space. As NASA's only long-duration flight analog 
for future human lunar outpost missions and Mars transit missions, it 
provides an invaluable laboratory for research with direct application 
to the exploration requirements that address human risks associated 
with deep space missions. The ISS is the only space-based multinational 
research and technology test-bed available to identify and quantify 
risks to human health and performance, identify and validate potential 
risk mitigation techniques, and develop countermeasures for future 
human exploration.
    The ISS research portfolio includes human research and the 
development of countermeasures to reduce the deleterious effects of 
microgravity for long-duration exploration missions. Experiments being 
conducted on the ground and aboard ISS will help us understand and 
mitigate the negative impacts of extended exposure to the microgravity 
environment on the human body. Such impacts include decalcification of 
bones, muscle atrophy, and radiation exposure. The development of 
technologies and techniques to counter these effects is critical to 
deep-space missions. ISS crews are conducting human medical research to 
develop knowledge in the areas of clinical medicine, human physiology, 
cardiovascular research, bone and muscle health, neurovestibular 
medicine, diagnostic instruments and sensors, advanced ultrasound, 
exercise and pharmacological countermeasures, food and nutrition, 
immunology and infection, exercise systems, and human behavior and 
performance.
    As a technology development and demonstration platform for 
exploration, the ISS is currently being utilized to demonstrate 
advances in life support systems, robotics for crew support and 
spacecraft servicing, and space-durable materials. NASA is also funding 
technology development activities that will eventually be demonstrated 
onboard the ISS such as EVA systems, radiation monitoring, docking 
systems, and autonomous mission operations. These and other technology 
development activities are being driven by NASA's overall exploration 
goals to extend human presence beyond LEO to near-Earth objects (NEOs), 
and eventually to Mars. NASA is also exploring how the ISS elements and 
program infrastructure can be utilized to enable or enhance 
exploration.
    A robust cargo and crew transportation architecture is critical to 
ensuring full utilization of ISS--including conducting the research 
efforts that will support the development of long-duration exploration 
missions beyond LEO. The Commercial Resupply Services (CRS) and 
Commercial Crew Program (CCP) efforts will create and leverage 
affordable operations in LEO, including the transportation and rescue 
of crew and transportation of cargo to and from ISS, and will enable 
U.S. industry to support NASA and other Government and commercial users 
safely, reliably, and at a lower cost. The commercial crew and cargo 
systems that support ISS will also enable NASA to focus its own 
development efforts on the Orion MPCV and SLS, which will send U.S. 
astronauts on missions of exploration beyond LEO.

    Question 3. Recently the International Space Exploration 
Coordination Group published the Global Exploration Roadmap. This group 
seems to be an opportunity to form partnerships for exploration which 
would potentially reduce the burden on the U.S. taxpayer. How does the 
Global Exploration Roadmap fit within NASA's own Exploration plans? 
Could it be expected to be of assistance and particular value in a 
constrained budget situation? How does the recent announcement of the 
Space Launch System and Multi-Purpose Crew Vehicle position NASA to 
lead an international team? Do you envision the Global Roadmap leading 
to international agreements for the purpose of supporting Exploration? 
Are there any specific elements or systems which NASA is looking to 
partner on?
    Answer. NASA shares the belief of its current and potential 
partners that challenging and exciting exploration missions will be 
international in nature. Therefore, the Agency is actively engaging 
with the international community, facilitating efforts to 
collaboratively set the stage for human exploration missions of the 
future through both the ISS partnership and in the International Space 
Exploration Coordination Group (ISECG). Space agencies, including NASA, 
are looking for near-term opportunities to coor*dinate and cooperate 
that represent concrete steps toward enabling the future of human space 
exploration across the solar system. In September 2011, the initial 
version of the Global Exploration Roadmap (GER) was released by the 
ISECG members. Updates and refinements are planned in 2012. The GER 
represents a set of scenarios for NASA and the international space 
agencies to consider as they move forward in defining long-term plans 
for the exploration of deep space, with a human landing on Mars as the 
ultimate destination.
    The construction and operation of the International Space Station 
(ISS)--a cooperative venture among the space agencies of the U.S., 
Russia, Europe, Japan, and Canada--has demonstrated the benefits of 
collaborating with international partners on large, complex human space 
projects. The ISS partner agencies and the space agencies of the ISECG 
are forging future exploration plans and concepts in a multilateral 
arena, which are strongly guided by NASA's architecture, systems, and 
mission planning effort. Multiple participants bring a depth of 
technical expertise, demonstrated capabilities, and funding resources 
that are vital to our collective success in these challenging 
endeavors. While the specific partners and their roles in future deep 
space exploration projects have not yet been defined, NASA anticipates 
that the human exploration of the solar system will be carried out 
under an international effort, with various nations focusing on 
particular capabilities, and views the ISECG and the GER as important 
tools in identifying potential future partnerships. NASA's own plans to 
develop the Orion Multi-Purpose Crew Vehicle (MPCV) and heavy-lift 
Space Launch System (SLS) are examples of capabilities that the United 
States will be able to offer to a future international deep space 
exploration venture. They represent strong foundational capabilities 
for an international exploration effort and position NASA very well to 
play a lead role.

    Question 4. In your testimony you state that Orion meets the MPCV 
requirements and that no contract changes need to be made through the 
development phase of MPCV. In response to my question during the 
hearing, with regard to when the development phase of the MPCV is 
expected to be complete, you responded that you would provide that 
answer for the record. Please do so as a part of your response to these 
questions.
    Answer. NASA determined that Orion met the technical requirements 
for MPCV, and further determined that the contractual partnership with 
Lockheed Martin Corporation maps well to the scope of the MPCV 
requirements outlined in the NASA Authorization Act of 2010 (P.L. 111-
267), and the current contract will be used for the development phase 
of the MPCV. NASA is planning that the Orion vehicle will fly an 
uncrewed Exploration Mission 1 (EM-1) in 2017 (early FY 2018) and 
Exploration Mission 2 (EM-2) with a crew in 2021 (early FY 2022).
    The Orion Crew Exploration Vehicle (Orion CEV) is being 
transitioned into the Orion Multi-Purpose Crew Vehicle (Orion MPCV). A 
thorough contract scope assessment was performed of the suitability of 
the existing CEV contract with Lockheed Martin. The original contract, 
Orion CEV Contract NNJ06TA25C, has the flexibility to implement a fully 
capable beyond-LEO spacecraft. Contract changes occur as required to 
focus efforts of the contractor, for example on test articles for 
environmental and loads testing in support of Exploration flights 
through 2021. The current vehicle development schedule and resulting 
qualification tests will be completed in FY 2018.

    Question 5. Regarding the competition for the advanced booster, 
what is the planned timeline, from start to finish? How firm are these 
timelines? In addition, how will NASA ensure that the competition for 
the advanced booster project will be executed in fair manner? Could you 
give details regarding these steps?
    Answer. A draft Advanced Booster risk reduction draft NASA Research 
Announcement (NRA) was issued on December 12, 2011. The final NRA was 
issued on February 9, 2012 as a full and open competition and is 
expected to result in multiple contract awards for companies to work on 
risk reduction efforts for advanced booster concepts prior to the 
actual Design, Development, Test and Evaluation (DDT&E) of the final 
booster configuration. The SLS Advanced Booster Engineering 
Demonstration and Risk Reduction acquisition effort will increase 
affordability, performance, and reliability confidence of an Advanced 
Booster concept which will enable SLS to evolve to a 130-metric-ton 
lift capability, and reduce risks for both liquid and solid Advanced 
Booster concepts. The SLS Advanced Booster will require a significant 
increase in thrust compared to existing U.S. solid and liquid boosters. 
The Advanced Booster Engineering Demonstration and Risk Reduction NRA 
has an anticipated performance period between October 2012 and March 
2015. The notional DDT&E contract will be solicited in the 2015-2016 
timeframe, after results are received from the risk reduction effort. 
The SLS Program is targeting the first flight of the Advanced Booster 
for the third SLS flight in the 2023 timeframe.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                      Hon. Charles F. Bolden, Jr.

    Question. Mr. Administrator, I sent you a letter in May about the 
delayed design plans for SLS and the much delayed workforce transition 
report. A 2008 appropriations law required NASA to submit this report 
every 6 months until the next human spaceflight vehicle is fully 
operational.
    Despite not receiving a response to my letter or a plan for 
releasing the report, I was pleased to see that the latest workforce 
transition was released in October. However, that was over 2 years 
since the previous report from July 2009. In the meantime, thousands of 
Floridians, and aerospace workers around the country, were laid off or 
forced to move jobs. Yet NASA was not providing an up to date strategy 
letting these workers know what the agency planned to do. Can you see 
how this would discourage the space workforce in Florida and at other 
centers? Moving forward, does NASA intend to update this report every 6 
months?
    Answer. NASA is committed to keeping the Congress and the workforce 
apprised of its transition activities. The Agency recognizes that its 
greatest asset is its people--the thousands of individuals across the 
country in both Government and industry who conceive, design, build, 
operate, and manage an ambitious program of space exploration on behalf 
of the Nation. NASA began preparing for Space Shuttle retirement in 
2004, and a key part of that effort involved workforce transition. This 
array of activities included keeping the workforce up to date on the 
progress of transition, as well as: conducting surveys; matrixing 
employees; providing training and employee support programs; and 
working with Federal, state, and local agencies to assist the workforce 
in developing skills and finding new job opportunities. For example, to 
help the workforce develop skills and find jobs, the Centers, 
companies, and workforce organizations have come together to host 
numerous job fairs (live and virtual) and company showcases with hiring 
managers; offer extensive training in resume writing, job search 
skills, and interviewing skills; provide one-on-one counseling; and 
provide access to resources such as entrepreneur training. In addition, 
NASA has partnered with departments of Commerce and Labor, Small 
Business Administration, as well as other organizations to support the 
work of the Centers, companies, and workforce boards.
    In 2009, NASA established the Space Shuttle Transition Liaison 
Office (SSTLO) in response to direction in the NASA Authorization Act 
of 2008 (P.L. 110-422). The Agency was directed to assist local 
communities affected by the termination of the Space Shuttle program by 
offering nonfinancial, technical assistance to the identified 
communities and to identify services available from other Federal, 
State, and local agencies to assist in such mitigation. Specifically, 
the Office:

  <bullet> Serves as a clearinghouse by gathering and disseminating 
        information to the affected communities about opportunities 
        available through other Federal, State, and local agencies; 
        and,

  <bullet> Serves as a key point of contact for the community beyond 
        NASA for information about how the Agency was working with 
        local communities to provide nonfinancial, technical assistance 
        during transition.

    While the conclusion of the Space Shuttle Program and the 
cancellation of the Constellation Program have been very challenging, 
resulting in the displacement of many skilled, dedicated people, NASA 
and its industry partners have always endeavored to keep civil service 
and contractor employees up to date on the status of their programs and 
transition opportunities.
    In terms of keeping Congress apprised of the status of transition 
efforts, a key component of the Workforce Transition Strategy update is 
the workforce projection table. The period from 2009 to 2011 included a 
reassessment and reformulation of NASA's human spaceflight program, 
during which the development of outyear workforce projections was not 
feasible. In June of 2010, NASA provided Congress with a qualitative 
white paper covering workforce transition efforts (and in particular, 
the creation of the SSTLO). In addition, NASA continued to keep 
Congress apprised of workforce reductions related to the ramp-down of 
the Space Shuttle Program. NASA provided a Workforce Transition 
Strategy to Congress in September 2011 and will continue to provide 
updates every 6 months with the next report to be delivered in April 
2012.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Robert D. Cabana

    Question 1. In May the administration announced its decision to 
proceed with the Orion contract and in September it announced its plans 
and architecture for SLS. Since the announcement of decisions to 
proceed with Orion and the SLS, what has your Center been able to do 
that it previously was unable to accomplish?
    Answer. With the respective May and September announcements, the 
Exploration Ground Systems line within the Ground System Development 
and Operations Program at KSC has transitioned its development focus 
beyond enabling basic launch facility and systems capability to 
formalizing conceptual feasibility studies consistent with the SLS and 
Orion architectures. The GSDO Program conducted a formal Mission 
Concept Review (MCR) in November to establish ground system mission, 
needs, goals and objectives that were consistent with the SLS/Orion 
architectures. Additionally, ground system feasibility trades were 
evaluated against cost, schedule, technical and schedule parameters. In 
January, a Key Decision Point (KDP) review was conducted at the Agency 
Program Management Council (APMC) assessing our MCR results. The APMC 
and the independent Standing Review Board (SRB) concluded that our 
concepts were feasible and fit within the required parameters and the 
Program was formally approved to proceed into formulation and the next 
KDP.

    Question 2. With regard to the announcement of the decision on the 
Space Launch System, has your employee and contractor workforce become 
more stable subsequent to that announcement? Are you expecting any more 
layoffs or major adjustments in workforce?
    Answer. Yes the employee and contractor workforce has become more 
stable and while we expect additional layoffs after completion of 
Shuttle transition and retirement, the announcement of the architecture 
and the projected manifest through 2017 and beyond enables higher 
fidelity planning which will support even greater stability. As for the 
individuals who were laid off, a number of them have already found 
employment with other contracts in support of the Orion and Ground 
Systems Development and Operations programs, as well as with employers 
across the region and country through our workforce transition efforts.

    Question 3. You each represent Centers with historically major 
responsibilities for human space flight programs. Obviously, there are 
many capabilities and considerable expertise at NASA Centers throughout 
the country. Would you please describe the specific steps you are 
taking to maximize the NASA ``Talent Pool'', wherever it is physically 
located, to not only help you fulfill your primary Center Roles, but 
contribute to the improved efficiency and effectiveness of NASA as a 
whole?
    Answer. The Kennedy Space Center Workforce Planning Office is 
currently assessing critical skill demands against existing workforce 
supply (post buyout) to provide senior managers recommendations for 
optimally utilizing the existing current work force's skills, identify 
re-training opportunities, and identify unique skill set hiring 
requirements that can be achieved external to our current work force. 
These include potential hires from across the Agency and those 
positions, which can be filled with recent graduates. The Commercial 
Crew Program is designed to utilize employees at multiple Centers 
(primarily KSC and JSC), and the Ground Systems Development and 
Operations Program, SLS, and MPCV programs work closely across KSC, 
MSFC, and JSC. KSC has always supported details and hires of other NASA 
Center employees into our workforce and details and hires of our 
workforce to other NASA Centers.

    Question 4. You have recently stated that Kennedy Space Center is 
to become a multi-user spaceport. With limited resources and facilities 
what is the operational concept and how will priority be established 
between programs? How will the Air Force range modernization be 
factored into your activities--or budget?
    Answer. With the reduction in launch manifest from the Space 
Shuttle to SLS program--coupled with commercial acquisitions of low-
Earth orbit transportation (Commercial Orbital Transportation Services 
(COTS), Commercial Crew Program, etc.)--KSC assets are being made 
available for commercial use. The multi-user approach will allocate 
underutilized facilities to these and other commercial providers, and 
KSC's experienced operations workforce will ensure compatibility 
between various users. Projected manifests can be supported within 
available capabilities. If demand grows beyond capabilities, NASA 
programs will be given priority.
    Air Force modernization of the Eastern Test Range remains in the 
program budget. Working with the 45th Space Wing, targeted projects 
that enable a robust multi-user spaceport are currently being performed 
to improve various capabilities on the range. The 21 Century Space 
Launch Complex (21CSLC) provides funding thru FY2017 to continue NASA 
priority range modernization projects

    Question 5. Can you describe what work needs to be performed on the 
new Mobile Launch Platform to support the new configuration and weight 
of the SLS? Can the Crawler and Crawler-way support the overall SLS 
core and upper stage weight?
    Answer. The new Mobile Launcher (ML) will be modified from the 
previous Ares I ``single-stick'' configuration to the SLS/Orion 
configuration, which includes a liquid stage core and various first 
stage booster options. Under the Constellation program, the structure 
and basic facility capabilities were completed, but outfitting with 
ground support equipment (GSE) was canceled during program transition. 
For SLS/Orion, the ML base structure will undergo significant 
modifications, the ML tower will receive minor modifications, and new 
GSE outfitting will be performed.
    To support the weight of the SLS/Orion and modified ML, the 
crawler-way has undergone extensive study and field analysis to verify 
compatibility with the higher anticipated rollout weight. To support 
SLS/Orion, one crawler-transporter will be modified and modernized. 
Design has been performed and modifications have commenced. When 
complete, the ML and refurbished crawler will support anticipated SLS 
configurations.

    Question 6. What are the current plans for use of Pad 39A? Will it 
be mothballed or do you anticipate other potential uses?
    Answer. Launch Pad 39A is currently being mothballed in the current 
Space Shuttle configuration. In some cases, to minimize cost to Pad 39B 
and the new SLS Mobile Launcher, some Pad 39A systems are being reused. 
In addition, various commercial users have conveyed interest in Pad 39A 
for potential NASA, DoD and commercial programs. One commercial user 
has officially requested ``non-exclusive'' access in the early 2012 
timeframe, and KSC plans to accommodate that request. The commercial 
launch provider would then be responsible for the operations and 
maintenance of the systems required for its launch vehicles and any 
modifications to accommodate those vehicles would be allowed. However, 
such modifications shall not preclude shared or future use by other 
commercial or Government users. While concepts are being studied, and 
other potential users not yet defined, the future configuration of Pad 
39A has not been finalized.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                            Robert D. Cabana

    Question. Can you describe some of the ways you are partnering with 
industry and the state and federal governments to identify uses for 
facilities at KSC that are no longer needed in support of Shuttle 
operations?
    Answer. We are working with several different state and local 
agencies to identify uses for facilities at KSC no longer needed in 
support of Shuttle operations. These entities include Space Florida, 
Economic Development Commission of the Space Coast, Brevard Workforce, 
Florida Department of Transportation, and Florida Department of 
Economic Opportunity. We are in contact with many companies that would 
like to utilize some form of the underutilized facility capacity 
currently available at KSC. These companies also include all of the 
prospective commercial crew providers. Partnerships, when appropriate, 
are enacted through Space Act Agreements. One of the most significant 
examples of these partnerships is the agreement KSC and Space Florida 
signed to repurpose the Orbiter Processing Facility 3, the Space 
Shuttle Main Engine Processing Facility and the Processing Control 
Center for a commercial space customer, the Boeing Corporation, for use 
in the manufacture and operation of their proposed CST-100 Crew 
Capsule.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            Robert D. Cabana

    Question 1. Based on current plans, we know that the first SLS test 
flight is scheduled for 2017, and KSC will have to increase its 
workforce as we get closer to that launch. Then after that 2017 test 
flight, the first scheduled mission is set 4 years later in 2021. I am 
concerned about the time in between flights and potential effects on 
the KSC workforce. Will KSC maintain its workforce levels during that 
gap? How will KSC utilize the workforce between the test flight and the 
first mission?
    Answer. The majority of the KSC contractor workforce associated 
with spaceflight hardware processing during the 2013-2021 time-frame 
will be under the new Test and Operations Support Contract (TOSC). This 
contract is being structured to provide processing support to all NASA 
programs (SLS, MPCV, 21CGS, ISS) performing spaceflight hardware 
processing at the Kennedy Space Center. Additionally the TOSC is 
structured to provide flight hardware ground processing, test, 
integration and launch operations support to other government agencies 
and commercial customers resident performing work at KSC. It is 
anticipated that during the 2017 to 2021 timeframe, the TOSC workforce 
will be supporting multiple NASA, other government agency and 
commercial entities simultaneously. We are already seeing this scenario 
emerge with the recent announcement of Space Florida bringing the 
Boeing Company into Orbiter Processing Facility 3. We are in 
discussions with multiple other commercial entities to bring their work 
to KSC and are also in discussions with several DOD entities to bring 
their programs to KSC. Our initial discussions have identified a 
growing customer base which will need varying levels of support from 
supplying simple commodities to full flight hardware processing, test, 
integration and launch support. Having a broad, multi-customer base 
performing spaceflight test, processing and operations at KSC will 
allow the TOSC workforce to be flexibly applied across numerous 
activities without the need to have a large swing in workforce levels.
    The Ground Systems Development and Operations (GSDO) Program has 
planned a minimal staffing approach that cross-utilizes skills to 
minimize perturbations between the first test flight and follow-on 
mission processing flows. The period between the test flight and first 
operational flight will be focused on the incorporation of lessons 
learned from the test flight while developing the necessary ground 
systems and operational capabilities for the first operational flight.

    Question 2. We have seen reports in Florida about commercial space 
entities looking at sites outside of Florida for launch pads. I think 
this is somewhat understandable given the different entities that 
launch from Cape Canaveral and the collaboration that goes into the 
launch schedule. Plus, commercial companies are going to make decisions 
based on different criteria than NASA, and they are focused on 
controlling their schedules for their commercial customers. Are you 
concerned that the factors that go into launching from the Cape could 
cause commercial entities to look elsewhere where they can have more 
control over their launch schedules?
    Answer. Commercial space providers have many factors that are 
considered before deciding on the best payload processing and launch 
site, and each site has unique core capabilities. KSC sees other sites 
as more of a partnership that can be leveraged to ensure the U.S. has a 
viable space industry. We believe the Cape has unique capabilities from 
a 50-year history of launching every American vehicle that carried a 
crew into space, but we recognize the similarities and differences 
between the past and the future. KSC has been supporting commercial 
space activities with our Launch Services Program, using commercial 
ELV's (Expendable Launch Vehicles) to launch science payloads, and with 
our Commercial Crew Program, facilitating the development of a U.S. 
crew space transportation capability. NASA/KSC and the U.S. Air Force 
(45th Space Wing and Air Force Space Command) are working together to 
enable the commercial space industry at the Cape by jointly performing 
a Future State Definition Study. The study will take into consideration 
NASA and Air Force architectural capabilities, concepts of operations, 
and enabling policies to increase capabilities, reduce serialization 
and provide more control over costs. The results will include a 
prioritized list of investments leading to a more cost effective and 
customer-focused environment. KSC's goal is to ensure that we meet the 
partners' requirements for schedule, cost and reliability.

    Question 2a. Is there any scenario in which KSC is looking to 
operate in more of a commercial fashion to meet the launch needs of the 
industry?
    Answer. For every future scenario, KSC believes we must develop 
more commercially-compatible processes that will be necessary to 
transform KSC from a government- and program-focused, single-user 
launch complex to a more capability-centric and cost-effective multi-
use spaceport, enabling both government and commercial space providers. 
NASA and the commercial space customers will work together to develop 
mutually beneficial agreements that allow for NASA to leverage 
expertise or to maximize the autonomy of the commercial operation (with 
minimal oversight) based on the varying needs of the commercial space 
customers. Streamlined processes will be critical. GSDO, via the 21st 
Century Space Launch Complex initiative, has already begun implementing 
necessary infrastructure upgrades for the multi-use launch complex to 
support both government and commercial space needs. As these users' 
needs mature, GSDO continues to refine the ground architecture approach 
and investment strategy for applicability. In parallel, KSC has also 
already begun transforming our processes for easy access and use of 
facilities, equipment, and services that maximize flexibility and 
multi-use concepts.

    Question 2b. I know the agencies work together on this, but how can 
NASA, the Air Force, and the FAA better collaborate to take advantage 
of the workforce and assets at the Cape to best meet the launch needs 
of the Nation and retain the skill set and intellectual capital that 
currently exists on the Space Coast?
    Answer. As with any collaboration between different agencies with 
differing missions that overlap, the potential for improvement exists. 
NASA, DoD, and the FAA have coordinated well for many years due to the 
nature of our business. FAA licensing requirements for commercial space 
activities have fostered close working relationships between FAA, NASA, 
and the U.S. Air Force (45th Space Wing and Air Force Space Command). 
Creation of the FAA Technical Center at KSC is one way NASA and the FAA 
are partnering to try and retain the critical skills for future 
programs and missions. In working to improve the range, NASA/KSC and 
the U.S. Air Force (45th Space Wing and Air Force Space Command) are 
jointly performing a Future State Definition Study to determine a 
prioritized investment list. NASA is also collaborating with the FAA 
and they are integrated into the working teams and support the overall 
management reviews.

    Question 2c. First, I want to commend you on your efforts to 
diversify the mission and capabilities of KSC. Moving forward we know 
that KSC will play a greater role in technology development for future 
spaceflight, and some of the workforce that fell under certain 
programs, like the Shuttle or Constellation, will now be funded under 
these technology programs. What do you anticipate being KSC's role in 
technology development for future spaceflight?
    Answer. Technology development roles for future spaceflight 
anticipated for KSC include autonomous control systems, cryogenic and 
hypergolic fluid storage and transfer systems, specialized sensor 
development, specialty materials development (including self-healing 
corrosion control coatings and self-healing wire insulation), 
communications, navigation and weather technologies, and novel 
environmental remediation technologies. KSC is also establishing a 
pipeline to research, develop and demonstrate hardware and software 
technologies and capabilities which minimize launch delays/scrubs by 
avoiding subsystem failures or by detecting, isolating and recovering 
from subsystem failures faster than possible with current methods and 
reduce ground operations and maintenance costs through process 
automation and systems autonomy.
    KSC currently leads the Agency-wide work for In-Situ Resource 
Utilization (ISRU), where capabilities being developed will enable 
affordable and sustained human presence throughout the solar system by 
allowing the in situ manufacturing of propellants and consumables--a 
``living off the surface'' approach that greatly decreases the mass 
that has to be launched into space. A current project led by KSC is the 
development of an ISRU payload that could be delivered to the moon to 
demonstrate the feasibility and viability of ISRU. KSC also has 
recognized expertise in granular mechanics and regolith operations 
involving working with the surface materials of other destinations--
excavation, conveyance (in and out of chemical processors), 
manufacturing and construction with regolith, site preparation, landing 
pad construction, prediction of rocket exhaust blast effects, etc. We 
have developed and performed next generation life support technologies, 
such as air and water recovery, wastewater recycling, and closed loop 
life support capabilities. KSC is a partner in in-space cryogenics 
storage and transfer technology development leveraging our unique 
skills and experience in cryogenic propellants. We partnered in the 
Robotic Satellite Servicing project as well and are responsible for the 
design and development of the propellant transfer modules and hose 
management flight systems, including maturing the technology readiness 
levels of the flow metering and pump motor control technologies for 
this project.
    KSC will continue to seek opportunities that align with the 
Agency's research and technology priorities, and ensure our talented 
workforce is prepared for success. KSC will also continue to partner 
with other NASA centers, other government agencies, industry and 
academia in this technology development work.

    Question 2d. What can my office do, and what can Congress do, to 
help KSC meet its technology development goals?
    Answer. KSC has great expertise in research and technology. The 
largest emphasis areas of these multiple disciplines of technology 
development are in support of: (a) launch vehicles and ground systems 
(for government and commercial operators) and (b) surface systems 
technologies needed for surfaces other than earth. Due to the long, 
successful history of space vehicle launches, KSC is well-known for its 
processing and launch capabilities. In addition, KSC has unique 
capabilities in the research and technology development arena. KSC has 
the capability to perform low technology readiness level (TRL) research 
that can then be inserted in all types of systems on earth, other 
surfaces, and in space. External partners from other government 
agencies, industry, and academia have found KSC's technology 
development expertise significant in development of technologies 
important to many applications of societal benefit and to NASA's 
missions. Your help would be greatly appreciated in supporting NASA's 
budget request, including the request for $699 million in Space 
Technology to continue the agency's important technology programs.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Michael L. Coats

    Question 1. In May the administration announced its decision to 
proceed with the Orion contract and in September it announced its plans 
and architecture for SLS. Since the announcement of decisions to 
proceed with Orion and the SLS, what has your Center been able to do 
that it previously was unable to accomplish?
    Answer. The May announcement allowed the Orion-MPCV Program to 
proceed with its reorganization plans and initiate detailed planning of 
the Orion incremental development plan while executing the component 
and systems development already underway. The September announcement 
enabled Orion to formalize agreements with the Space Launch System 
(SLS) Program Office and with Headquarters/Exploration System Division 
for conducting the program-to-program integration and coordinating our 
activities. The SLS announcement enabled the planning to proceed for 
the first orbital flight test of Orion-MPCV in 2014 which was 
authorized in November by NASA Headquarters.
    These announcements also helped alleviate uncertainties about these 
two central development programs, which all offices have used to 
solidify plans for the future. For example, the Mission Operations 
Directorate was able to clarify its role in the 2014 flight test.

    Question 2. With regard to the announcement of the decision on the 
Space Launch System, has your employee and contractor workforce become 
more stable subsequent to that announcement? Are you expecting any more 
layoffs or major adjustments in workforce?
    Answer. The announcement of the Space Launch System, along with 
support of Orion (MPCV), the International Space Station and other 
development programs has had a positive effect on workforce morale. 
With the necessary contractor layoffs already completed, JSC predicts 
additional layoffs will be minimal. NASA continues to work with elected 
officials, community leaders and the contractor community to transition 
employees who were laid-off to new positions inside and outside of 
NASA.

    Question 3. You each represent Centers with historically major 
responsibilities for human space flight programs. Obviously, there are 
many capabilities and considerable expertise at NASA Centers throughout 
the country. Would you please describe the specific steps you are 
taking to maximize the NASA ``Talent Pool'', wherever it is physically 
located, to not only help you fulfill your primary Center Roles, but 
contribute to the improved efficiency and effectiveness of NASA as a 
whole?
    Answer. JSC has been working diligently to preserve the critical 
workforce skills and capabilities needed to support current and future 
programs. There are several specific measures that JSC is taking:

  <bullet> JSC continues to prioritize investment in our student 
        pipeline programs, including our Cooperative Education Program. 
        These programs support NASA's goals of promoting Science, 
        Technology, Engineering, and Math (STEM) education as well as 
        developing the skill needs that directly feed our critical 
        hiring pipeline.

  <bullet> JSC continues to invest in development programs that prepare 
        our workforce for future challenges. Many of our key leaders 
        for the Space Shuttle Program have vast expertise in managing a 
        large-scale program in the operations phase. At the same time 
        they need skills in the development-phase of project management 
        and we are working on placement and individual development 
        opportunities that will develop those skills. JSC is also using 
        the Program/Project Management Development Program--which 
        involves participants from across NASA--to build competencies 
        in leadership and program-level project management. The Project 
        Leadership and Space Systems Engineering Development Programs 
        are also designed to build capabilities NASA needs for the 
        future.

  <bullet> JSC has actively been seeking beneficial partnerships to 
        utilize its capabilities and facilities at the center to help 
        offset costs and maintain critical infrastructure. Most 
        recently, Petrofac Training Services signed an agreement that 
        allows them to do deep-water safety training at JSC's one-of-a-
        kind Neutral Buoyancy Laboratory.

  <bullet> JSC has been partnering with industry to offset development 
        costs and collaborate with major U.S. companies. JSC worked 
        with General Motors on the development of the Robonaut 2--a 
        humanoid robot now onboard the International Space Station.

    The International Space Station Program, Orion Program, and 
Advanced Exploration Systems projects have helped ensure that critical 
engineering and scientific skills can be capitalized and used to 
benefit the next phase of NASA's exploration mission.
    Mission Operations support is critical to the success of any future 
spacecraft's entry into service, and the work required to fly them 
successfully is critical to preserving the national asset that is NASA' 
Mission Control and Mission Operations Directorate.
    JSC has been working internally and with the contractor community 
to identify critical skills and ensure that JSC can continue to lead in 
those areas.

    Question 4. The Orion program is described as streamlining its 
government insight and oversight activities with a goal of a 70 percent 
reduction in NASA oversight. Can you please describe how that is 
intended to work and if you have any concerns with this innovative 
approach?
    Answer. The Orion Program has taken steps and made a pointed effort 
to better define the traditional government role as oversight, 
management integration and inline work. Oversight is effectively 
``checking and independently verifying'' contractors are performing the 
work defined as stated in contract requirements. Management Integration 
is the support to the program manager regarding strategic decisions 
including budgets, schedules, planning, reporting, stakeholder 
communications, contracts, etc. Inline work consists of direct NASA 
contributions to the development of the spacecraft performed in-house, 
utilizing our unique expertise/facilities, rather than performing the 
work exclusively within the prime contractor workforce.
    The total dedicated oversight reduction is closer to 60 percent and 
consists of civil servant and support contractor work force. This 
number is based on the civil service and other contractor support 
categorized as dedicated oversight/insight, inline and program 
management integration.
    When Orion reduced oversight, it also reduced management 
integration to core levels of support, roughly a 50--60 percent 
reduction. Orion also took advantage of NASA's unique expertise by 
redirecting the civil service workforce to perform inline work and in 
doing so, realized direct and indirect benefits. This newly redirected 
work increases the value of the government's performance and leverages 
the unique skills and infrastructure of the NASA team. NASA further 
benefits by acquiring a deep level of insight into critical areas by 
being directly involved in the contractor teams while performing these 
inline assignments.

    Question 5. Can you please provide an overview of Orion/ highlights 
and accomplishments to date?
    Answer. NASA has announced plans for the first Exploration Flight 
Test (EFT-1) of the Orion spacecraft in early 2014, which will support 
the new Space Launch System that will take astronauts further into 
space than ever before.
    This test will acquire critical re-entry flight performance data 
and demonstrate early integration capabilities that benefit the Orion, 
Space Launch System, and 21st Century Ground Systems programs.
    The first Orion-like docking system test was conducted on STS-134 
as part of the Sensor Test for Orion Relative Navigation Risk 
Mitigation (STORRM). The orbital rendezvous verified the successful 
operation of the Orion's next generation docking sensor, a critical 
technology needed for future space exploration missions.
    The Orion team has already completed critical subsystem tests and 
production milestones to meet these flight test objectives, such as 
completion of the first Orion crew module, pad abort flight test and 
other subsystem tests, preliminary design review, software design, 
ground test vehicle tests, water drop tests and facility renovations at 
Kennedy Space Center. The program also successfully completed the 
initial phase of the formal safety review process.
    The Orion team completed a series of structural, acoustic and 
vibration tests at Lockheed Martin's Reverberant Acoustic Laboratory in 
Denver as they progress toward Orion's orbital flight test. After 
testing is completed, this vehicle will be sent to Langley Research 
Center in Virginia for a series of landing tests at the new Hydro 
Impact Basin, which will be used to validate and certify all human-
rated spacecraft for NASA.
    The Orion team at Michoud Assembly Facility in New Orleans began 
fabrication of the Orion spacecraft slated for the EFT-1 orbital flight 
test. After completion of weld operations at Michoud, the spacecraft 
will be sent to Kennedy Space Center's Operations & Checkout Facility 
for continued processing through final assembly and testing.
    At the Lockheed Martin Exploration Development Lab in Houston, the 
Orion Hardware/Software Integration team completed its first successful 
integration test that demonstrated Orion's avionics hardware and flight 
software can perform a high-speed orbital entry from a deep space 
mission. These tests are critical during the early spacecraft 
development cycle to ensure the avionics and software is compatible 
before the flight test vehicle is completed.
    The Orion program has conducted a vigorous parachute air and ground 
test program and provided the chutes for NASA's successful pad abort 
test in 2010. The lessons learned from this experience have improved 
Orion's parachute system.

    Question 6. What does the proposed Orion test in 2014 mean for the 
workforce at JSC? Does this represent part of a larger body of initial 
work that will need to be done for mission control and management of 
this mission and other missions beyond low-Earth Orbit?
    Answer. The flight test specifically addresses the mitigation of 10 
of the top 16 risks to the crew and mission including the parachutes, 
the thermal protection system, separation of the forward bay cover, the 
onboard avionics and software and the various flight systems. The 
flight test also allows early integration of hardware, processing and 
operations experience with the new exploration systems. The ground 
operations team at the Kennedy Space Center and the mission operations 
team at Johnson Space Center will both be involved in the test.
    Orion's EFT-1 allows the teams to focus on real-world flight test 
objectives that are derived to mitigate risks while moving forward on 
core systems development. Doing so provides the opportunity to sustain 
critical ground and flight operational skills and validate ground 
hazard analysis and very specific hazard controls.
    The EFT-1 will be a pathfinder for pre-launch, launch, range 
safety, recovery and de-servicing/refurbishment processes for the 
integrated exploration team. It also will demonstrate integrated 
vehicle performance for ascent, on-orbit, and high-energy entry from 
deep space. The test will allow the opportunity for all elements of 
NASA's exploration program to be tested together, exercising flight 
regimes, mission and recovery operations that have not been seen by a 
spacecraft designed for human flight in almost 40 years.

    Question 7. Mr. Coats, your Center is home of Mission Operations 
Directorate and Shuttle Mission Control. The high caliber of these 
teams is well known. What have you been able to do to preserve some of 
these specialized skills and experienced individuals in the absence, 
now, of active space shuttle operations? Are there any support roles 
for the space station that would be available to preserve some of these 
unique capabilities?
    Answer. JSC has a world class Mission Operations Directorate (MOD) 
that is controlling and operating the ISS 24/7. With the retirement of 
the Shuttle, new opportunities have been pursued to preserve the 
critical skills of that team: the development of Mission Operations 
strategy for the Orion Program operations and collaboration with the 
commercial partners about our interaction with them during NASA 
commercial flights.
    In preparing for the transition, MOD ensured that experience in all 
technical areas, particularly those that are launch and entry related, 
are retained in the MOD work force. In some areas MOD may be down to 
few individuals, but it still maintains the full range of technical 
expertise in the division.
    JSC has archived the MOD launch and entry experience through a 
detailed series of video-documentaries that include simulation runs in 
mission control and the simulators and interviews with MOD leaders and 
Shuttle veterans. The remaining Shuttle-experienced personnel have been 
redeployed to ISS operations support, Orion and SLS development, 
commercial crew development and direct support to JSC Engineering. In 
parallel, MOD has aggressively pursued roles with next generation NASA 
or commercial spacecraft to leverage the expertise, experience and 
operations culture unique to MOD.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Robert M. Lightfoot

    Question 1. In May the administration announced its decision to 
proceed with the Orion contract and in September it announced its plans 
and architecture for SLS. Since the announcement of decisions to 
proceed with Orion and the SLS, what has your Center been able to do 
that it previously was unable to accomplish?
    Answer. The NASA Authorization Act of 2010, released in October 
2010, necessitated immediate planning to meet an ambitious schedule. 
Significant progress was made in the first half of calendar year 2011 
to position the agency to achieve this goal including a Requirements 
Analysis Cycle and Mission Concept Review that yielded an informed 
architecture decision. The formal approval of the architecture enabled 
an initial system design to which credible development schedules and 
budget requests are anchored, and the execution of acquisition plans to 
implement contracts to procure the various elements of the SLS system 
and retain key Shuttle assets applicable to the SLS design selected 
otherwise contracted for excess or archive. Also since the 
announcement, the Program has been given the necessary authorities, 
including a Key Decision Point (KDP-A) memo and Formulation 
Authorization Document authorizing the program to proceed from pre-
formulation into formulation that will enable the Agency to meet the 
programmatic and technical requirements necessary to achieve major 
review milestones leading to the next KDP, graduating the program from 
formulation to implementation.

    Question 2. With regard to the announcement of the decision on the 
Space Launch System, has your employee and contractor workforce become 
more stable subsequent to that announcement? Are you expecting any more 
layoffs or major adjustments in work force?
    Answer. Given the announcements of the Space Launch System (SLS) 
and the passage of NASA's 2012 appropriation, the employee and 
contractor staffing levels have become more stable. MSFC will continue 
to balance supply with program/project demand to ensure that 
capabilities are affordable and align with long-term strategic goals of 
the Agency. In doing so, we do not anticipate any major adjustments to 
current workforce staffing levels.

    Question 3. You each represent Centers with historically major 
responsibilities for human space flight programs. Obviously, there are 
many capabilities and considerable expertise at NASA Centers throughout 
the country. Would you please describe the specific steps you are 
taking to maximize the NASA ``Talent Pool'', wherever it is physically 
located, to not only help you fulfill your primary Center Roles, but 
contribute to the improved efficiency and effectiveness of NASA as a 
whole?
    Answer. MSFC has proactively maximized the use of the Agency's 
talent pool by meeting with multiple Centers to discuss how best to 
partner on current and future programs/projects. Some specific 
capabilities-driven areas of collaboration include space environments, 
fluids, structures and propulsion testing, composites, cryofluids and 
acoustics. Additionally, in November, the Directors from Glenn Research 
Center, Langley Research Center, Marshall Space Flight Center, Stennis 
Space Center, Dryden Flight Research Center, Kennedy Space Center and 
Johnson Space Center hosted joint all-hands forums at each Center 
location which allowed employees to understand activities underway at 
other Centers and to promote collaboration between Centers to improve 
the efficiency and effectiveness of NASA.
    Recently, the National Institute for Rocket Propulsion Systems 
(NIRPS) was created to stimulate collaboration and partnerships between 
NASA, the Federal Aviation Administration, the Department of Defense, 
industry, and academia. Its establishment provides stewardship of our 
Nation's propulsion capabilities while recognizing their vital role in 
national security, economic competitiveness and the continued 
exploration of space. The NIRPS will address key challenges facing the 
rocket propulsion industrial base such as:

  <bullet> Reducing development and sustainment costs for missile and 
        rocket systems

  <bullet> Supporting the competitiveness and resilience of the 
        industrial base

  <bullet> Fostering access to facilities and expertise across 
        government, industry and academia

  <bullet> Developing and implementing an integrated science and 
        technology plan for propulsion systems

  <bullet> Invigorating the Science, Technology, Engineering and 
        Mathematics (STEM) pipeline

  <bullet> Collaborating across agencies for missile and rocket 
        propulsion system development

    Question 4. In Mr. Bolden's testimony he states that the SLS 
Program has streamlined its interfaces, workflow, and decision-making 
process. As head of the leading Center for SLS development, can you 
give examples of how the Program is going to be more streamlined and 
more efficient?
    Answer. Across the SLS Program, there is an unprecedented focus on 
affordability. Due to the fiscally constrained budget environment, it 
is imperative that SLS define and implement an affordability strategy 
that challenges the culture to become more cost conscious in every 
single activity at each organizational level.
    One area in particular that is part of the affordability strategy 
is government insight and oversight of contracted activities. SLS 
management has set forth a deliberate strategy for implementing the 
appropriate level of risk-informed insight and oversight levels. 
According to this strategy, insight levels will be based on risk 
assessments of known historic failures in the aerospace industry, past 
performance of industry partners, as well as inherent complexity and 
design challenges. Oversight will be discrete based around major 
milestones and events rather than near-continuous coverage. This 
approach will limit government involvement to provide cost savings 
within the government workforce as well as savings on the contractor 
side due to fewer interactions.
    Another area is that of reduced documentation and applied 
standards. NASA and the SLS Program have reduced the number of Data 
Requirements levied on the contractor, which translates to contract 
cost savings. Additionally, rather than levying NASA-unique standards, 
industry standards are being used to the maximum extent practicable.
    A third area of affordability measures is that of robust designs 
and margins. To continue to drive down costs, all development and 
operational decisions will consider affordability with associated 
technical implications. All options, including questioning unaffordable 
requirements, will be pursued. This will create opportunities to 
exchange excess performance for cost savings thereby improving 
affordability. An example of this is the utilization of heavier 
materials, which may decrease performance capability but provide cost 
savings. Maintaining margins in technical capability rather than 
chasing high performance capability as in the past will be an enabler 
to this strategy.

    Question 5. How is the Program minimizing requirements and dealing 
with the age-old problem of ``requirements creep''?
    Answer. The imperatives of affordability and sustainability have 
been basic elements underlying all planning for a new era of efficient 
and effective space exploration. The Agency's Human Exploration and 
Operations Mission Directorate (HEOMD) has embraced requirements 
control as a fundamental tool in meeting this challenge. As a result, a 
concerted effort to levy only the most necessary requirements on the 
SLS Program has yielded a greatly reduced number of ``top-tier'' or 
HEOMD requirements. The Mission Directorate is thereby delegating 
responsibility to the programs to meet a set of fewer prescriptions 
while still meeting the goals and objectives. Likewise, the SLS Program 
has made a similar concerted effort to reduce ``second-tier'' 
requirements. In fact, this second tier set of requirements levied by 
the SLS Program has been reduced by an order of magnitude when compared 
to similar large-scale programs/projects. Additionally, system 
requirements and associated verification will be defined early and 
changes minimized, technical content will be prioritized to clearly 
delineate needs from wants, and specifications, standards, and 
procedural directives will only be imposed on contractors where a 
clearly defined need exists.

    Question 6. Can you describe what aspects of the SLS development 
will be competitively bid, and what sort of timeline those competitive 
processes will occur?
    Answer. The Draft NASA Research Announcement (NRA) for the Advanced 
Booster Engineering Demonstration and Risk Reduction effort was 
released on December 12, 2011. The SLS Program conducted an Industry 
Day with prospective offerors on December 15, 2011. The final 
solicitations will be issued in the first quarter of calendar year 
2012; proposals are expected in the second quarter of calendar year 
2012; and awards made later in calendar year 2012 with performance 
starting in October 2012.
    Advanced Development activities will be focused on evolving the 
vehicle to the 130 metric ton capability with an emphasis on 
affordability, safety and reliability. Specifically, Advanced 
Development will focus on the areas of concept development, advanced 
development in propulsion, structures, materials and manufacturing, and 
avionics & software. This will result in multiple awards also in 
October 2012 after a solicitation release in the first quarter of 
calendar year 2012. These procurements will be open to both industry 
and academia.
    Acquisition strategies for other elements, such as future core 
stage engine, and spacecraft and payload adapter and fairing, will be 
developed over the next several years consistent with the budget 
profile and anticipated need dates for the actual components.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                          Robert M. Lightfoot

    Question 1. I understand your greatest focus at Marshall Space 
Flight Center is on vehicle development. But you also have a space 
station payload operations center there, as I understand it. Can you 
describe that activity, and how it integrates with over-all station 
operations--and how it might be impacted by increased commercial use of 
the space station within the National Laboratory activity?
    Answer. Marshall Space Flight Center's (MSFC) Payload Operations 
Center (POC) has coordinated scientific research carried out aboard the 
International Space Station (ISS) since 2001. This activity includes 
supporting operations around the clock, 7 days a week; integrating 
research requirements; planning and safely executing science missions; 
managing the use of ISS payload resources; conducting science 
communications with the Station crew; and managing payload commanding 
and data and video transmissions to and from ISS. The POC teams also 
train Station crewmembers and ground controllers to operate and 
maintain U.S. science experiments aboard the Station. The POC acts as a 
Backup Control Center for Mission Control Center--Houston (MCC-H) in 
the event of a catastrophic event. While this is primarily a hurricane 
season (June to November) contingency, the POC can be activated in the 
event of the unanticipated and immediate loss of capability at MCC-H. 
In this mode, the POC would be able to handle U.S. Lab operations and 
provide limited support to the International Partners.
    The POC provides a critical interface to NASA's International 
Partners and the research community utilizing the U.S., Japanese, and 
European science labs. In this role, the POC synchronizes payload 
activities among the Partners, and provides data and video 
transmissions to the Partners' sites. As the National Lab community 
grows and becomes an integral part of the research conducted aboard 
Station, the POC team will perform these integration functions to 
ensure that the commercial research community can successfully train, 
plan, and execute their science investigations. In the future, the MSFC 
POC will have increased capabilities, and will apply its experience to 
the next generation of U.S. human space systems. The POC has been 
approved to support around-the-clock ISS payload operations through 
2020, including the accommodation of increased science throughput and 
payload operations associated with the advent of six-person crews in 
2009. Since 2009, the POC has incorporated full backup command and 
telemetry capabilities for the International Partners into the Backup 
Control Center architecture. In 2012, the Station will complete an 
upgrade to the avionics systems which will increase bandwidth and 
communications capabilities, enabling the POC to realize increased 
communications efficiencies.

    Question 2. I have posed this same question to Administrator 
Bolden, but I would like your response to it, including any additional 
details or points that may not have been included in the 
Administrator's response. Regarding the competition for the advanced 
booster, what is the planned timeline, from start to finish? How firm 
are these timelines? In addition, how will NASA ensure that the 
competition for the advanced booster project will be executed in fair 
manner? Could you give details regarding these steps?
    Answer. The Draft NASA Research Announcement (NRA) for the Advanced 
Booster Engineering Demonstration and Risk Reduction phase was released 
on December 12, 2011, to improve the competitiveness of competing 
propulsion technologies and business cases before work begins on the 
actual Design, Development, Test and Evaluation (DDT&E) of the final 
booster configuration. The SLS Program conducted an Industry Day with 
prospective offerors on December 15, 2011. The final solicitations will 
be issued in the first quarter of calendar year 2012; proposals are 
expected in the second quarter of calendar year 2012; and awards made 
later in calendar year 2012 with performance starting in October 2012. 
These dates are firm.
    The SLS Advanced Booster Engineering Demonstration and Risk 
Reduction acquisition effort will increase affordability, performance, 
and reliability confidence of an Advanced Booster concept which will 
enable SLS to evolve to a 130 metric ton lift capability, and reduce 
risks for both liquid and solid Advanced Boosters concepts. The 
notional SLS Advanced Booster will require a significant increase in 
thrust from any known existing solid or liquid booster in the U.S. 
inventory. The DDT&E effort will be solicited in the 2013-2014 
timeframe, after results are received from the risk reduction effort. 
SLS is targeting the first flight of the Advanced Booster for the third 
SLS flight in the 2023 timeframe.
    First, the SLS Program is engaging industry early in the 
acquisition process to ensure requirements and the solicitation are 
written to maximize competition. Potential offerors have been asked for 
their comments in a Request for Information issued in October, then 
through the comment process on the draft NRA, and have also been 
invited to sit one-on-one with the proposal evaluation team. Second, a 
detailed technical library is being provided to maintain 
competitiveness across all potential offerors. Finally, the evaluation 
criteria in the solicitation have been thoroughly reviewed within the 
Agency to ensure the best solicitation to yield competitive proposals 
and an equitable evaluation.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
